APPENDIX B

Opinion dated July 14, 2017
Donald Dallas v. Jefferson S. Dunn, Commissioner, et. al.,
United States District Court, Middle District of Alabama
Case No.: 2:02-cv-00777-WKW-SRW

Appendix B-1
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 1 of 263

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
DONALD DALLAS,

)
)

Petitioner,

)
)

)

v.

CASE NO. 2:02-CV-777-WKW

)

JEFFERSON S. DUNN,
Commissioner, Alabama Department
of Corrections,

)

)
)
)

Respondent.

)

MEMORANDUM OPINION AND ORDER
Petitioner Donald Dallas filed this federal habeas corpus action pursuant to 28
U.S.C. §2254 challenging his October 1995 Montgomery County conviction for
capital murder and sentence of death. For the reasons set forth below, Petitioner is
entitled to neither habeas corpus relief nor a Certificate of Appealability.
I. BACKGROUND
A. The Offense
There is no genuine dispute as to the facts of Petitioner’s offense. The day of
his arrest for the murder of 73-year-old Hazel Liveoak, Petitioner gave police a
videotaped statement in which he admitted he and an accomplice (1) kidnapped the
elderly Mrs. Liveoak from a grocery store parking lot in Prattville, Alabama, on the
afternoon of July 12, 1994, (2) drove her in her own vehicle to a location south of

Appendix B-2
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 2 of 263

Montgomery where, despite her protests that she had a heart condition, he convinced
her to get into the trunk of her car with a promise to release her once they reached
her bank, (3) drove Mrs. Liveoak to a parking lot in south Montgomery where
Petitioner and his accomplice convinced her to furnish the access code for her bank
card and withdrew money from her bank account using her bank access card after
promising to notify police of her location, (4) abandoned Mrs. Liveoak’s vehicle
(with her still in the trunk) in an isolated area of a K-Mart parking lot where it was
discovered the following day containing Mrs. Liveoak’s lifeless body, and (5)
despite Petitioner’s repeated assurances and promises, made no effort to contact or
notify anyone of Mrs. Liveoak’s location or perilous predicament. i

Petitioner

1 Petitioner’s videotaped statement to police was admitted into evidence without objection
during his capital murder trial as State Exhibit 40 and played in open court for the jury. State Court
Record (henceforth “SCR”), Volume 7, at pp. 647-48 (i.e., 7 SCR 647-48). A verbatim
transcription of the audio portion of the same videotape recording was admitted into evidence as
State Exhibit 41 and appears among the State Court Record at 3 SCR 457-69. Petitioner’s
statement was actually a series of questions and answers during a Mirandized custodial interview
in which Petitioner stated that (1) he told Mrs. Liveoak he would check on her and call police to
tell them where she was, 3 SCR 458-49, 463, (2) Mrs. Liveoak informed him she had a heart
condition, 3 SCR 458, (3) as he drove Mrs. Liveoak to Greenville immediately after her abduction,
Petitioner informed her that he had a crack problem and she prayed for him, 3 SCR 463, (4) he
promised his accomplice he would let Mrs. Liveoak out of the trunk, 3 SCR 461, (5) once he and
his accomplice obtained money from Mrs. Liveoak’s bank account, they left the scene in a cab, 3
SCR 459, (6) after abandoning Mrs. Livepoak in her trunk, he and his accomplice went to a
location in Montgomery where they purchased and used crack cocaine, 3 SCR 461, (7) the morning
after he abandoned Mrs. Liveoak in the trunk of her car, Petitioner awoke and assumed it was too
late to call police to help her so he began shoplifting to get more money, 3 SCR 461, 463, and (8)
when he learned from a television report that Mrs. Liveoak had been found dead, he cut his hair
and planned to commit suicide-by-police during an armed robbery of a bank, 3 SCR 461. In his
statement, Petitioner specifically denied any intent to harm anyone. 3 SCR 464.
2

Appendix B-3
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 3 of 263

testified at the guilt-innocence phase of his trial in a manner consistent with his post­
arrest statement to police.2

2 More specifically, Petitioner testified on direct examination at the guilt-innocence phase
of his capital murder trial that (1) he pushed Mrs. Liveoak into her vehicle and drove off from the
WalMart parking lot, (2) she was scared and volunteered to get money from her credit card, (3) he
told her he had a crack problem, (4) she prayed for him, (5) he told her he would not hurt her, (6)
he drove them on the Interstate south and exited on a dirt road, (7) he directed her to get out and
walk into the woods but she said she was scared so he suggested she get into the trunk, (8) he told
her she would get out as soon as he got to the bank and got the money, (9) he drove to the AmSouth
Bank on South Boulevard in Montgomery, (10) his accomplice Carolyn “Polly” Yaw was initially
unable to get the bank’s teller machine to work, (11) he got out of Mrs. Liveoak’s car and sat on
the trunk so he could hear her better, (12) Mrs. Liveoak told him the phone number of her son but
he did not write it down and, instead, told her he would call police to rescue her, (13) after he and
Yaw obtained money from Mrs. Liveoak’s bank account, they called a cab and left the scene, (14)
they went to Chester Foley’s house to get crack cocaine, (15) they next went to a motel where they
smoked crack until the crack of daylight, (16) they left the motel at checkout time and returned to
Chester Foley’s house, (17) they went with Dennis “Tony” Bowen to get money for more drugs,
(18) he and Dale Blake went to steal more items to trade or sell to get more drugs, (19) he assumed
Mrs. Liveoak had gotten out of her vehicle and he was going to be arrested for kidnaping and
robbery, (20) he made an attempt the day after he left Mrs. Liveoak in her trunk to return to the
bank parking lot but the car in which he was riding broke down, and (21) he never intended to kill
Mrs. Liveoak. 7 SCR 794-803.
Significantly, Petitioner also testified on direct examination that he made an attempt to
return to the place where he left Mrs. Liveoak because he “wanted to make sure she was gone”:
Once I went to the motel, I never left the motel. I tried one time, but the guy that
came over that Chester knew, I had asked Chester if he knew anybody with a car
that could take me somewhere and bring me back. This is when Chester first came
back with the drugs, because at the time I wanted to make sure she was gone. But
I didn’t want to call a cab, because I didn’t want to get caught, because I took a cab
away from there. I knew if I called the Yellow Cab Company or any cab company,
that they would be looking out for me. 8 SCR 801-02 (emphasis added).
On cross-examination, Petitioner testified (1) he had previously been convicted on charges
of possession of a forged instrument, first degree burglary, first degree kidnaping, and second
degree robbery, 8 SCR 803, (2) on the drive from Prattville after he abducted Mrs. Liveoak, she
informed him she had a heart problem, 8 SCR 816, (3) “Like I say. I wasn’t thinking too many
things but one thing. I am robbing somebody, and I am going to be in big trouble. I am going to
spend a lot of time in jail if I get caught doing this.”, Id., (4) he was not thinking and only wanted
to get dope and get into his own world, 8 SCR 817, (5) he never thought about killing anyone, 8
SCR 818, (6) he passed a number of pay phones on the way to the crack house and the motel on
the evening he abandoned Mrs. Liveoak in her trunk but he made no effort to stop and place a call
to anyone to alert them to Mrs. Liveoak’s location, 8 SCR 822, (7) he did not use the motel phone
3

Appendix B-4
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 4 of 263

B. Indictment
In October 1994, a Montgomery County grand jury returned a seventeencount indictment charging Petitioner with (1) two counts of capital murder, i.e.,
intentionally causing the death of Hazel Liveoak (a) by inducing a heart attack by
confining her in an automobile trunk during a kidnaping, to wit, abducting her with
the intent to accomplish or aid the commission of felony robbery and (b)
intentionally causing the death of Hazel Liveoak by confining her in an automobile
trunk and causing death during a robbery, i.e., the theft of a VISA card by force with
the intent to overcome her physical resistance causing serious physical injury, (2)
three counts of fraudulent use of a credit card, (3) one count of theft of property by
deception, and (4) eleven counts of unauthorized use of a communications device.3
C. Guilt-Innocence Phase of Trial
The guilt-innocence phase of Petitioner’s capital murder trial commenced on
October 17, 1995.
1. The Prosecution’s Evidence
The prosecution presented Mrs. Liveoak’s son who testified regarding the
circumstances surrounding her disappearance and his delivery of a spare key to her

to call for help for Mrs. Liveoak, 8 SCR 823, and (8) he was worried about getting caught and cut
his hair after he learned of Mrs. Liveoak’s death, 8 SCR 825.
31 SCR 7-23.
4

Appendix B-5
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 5 of 263

vehicle to a law enforcement officer in Millbrook.4

A university maintenance

worker testified that (1) he heard a radio broadcast regarding a missing person
driving a maroon Chrysler with an Elmore County license plate, (2) he observed a
red vehicle with an Elmore tag parked in a very isolated location within a K-Mart
parking lot in South Montgomery, and (3) he called police when he got home.5 The
former police chief of Millbrook testified he (1) delivered the key to Mrs. Liveoak’s
vehicle to Montgomery police officers at the K-Mart parking lot and (2) was present
when other law enforcement officers opened her automobile trunk and discovered
her lifeless body.6

A Montgomery police patrol officer testified regarding the

isolated location of Mrs. Liveoak’s vehicle within the K-Mart parking lot and the
conditions inside her passenger compartment when the vehicle was discovered,
including the fact no keys were found inside the vehicle.7

4 6 SCR 548-54 (testimony of Larry Liveoak). More specifically, Mr. Liveoak testified
that (1) he last saw his widowed mother on the afternoon of July 12, 1994, (2) when he went by
her home later that same day, she was not there, (3) he contacted the police dispatcher in Millbrook
to report her missing, (4) after an unsuccessful all-night search for her and her vehicle, he went to
a television station to seek assistance in locating her, (5) the following day, he was notified her
vehicle had been found, and (6) a Millbrook police officer picked up his mother’s keys from him.
Id. Mr. Liveoak also identified photographs of his mother and her vehicle. Id., at 553.
5 6 SCR 554-60 (testimony of Richard Walker). Mr. Walker also identified photographs
of Mrs. Liveoak’s car in the location where it was parked in the K-Mart parking lot. 6 SCR 560.
6

6 SCR 561-68 (testimony of Danny Pollard). Mr. Pollard also testified that, upon the
discovery of Mrs. Liveoak’s body, the Violent Crimes Task Force was notified of the crime. 6
SCR 567.
7 6 SCR 568-75 (testimony of R.C. Cleghom). Officer Cleghom also testified (1) the
vehicle did not contain a trunk release in the passenger compartment or glove box, (2) the vehicle
was parked a “good distance” from the store and bank and all other vehicles in the parking lot, (3)
5

Appendix B-6
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 6 of 263

A Montgomery police evidence technician testified that (1) he photographed
Mrs. Liveoak’s lifeless body after it was discovered inside the trunk of her car, (2)
her vehicle was located 350 feet from the K-Mart store, 202 feet from the AmSouth
Bank, and 166 feet from East South Boulevard, (3) after her body was removed, her
vehicle was taken to a police facility and processed for fingerprints, (4) the entire
crime scene was photographed and videotaped, (5) an earring matching one found
inside the trunk was found outside the lip of the trunk, (6) no fingerprints were found
inside the interior of the vehicle, but (7) a palm print was found on the outside of the
vehicle’s trunk.8 A latent fingerprint examiner testified that Petitioner’s palm print
matched that lifted from the driver’s side of the trunk lid of Mrs. Liveoak’s vehicle.9
The state medical examiner testified that (1) he performed an autopsy on the
73-year-old Mrs. Liveoak on July 14, 1994, (2) Mrs. Liveoak had bruising on the
right side of her head, the backs of both hands and wrists, and her right biceps, (3)

the driver’s and passenger side front windows were partially down and a strong foul odor emanated
from inside the vehicle, (4) a drop of blood was observed underneath the rear trunk lid, and (5)
spoiled food in a plastic bag was found on the floor inside the passenger compartment. Id. He
also identified photographs of the interior of the passenger compartment. Id., at 573-74.
8 6 SCR 575-600, 7 SCR 601-02 (testimony of S.Z. Smith). Detective Smith also testified
(1) a useless fingerprint was lifted on a window, (2) a brownie wrapper was found on the rear seat
of the car’s interior, (3) no other vehicles were located around Mrs. Liveoak’s vehicle, (4) no
sounds came from inside the vehicle or its trunk before the arrival of the vehicle key, (5) Mrs.
Liveoak’s left hand showed visible bruising, (6) a cloth purse was found inside the vehicle
containing an address book and pocket planner but no money or credit cards, and (7) Mrs.
Liveoak’s tennis shoes were found inside the trunk of the car after her body was removed. Id.
9 6 SCR 603-07 (testimony of Danny Smith).
6

Appendix B-7
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 7 of 263

she also had non-life-threatening minor cuts to both her palms, (4) the bruising and
lacerations to her hands were consistent with efforts to bang on a trunk lid to get out,
(5) the bruising to her right arm was consistent with someone grabbing her in an
effort to control or manipulate her, (6) her heart displayed extreme arthrosclerosis,
i.e., blockage, in the descending coronary artery, (7) he found evidence she had
suffered a prior heart attack but had recovered from same, (8) he did not find
evidence of a recent heart attack, (9) her general cardiac health was “very
questionable,” (10) there was evidence the blood supply to the heart was markedly
diminished, (11) he found severe pulmonary edema, i.e., fluid backed up into the
lungs, (12) her heart was failing, (13) her cause of death was cardiac failure, (13) the
manner of her death was homicide, (14) while Mrs. Liveoak apparently was able to
do her daily chores and take care of her personal affairs, she lacked the cardiac
reserve to be able to handle the extremely stressful confines in which she was placed,
i.e., being confined in a hot, dark, space for hours, and (15) her heart could not take
the stress, which is why he concluded her death was the result of “homicide by heart
attack.”10
A Montgomery Police Detective testified that (1) there were no signs of life
but there was a strong odor of spoiled milk and a body when he arrived at the K10 7 SCR 609-24 (testimony of Allan Stillwell). On cross-examination, Dr. Stillwell
admitted he could not testily as to the intent of the actor who placed Mrs. Liveoak inside her
automobile trunk. Id., at 623.
7

Appendix B-8
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 8 of 263

Mart parking lot around 2010 hours on July 13, 1994, (2) no other cars were parked
near Mrs. Liveoak’s vehicle, (3) when the trunk lid was opened, there was
condensation on the inside lid of the trunk, (4) Mrs. Liveoak’s pants were stained
and there were visible bruises and scratches on her hands, (5) paramedics present
when the trunk was opened found no signs of life in Mrs. Liveoak’s body, (6) her
body was taken away for autopsy, (7) no car keys were found inside Mrs. Liveoak’s
vehicle, (8) her purse was found but not her billfold, (9) after speaking with Tony
Bowen, he and other law enforcement officers developed Petitioner and Carolyn
“Polly” Yaw as suspects, (10) he discovered Petitioner and Yaw had registered at a
motel on July 13, 1994, (11) a search for a white vehicle driven by “Blake” led to
the arrests of Petitioner and Yaw after a brief chase, (12) he gave Petitioner his
Miranda warnings, (13) Petitioner indicated that he understood his rights, read his
rights form, and signed same, (14) he advised Petitioner he was charged with capital
murder and faced the death penalty or life in prison, (15) Petitioner did not appear
to be intoxicated or under the influence of alcohol or narcotics, (16) Petitioner was
cooperative, (17) during his initial interview, Petitioner stated that (a) he found Mrs.
Liveoak’s vehicle with the keys inside it in the Wal-Mart parking lot in Prattville,
(b) he drove the vehicle to the K-Mart in Montgomery, (c) he opened the trunk of
her vehicle, (d) he found her body, and (e) he closed the trunk lid and left the scene,
(18) after further questioning, Petitioner admitted that (a) he grabbed the lady in the
8

Appendix B-9
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 9 of 263

WalMart parking lot, (b) she screamed and hollered as he drove her vehicle to
Greenville, (c) he put the lady in the trunk of her car despite the fact the victim said
she had a bad heart, (d) he told her he would send someone to get her out once he
left her, (e) he passed out after doing crack the evening of the kidnaping and did not
wake until the following morning, and (f) when he awoke he figured it was too late
to get help for the lady, (19) a knife was recovered from the rear passenger side
floorboard of the white vehicle in which Petitioner was riding at the time of his
arrest, and (20) Petitioner gave a voluntary videotaped statement that was not
induced by any promises, threats, or other forms of coercion.11
Dennis Anthony Bowen testified that (1) he met Petitioner in July 1994 when
he went to Chester Foley’s house to smoke crack cocaine, (2) at the time of
Petitioner’s capital murder trial, he had been in an outpatient drug treatment program
for about a year, (3) in July 1994 he drove Petitioner and Carolyn “Polly” Yaw to
WalMart to shoplift cigarettes to get money to buy drugs, (4) Petitioner ran out of
the store carrying a television in a box, (5) Petitioner threw the box into the bed of
Bowen’s truck, wrestled with a store employee, and then jumped into the truck, (6)
Bowen drove away, (7) Bowen and Petitioner were both later arrested in connection

11 7 SCR 624-64 (testimony of Steve Saint). Detective Saint also testified without
contradiction that the transcription of Petitioner’s videotaped statement admitted without objection
at trial as State Exhibit 41 was an accurate transcription of the videotaped recording admitted
without objection at trial as State exhibit 40. Id.,at 648.
9

Appendix B-10
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 10 of 263

with the incident at WalMart, (8) through conversations with Chester Foley,
Petitioner, and Yaw, Bowen became aware that Petitioner and Yaw claimed they
robbed and placed an old lady in a trunk and got money with the lady’s bank card,
(9) when Bowen asked Petitioner and Yaw about their claims, Petitioner
sarcastically responded that he wished or hoped the old lady died, and (10) Bowen
saw an article in the next morning’s newspaper about the missing woman, went to
visit his attorney, and met with police to reveal what he knew.12
An elderly man testified that (1) he went to the WalMart in Prattville on July
9, 1994 to return a microwave oven, (2) as he was returning to his car, a robber with
a knife got into his car and struck his fingers, (3) the robber drove his car to
Millbrook and stopped in a wooded area, (4) after he gave the robber about $170 in
cash, the robber forced him to get out of the car and lie down in the woods, (5) the
robber threatened to lock him in the trunk of the car but he protested that he would
“smother to death in there,” (6) the robber drove off in the victim’s car, (7) he got

12 7 SCR 664-701 (testimony of Dennis Anthony Bowen). Bowen acknowledged on direct
examination that he was high on crack cocaine at the time of his conversations with Petitioner and
Yaw. Id., at 672. On cross-examination, Bowen admitted (1) crack cocaine has a very intense
high which wears off very fast and leaves you with a craving for more, (2) he began using crack
cocaine in 1992, (3) when he met with police, Bowen did not inform them he had heard Petitioner
say he hoped Mrs. Liveoak would die, (4) he was charged with robbery and later pleaded guilty to
theft in connection with the incident at WalMart in July 1994, (5) an arrest warrant was then
outstanding for him due to his failure to comply with the conditions of his probation, and (6) that
day at Petitioner’s trial was the first time he had ever told anyone that Petitioner said he hoped or
wished Mrs. Liveoak died. Id.,at 675-08. On redirect, Bowen testified he had not been promised
anything to induce his testimony at Petitioner’s trial. Id., at 699.
10

Appendix B-11
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 11 of 263

up and walked about a mile down the road where he found his car but not the keys,
(8) he later saw a newscast regarding a missing lady and recognized Petitioner as his
robber, and (9) Petitioner pleaded guilty to robbing him.13
2. The Defense’s Evidence
Called by the defense, an acquaintance of Petitioner testified that (1) Petitioner
was crying and appeared to be worried after Petitioner saw television coverage of
the discovery of Mrs. Liveoak’s body and (2) Petitioner said that he had tried to get
“that boy” to take him back over there.14
A clinical psychologist who had examined Petitioner for competency to stand
trial testified that (1) Petitioner had a long history of substance abuse beginning with
alcohol abuse around age 7-8, regular marijuana use around age 12-13, and
intravenous drugs - including crystal meth and dilaudid - around age 13-14, (2)
people with an early history of IV drug abuse have a more difficult time quitting
because it retards social and psychological development, (3) those who smoke or
inhale crack cocaine have a harder time stopping its use and staying off it, (4) while

13 7 SCR 703-12 (testimony of Wesley Orville Portwood). Petitioner’s videotaped
statement to police admitted into evidence as State Exhibit 40 included admissions by Petitioner
that he was the individual who kidnaped and robbed Portwood. 3 SCR 459, 465-68.
14 7 SCR 727-30 (testimony of Rhonda Sue Chavers). On cross-examination, Ms.
Chavers testified the Petitioner cut his hair after seeing reports of Mrs. Liveoak’s death and never
mentioned Mrs. Liveoak on the night he stayed at Chavers’ residence, /.e.,,July 13,1994. Id., at
730-31.
11

Appendix B-12
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 12 of 263

crack is not physically addictive, i.e., there is no treatment regimen for addiction, it
results in a very intense psychological addiction causing a craving for the drug and
a dependence that requires users to need more of the drug to get the same effect, (5)
the psychological craving resulting from crack cocaine abuse causes intense
discomfort and irritability, (6) Petitioner has been diagnosed as dependent upon
cocaine, (7) at the time of his capital offense, Petitioner was binging on crack, i.e.,
he wanted more and more of the drug and used large quantities of crack within
shorter time periods, (8) Petitioner had been binging on crack for twelve days prior
to his encounter with Mrs. Liveoak and was oblivious to time at that time, (9)
Petitioner was functioning at below the average intelligence level at the time of his
capital offense, (10) despite his abuse of crack, Petitioner knew the difference
between right and wrong, (11) Petitioner became tearful when he related the
circumstances of Mrs. Liveoak’s death, and (12) Petitioner was remorseful
denying he ever intended for Mrs. Liveoak to die.15

15 7 SCR 743-61 (testimony of Dr. Guy Renfro). On cross-examination, Dr. Renfro
testified that (1) Petitioner knew it was wrong to abduct and rob Mrs. Liveoak and leave her in
the trunk of her car, (2) not every drug addict commits violent crimes, and (3) crack use
increases the propensity for violence because it makes users more confrontational. Id., at 76164. On re-direct examination, Dr. Renfro testified (1) the craving effects of crack affect a user’s
choices and (2) crack is a “drug of concern.” Id., at 764-66.
12

Appendix B-13
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 13 of 263

An attorney (and Petitioner’s court-appointed mitigation specialist) testified
the federal Sentencing Guidelines treated crack cocaine as more dangerous and
addictive than powder cocaine.16
Petitioner testified on direct examination that (1) he was bom and raised in
New York until age 6 or 7 when his parents divorced and he moved with his mother
and two of his siblings to Florida, where he began abusing alcohol, (2) he skipped
school regularly, (3) he played in a band in bars with his step-father beginning
around age 10 and continued drinking alcohol, (4) he began using marijuana around
age nine and often stole from his mother to pay for pot when he was in middle school,
(5) he had no parental supervision growing up and did not attend church, (6) he
began using cocaine intravenously around age 13, (7) crystal meth, used
intravenously, became his drug of choice around the same time, (8) he also abused
Quaaludes, Placidyls, Desoxyns, Mepergan, Deerol, and LSD, (9) he “discovered”
crack cocaine in 1992 which he smoked, (10) he had been doing crack for about two
weeks immediately prior to his encounter with Mrs. Libeoak, (11) he pawned
everything he owned to buy crack, (12) he stole cigarettes and meat from grocery
stores to pay for drugs, which he bought from Chester Foley, (13) he and Carolyn
Yaw have five children, (14) he and Mike Kelly robbed Mr. Portwood at knife point,

16 7 SCR 767-77 (testimony of Susan James).
13

Appendix B-14
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 14 of 263

(15) he never touched Portwood but did threaten him, (16) the night before he
encountered Mrs. Liveoak, he traded a stolen bicycle for crack, (17) he pushed Mrs.
Liveoak into her car and drove away from the WalMart in Prattville, (18) Mrs.
Liveoak was scared and offered to get money for him from her credit cards, (19) as
he drove Mrs. Liveoak’s car south on the Interstate, he told her he had a crack
problem and she prayed for him, (20) he drove to a road in the woods, stopped the
car, and directed Mrs. Liveoak to get out and walk into the woods, (21) when she
said she was scared, he suggested she get into the trunk and promised she would get
out as soon as he got to the bank and got the money, (22) when they reached the
AmSouth Bank on South Boulevard in Montgomery, initially Carolyn Yaw could
not get the teller machine to work, (23) he had been speaking with Mrs. Liveoak
from inside the car but he got out and sat on the trunk to hear her better, (24) when
Mrs. Liveoak gave him the phone number for her son, he did not write it down, (25)
he promised Mrs. Liveoak he would call the police to let her out of the trunk, (26)
after he and Carolyn Yaw got money from Mrs. Liveoak’s bank account, they called
a cab and left for Chester Foley’s house, (27) they later went to a motel where they
smoked crack until dawn, (28) at check-out time, they went back to Chester Foley’s
house, (29) he, Yaw, and Dennis Bowen went to the WalMart in Prattville to steal
things to trade for more crack, (30) he and Dale Blake went to Wetumpka and
Millbrook and stole items to trade for crack, and (31) when he awoke the morning
14

Appendix B-15
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 15 of 263

after his encounter with Mrs. Liveoak, he assumed she had gotten out of her trunk
and he was likely wanted for kidnaping and robbery.17

17 7 SCR 778-800, 8 SCR 801-03 (testimony of Donald Dallas). Petitioner’s direct
examination ended with the following exchanges:
Mr. Dallas, this jury and this Court and this family want to know
Q:
why you didn’t make the phone call?
A:
Once I went to the motel, 1 never left the motel. I tried one time, but
the guy that came over that Chester knew, I had asked Chester if he knew anybody
with a car that could take me somewhere and bring me back. This is when Chester
first came back with the drugs, because at the time I wanted to make sure she was
gone. But I didn’t want to call a cab, because I didn’t want to get caught, because
I had took a cab away from there. I knew if I called the Yellow Cab Company or
any cab company, that they would be looking out for me. So Chester brung [sic]
the guy that lives across the street from him to the motel. Of course, he knows that
I am a crack addict. I told him I would give him twenty-five dollars to carry me
over to the Southern Bypass to let me look at something, and if everything was
okay, then I would give him some more money to fill his car up with gas and buy
his beer, because he was young. So we started over there, and his car overheated,
so we didn’t make it no further than the first store we stopped to get gas at. So me
being in the public when I am hitting crack, I can’t do, so I suggested to go back to
the motel, and I asked Chester to find us another ride. Chester knew, I guess, what
I was trying to do, because he was the only one I had told. 1 never left again. I
smoked crack to daylight. I never used the phone. And by the next day, I never
heard anything about it, so I started hustling trying to get money to get more crack.
Mr. Dallas, did you intend to kill Hazel Liveoak?
Q
No, 1 did not. I didn’t intend to kill nobody.
A
Was your purpose just to get money?
Q
A
(No verbal response.)
8 SCR 801-03 (Emphasis added).
During his cross-examination, Petitioner testified as follows:
But you were more comfortable just to leave her in the trunk of the
Q:
car? Were you more comfortable leaving her in the trunk of the car, putting her in
the trunk of the car?
A:
For me to get away?
Period.
When you put her in the trunk of that car. Were you more
Q:
comfortable putting her inside — a seventy-three-year-old woman, inside the trunk
of a car?
I wasn’t even thinking about nothing like that. I was thinking about
A:
getting the money.
When did you start thinking about the heart condition that she told
Q:
you about, Mr. Dallas?
When we was going down the interstate, like I said, we was talking.
A:
And she said she had a heart problem. I asked her was she okay. She said, yes, I
15

Appendix B-16
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 16 of 263

Petitioner’s cross-examination concluded as follows:
Q:
parking lot,
A:
Q:
A:
Q:
A:
Q:

There you are driving around, riding around in that
and there was Mrs. Liveoak still in the trunk of that car?
Yes.
And did you park the car back in the K-Mart parking lot?
Yes.
Mr. Dallas, why didn’t you leave the keys with the car?
I thought I did.
But you didn’t, did you?

am okay. I guess in my mind, you know, my daddy died of a heart attack. He was
a real physically active man. He died in his sleep of a heart attack. I just never
really thought about the heart attack. I don’t guess I thought it would ever happen.
Wait a second. You said your daddy died of a heart attack?
Q
A
Yes, he did.
And she tells you she has a heart condition, and you thought it was
Q
okay to put a seventy-three-year-old woman with a heart condition on a summer
afternoon in the trunk of a car?
A:
Like I say, I wasn’t thinking about too many things but one thing. I
am robbing somebody, and I am going to be in big trouble. I am going to spend a
lot of time in jail if I get caught doing this. And wasn’t really — if I had been
thinking, it would have never happened.
Spent a lot of time in jail if you get caught. Kind of cut down the
Q:
chances of getting caught, Mr. Dallas, if the witness who you abducted is dead,
isn’t it?
A:
No.
You don’t think that would cut down your chances of getting
Q:
caught?
A:
No. I knew I was going to get caught for robbing her. I didn’t wipe
off no fingerprints or try to do nothing. I wasn’t even thinking. I just wanted to get
the money and get the dope and get in my own world.
Q:
You were just talking about getting caught, Mr. Dallas. You just
abducted someone just a few days beforehand, correct?
A:
Correct.
Q:
You left that person alive, correct? That was the person that could
identify you possibly; isn’t that right?
A:
That’s why I knew I would get caught. Sooner or later, everybody
knows they are doing a crime they are going to get caught. With the drugs, you
don’t comprehend it.
Q:
But you also knew, Mr. Dallas, that if Mrs. Liveoak was dead, she
could not really identify you very well, could she?
A:
That ain’t so. That ain’t so. Never in my mind have I ever thought
about killing anybody.
8 SCR 815-18.
16

Appendix B-17
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 17 of 263

A:
If you didn’t find them, then, obviously not.
Q:
Mr. Dallas, why didn’t you at least move that car in a
closer position where someone might happen upon it?
A:
I wasn’t thinking about that.
Q:
You weren’t thinking about Mrs. Liveoak at all, were you?
A:
I just wanted to get out.
Q:
You didn’t care about Mrs. Liveoak, did you?
A:' That’s not so.
Q: Mr. Dallas, this is a woman that was praying for your crack
addiction. I think that’s what you testified to. Is that right?
A:
Yeah.
Q:
And you were paying her by leaving her in the trunk of a
car and parked that car in an area where it was not likely to be found
and she was not likely to be found. Is that how you repaid her, Mr.
Dallas?
A:
No.
Q:
Let me ask you this, Mr. Dallas. When you went over to
that crack house and got in that cab, it is a long way from K-Mart
parking lot to Chisholm, isn’t it?
A:
It is.
Q:
Do you have any idea how many pay phones you passed
along the way?
A:
I guess I figured she got found, because -Q:
That wasn’t my question.
A:
Redo your question, please.
Q:
Do you have any idea how many pay phones you passed
along the way?
A:
Five hundred.
Q: A bunch?
A: A bunch.
Q:
And you had eight hundred dollars on you, right? That’s
what you testified to?
A:
Right.
Q:
Out of that eight hundred dollars, do you think you may
could have gotten a quarter to use one of those pay phones?
A:
We never stopped.
Q:
Did you ever ask the cab driver to stop?
A
No.
Q:
When you went to the Coliseum Motel that night, you
didn’t have a way there, did you?
17

Appendix B-18
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 18 of 263

A:
Q:
A:
Q:

Yes.
You did?
Yes, sir.
I take it back. I am sorry. You had to get a ride to go there,

right?
A:
Yes, I did.
Q:
From the crack house, Chester Foley’s house or whatever
it was in Chisholm to the Coliseum Motel, did you pass a number of
pay phones at that time?
A:
Yes.
Q:
Still had money on you, too, didn’t you?
A:
Yeah.
Q:
Obviously you had money on you, because you had
enough money to get a hotel room?
A:
Correct.
Q:
Didn’t use a quarter at that time to call for help, did you?
A:
I never used the phone.
Q:
Never stopped, did you?
A
No.
How about the Coliseum Motel itself, there were phones
Q
in that motel, weren’t there?
A
I expect so.
You expect so. Only you didn’t even try, did you?
Q
I never used the phone. I never used it.
A
I think you said you didn’t call a cab to go back over to the
Q
K-Mart parking lot to check on her, because you felt it may draw too
much attention to yourself?
A
(No verbal response.)
Is
that a yes?
Q
A
Yes.
Q:
Mr. Dallas, you don’t dispute at all that you intended to
abduct and kidnap Hazel Liveoak, correct?
A:
Correct.
Q:
And you don’t dispute that you did intend to rob Hazel
Liveoak?
A:
No.
Q:
You don’t dispute the fact that you intended to place Mrs.
Liveoak in the trunk of the car there on that dirt road?
A:
No.
18

Appendix B-19
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 19 of 263

Q:
And you don’t dispute the fact that you intended to leave
and drive around with Mrs. Liveoak in the trunk of that car; is that right?
A:
Yes.
Q:
You don’t dispute the fact that you intended to leave, when
you left the K-Mart parking lot, to keep Mrs. Liveoak in the trunk of
that car when you left?
A:
I never thought too much about it. When the money came
out of the machine, I guess that was it. I never thought about anything
but getting out of there.
Q:
And you were worried about getting caught?
A:
Yes.
Q:
As a matter of fact, you were so worried about getting
caught the next day when you found out about Mrs. Liveoak’s death,
you cut your hair to try and change your appearance?
A: I started to run, yeah.
Q;
Mr. Dallas, isn’t it true the first time you have shown any
remorse or any worry about what you did on that day is when you found
out that Mrs. Liveoak was dead.
A:
It wasn’t supposed to happen.
Q:
You didn’t show any remorse when you were hitting on a
crack pot that night, were you?
A: (No verbal response.)
Q: Were you?
A: (Witness shakes head negatively.)
Q: You didn’t show any remorse when you went up to WalMart to steal more for crack, did you?
A: No.
Q: You didn’t give her a thought?
A:
That’s crack addiction.
Q:
You didn’t give her a thought, did you?
A: Excuse me?
Q:
You didn’t give her a thought, did you?
A: I was wanted for robbery now.18

18 8 SCR 820-26 testimony of Donald Dallas).
Because Petitioner’s substantive claims and ineffective assistance claims are highly fact-sensitive
and overlap substantially, analysis of those claims set forth below will repeat relevant portions of
the evidence described in detail above, particularly the relevant portions of Petitioner’s critically
important trial testimony.
19

Appendix B-20
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 20 of 263

3. The Guilt-Innocence Phase Jury Charge and Verdict
The trial judge instructed the jury at the conclusion of the guilt-innocence
phase of Petitioner’s capital murder trial that (1) capital murder as defined by state
law “is basically intentional murder with something additional,” (2) count one of the
indictment against Petitioner charged intentional murder during a kidnaping, (3)
count two charged intentional murder during a robbery, (4) in addition to the capital
murder counts, the jury also had before it lesser-included offenses consisting of
felony murder and manslaughter, (5) the jury could convict Petitioner of capital
murder only if the jury concluded beyond a reasonable doubt that the Petitioner
caused the death of Mrs. Liveoak and intended to kill her, (6) a person acts
intentionally with respect to a result or conduct when it is his or her purpose to cause
that result or to engage in that conduct, (7) the jury could convict Petitioner of capital
murder only if it concluded beyond a reasonable doubt that the Petitioner abducted
or robbed Mrs. Liveoak or intended to accomplish or aid in the commission of the
kidnaping or robbery of Mrs. Liveoak or the flight therefrom, (8) evidence of
intoxication is relevant to negate an element of the offense charged, (9) to convict
when the defense of intoxication is raised, the prosecution must also prove beyond
a reasonable doubt that at the time of the alleged offense, the defendant did not, as a

20

Appendix B-21
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 21 of 263

result of being intoxicated, lack the capacity to either appreciate the criminality of
his alleged conduct or to conform his alleged conduct to the requirements of law,
(10) a person acts intentionally when his purpose is to cause a specific result, (11)
the jury could infer that a person intends the natural consequences of what he does
if the act is done intentionally, (12) the jury could consider the Petitioner’s conduct
and demeanor immediately after the crime in his statements to aid in characterizing
his intent, and (13) the jury’s verdict must be unanimous.19
The jury retired to deliberate at the guilt-innocence phase of trial at 1:30 PM
on October 19, 1995. 20' At 1:50 PM the same date, the jury returned its verdict on
all seventeen counts of the indictment, finding Petitioner guilty beyond a reasonable
doubt on all counts.21 The trial judge instructed the jury to return to the jury room
and to designate on the verdict form under which (or both) of the two theories of
capital murder the jury had convicted Petitioner of that offense.22 The jury returned
to the courtroom shortly thereafter, and the trial court asked the jury foreman in open
court whether the jury’s action in circling both kidnaping and robbery on the verdict

19 8 SCR 884-87, 899-908, 913-15, 917-18, 922. The state trial court’s guilt-innocence
phase jury instruction also clearly distinguished between the intentional murder required for a
conviction for capital murder and the reduced culpable mental state necessary to convict a
defendant of felony murder or manslaughter under applicable state law. Id., at 908-12.
20 8 SCR 931.
21 8 SCR 931-34.
22 8 SCR 934.
21

Appendix B-22
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 22 of 263

form indicated the jury had concluded Petitioner was guilty of capital murder under
both theories submitted in the jury charge; the jury foreman stated that was correct.23
D. Punishment Phase of Trial
The punishment or sentencing phase of Petitioner’s capital murder trial
commenced at 2:45 PM the same date.
1. Prosecution’s Punishment Phase Evidence
The prosecution presented only one witness at the punishment phase of
Petitioner’s trial - the victim’s son Larry Liveoak. Mr. Liveoak testified briefly
about (1) the stress and emotional duress he and his family suffered during the search
for his mother after she went missing, (2) the important role his mother played in
their family, (3) the good works his mother performed while alive, and (4) the impact
his mother’s death had on him and his family.24
2. Defense’s Punishment Phase Evidence
Petitioner’s older sister testified that (1) their family split up and there was a
lot of violence involving guns and knives between their parents, (2) Petitioner was
without parental guidance, supervision, or direction growing up, (3) their parents
beat them, (4) Petitioner witnessed her being beaten, (5) their father was an
alcoholic, (6) after their parents separated, she, their brother Paul, and Petitioner

23 8 SCR 935.
24 8 SCR 947-52 (testimony of Larry Liveoak).
22

Appendix B-23
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 23 of 263

went to live with their mother in a home she could best describe as “hell,” (7) their
mother and step-father ignored Petitioner, allowing him to do as he pleased, (8)
Petitioner was aware that she was molested, (9) their mother was taken to an insane
asylum on two occasions, (10) she and Petitioner were raised in bars and were lucky
to have food in their home, sometimes going as long as a week without eating, (11)
she ran away from home at age eighteen and got married, (12) Petitioner had two
children with a woman named Pam with whom Petitioner lived for three years, (13)
Pam was a good influence on Petitioner, (14) Petitioner began going out with
Carolyn “Polly” Yaw about fourteen years before the date of trial, (15) Yaw got
Petitioner into drugs, at which point Petitioner became “a different person,” (16)
Yaw dominated Petitioner, who took the blame for Yaw’s criminal behavior, and
(17) Petitioner’s behavior vis-a-vis Mrs. Liveoak did not accurately reflect
Petitioner’s character.25
One of Petitioner’s older brothers testified that (1) he has convictions for DUI
and possession of marijuana, (2) their oldest brother went to live with another family
at some point and grew up to become a counselor for children in New York, (3)
Petitioner was gainfully employed at some point as an electrician, (4) Yaw was a
bad influence on Petitioner, (5) Yaw and an accomplice once stabbed a man and

25 8 SCR 955-66 (testimony of Cindy Knight).
23

Appendix B-24
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 24 of 263

stole the man’s money and clothes, (6) Petitioner never got into trouble at school and
made it to the sixth grade, (7) Petitioner was doing crack for two weeks prior to his
capital offense, and (8) Petitioner was different when on crack.26
Petitioner’s former common law wife testified that (1) she and Petitioner had
two teenage daughters, (2) Petitioner was a kind person who worked with her older
brother, (3) Polly Yaw caused their breakup at a time when Petitioner was working
in Tuscaloosa, (4) their breakup happened after she and Petitioner argued and the
next thing she knew, Petitioner was dating Yaw and doing drugs, (5) Yaw once
struck her, (6) it was out of character for Petitioner to kill someone, (7) she had never
known Petitioner to be violent, and (8) she did not believe Petitioner would be
violent in prison.27
Polly Yaw’s step-sister testified that (1) she had known Petitioner since she
was sixteen, (2) Petitioner is not a violent person, (3) Polly Yaw’s reputation in the
community was “mean,” (4) Yaw always nagged Petitioner, (5) Yaw got Petitioner
on crack, and (6) Petitioner is sincerely remorseful for Mrs. Liveoak’s death.28

26 8 SCR 966-73 (testimony of Paul Dallas).
27 8 SCR 973-77 (testimony of Pam Cripple).
28 8 SCR 977-80 (testimony of Rhonda Chavers).
24

Appendix B-25
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 25 of 263

3. Punishment Phase Jury Charge & Verdict
The state trial court instructed the jury (1) it was to consider all of the
evidence, including the evidence offered during both the guilt-innocence and
punishment phases of trial, when making its sentencing recommendation, (2) it could
consider only those aggravating factors which it determined had been established
beyond a reasonable doubt, (3) more specifically, it could only consider the
following aggravating factors (but only if the jury determined it had been established
beyond a reasonable doubt): (a) the Petitioner had previously been convicted of
another felony involving the use or threatened use of violence to another person, (b)
the Petitioner committed capital murder while engaged in the commission or
attempted commission or flight from either robbery in the first degree or kidnaping
in the first degree, and (c) Petitioner’s capital murder was especially heinous,
atrocious, or cruel compared to other capital offenses, (4) “heinous” means
“extremely wicked or shockingly evil,” (5) “atrocious” means “outrageously wicked
and violent,” (6) “cruel” means “designed to inflict a high degree of pain with utter
indifference to or even enjoyment of the suffering of others,” (7) for a capital offense
to be “especially heinous and atrocious” any brutality involved “must exceed that
which is normally present in any capital offense,” (8) for a capital offense to be
“especially cruel,” it must be “a conscienceless or pitiless crime which is
unnecessarily torturous to the victim,” (9) “all capital offenses are heinous,
25

Appendix B-26
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 26 of 263

atrocious, and cruel to some extent,” (10) the jury instruction was intended to cover
“only those cases in which the degree of heinousness, atrociousness or cruelty
exceeds that [which] will always exist when a capital offense is committed,” (11)
before making a recommendation in favor of a death sentence, the jury must
unanimously agree that the prosecution had presented evidence establishing beyond
a reasonable doubt the existence of at least one of the foregoing aggravating factors,
(12) the jury must weigh against any aggravating factors all mitigating
circumstances presented, (13) a “mitigating circumstance” means any evidence
which “indicates or tends to indicate the defendant should be sentenced to life
imprisonment without parole instead of death,” and includes, but is not limited to,
such factors as (a) whether the Petitioner had no significant history of prior criminal
activity, (b) whether the Petitioner was under the influence of extreme mental or
emotional disturbance when he committed capital murder, (c) whether the victim
was a participant in the petitioner’s criminal conduct or consented to the act, (d)
whether the Petitioner was an accomplice in the capital offense committed by
another person and his participation was relatively minor, (e) whether the Petitioner
acted under extreme duress or under substantial domination of another person, (f)
whether the capacity of the Petitioner to appreciate the criminality of his conduct
and to conform his conduct to the requirements of law was substantially impaired,
and (g) any aspect of the Petitioner’s character or record and any of the
26

Appendix B-27
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 27 of 263

circumstances of the offense the Petitioner offered as a basis for a sentence of life
imprisonment without parole instead of death, including the Petitioner’s prior
kindness and good works toward others which indicate a possibility of redemption
and rehabilitation, the love and caring shown towards Petitioner by his family and
friends, and that Petitioner appears to function well in various kinds of penal
institutions, indicating a probability that Petitioner can be integrated into long-term
prison life without significant difficulty, (14) since his arrest, Petitioner has shown
no tendency towards violence against others, (15) the burden is on the prosecution
to disprove the existence of a mitigating circumstance offered by the Petitioner by a
preponderance of the evidence, (16) only an aggravating circumstance must be
proven beyond a reasonable doubt, (17) the jury’s deliberations should be based
upon the evidence and must avoid the influence of passion, prejudice, or any other
arbitrary factor, (18) weighing aggravating and mitigating factors is not a
mechanistic process - different circumstances may be given different weights or
values in determining the sentence in a case, (19) in order to recommend a
punishment of death, at least ten jurors must vote for death - any number less than
ten cannot recommend death, (20) in order to recommend a sentence of life without
parole, at least seven jurors must vote for that sentence, (21) the jurors should hear
and consider the views of their fellow jurors and carefully weigh, sift, and consider

27

Appendix B-28
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 28 of 263

the evidence, realizing that a human life is at stake, and bring to bear their best
judgment on the sole issue before the jury.29
The jury subsequently sent out a note requesting additional instructions on the
definition of mitigating circumstances.30 From 5:30 to 5:36 p.m. the same date, the
jury returned to the courtroom; the trial judge repeated his earlier instructions
regarding the definition of mitigating circumstances and added, at the request of
Petitioner’s counsel, additional examples of mitigating circumstances offered by the
defense, including Petitioner’s good work record, poor family up-bringing,
cooperation with police officers, emotional state at the time of the offense, and being
under the influence of alcohol or drugs.31 At 5:55 p.m. the same date, the jury
returned its sentencing recommendation, recommending by a vote of eleven to one
that the punishment be fixed at death.32
4. Sentencing Hearing and Trial Court Findings
On November 16, 1995, the trial judge held the sentencing hearing.
Petitioner’s trial counsel made objections to the pre-sentence report.33 Petitioner’s

29 8 SCR 990-1000, 9 SCR 1001-11.
30 9 SCR 1015-17.
31 9 SCR 1017-23.
32 9 SCR 1023-24.
33 9 SCR 1026-28.
28

Appendix B-29
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 29 of 263

court-appointed mitigation expert argued in favor of a sentence of life without
parole, calling the court’s attention to the trial testimony of Petitioner and Dr. Renfro
and emphasized that (1) Petitioner had displayed poor judgment but had not intended
to kill Mrs. Liveoak, (2) Petitioner was suffering from the pernicious effects of crack
cocaine addiction at the time of his offense, (3) scientific evidence and media
accounts suggested the “euphoric feeling is so intense that crack cocaine users
quickly develop a habit on the drug that is almost impossible to overcome,” (4)
Petitioner was so dominated by Carolyn “Polly” Yaw that he took the blame for her,
(5) Petitioner was contrite and cooperative with law enforcement after his arrest, (6)
Petitioner was remorseful, (7) killing Petitioner will not bring back Mrs. Liveoak,
and (8) a sentence of life without parole is worse than death.34
Petitioner’s trial counsel argued that (1) Petitioner had great remorse for what
he had done and had accepted responsibility for it, (2) some good could come out of
Petitioner’s life if he were permitted to live, (3) Petitioner experienced an extremely
difficult childhood, (4) something about Petitioner’s childhood “prevented him from
developing the sense of responsibility that we are supposed to have, that sense of
responsibility that tells us to follow the rules, to obey the law, to respect the dignity
of others, and to avoid injuring others by our own selfish desires,” (5) Petitioner’s

34 9 SCR 1028-44.
29

Appendix B-30
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 30 of 263

desire for crack overwhelmed his judgment, (6) Petitioner’s actions were not those
of a rational human being, and (7) life without parole was the appropriate sentence.35
Petitioner then addressed the court and stated that (1) he was deeply sorry for his
offense and had never meant for it to happen, (2) since the time he and Mrs. Liveoak
prayed for his crack habit, he had not done it, (3) he wanted to apologize to her
family, and (4) with the court’s permission, he would like the opportunity to tell
others about the harmful effects of crack cocaine, specifically what this “destroying
drug” had done to him and his family.36
The trial court imposed sentences of ten years on counts three through
seventeen of the indictment.37 On the capital murder counts, the trial court imposed
a sentence of death by electrocution.38 In its sentencing order, the trial court found
that (1) Petitioner “never did a thing to rescue Mrs. Liveoak” despite having multiple
opportunities to do so, (2) Mrs. Liveoak apparently did not die immediately but had
a number of bruises and cuts on her hands consistent with attempts by her to free
herself, (3) Petitioner let Mrs. Liveoak die in the trunk of her car while he and Yaw
went to a crack house to purchase crack with money they obtained through the use

35 9 SCR 1044-50.
36 9 SCR 1050-51.
37 9 SCR 1052-53.
38 9 SCR 1053.
30

Appendix B-31
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 31 of 263

of Mrs. Liveoak’s credit card, (4) the following day, Petitioner sarcastically told
Dennis Bowen that he “hoped the old lady would die,” (5) Petitioner knew from the
earlier abduction of Mr. Portwood that he could cause the death of someone by
leaving her in the trunk of a car, (6) “the inference can clearly be drawn that he left
Mrs. Liveoak in the trunk of the car to prevent subsequent identification,” (7)
Petitioner’s intent to kill was also shown through his testimony at trial, specifically
when, in response to questions about why he placed Mrs. Liveoak in the trunk of her
car, Petitioner emphasized he was concerned about getting caught, (8) the jury
concluded beyond a reasonable doubt that Petitioner committed his capital offense
while engaged in the commission or attempted commission, or as an accomplice in
the commission or attempted commission, or while in flight after the commission or
attempted commission, ofkidnaping and robbery, (9) the prosecution proved beyond
a reasonable doubt that Petitioner was previously convicted of another felony
involving the use or threatened use of violence against another person, (10) the
prosecution proved beyond a reasonable doubt that Petitioner’s capital offense was
especially heinous, atrocious, or cruel, specifically by proving Mrs. Liveoak suffered
pre-mortem injuries suffering both physically and psychologically after being left in
the trunk of an automobile on a summer afternoon, i.e., “entombed in the trunk of
her car,” after Petitioner cruelly gave her false hope she would be rescued, (11)
Petitioner failed to present sufficient evidence to establish either (a) he had no
31

Appendix B-32
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 32 of 263

significant history of prior criminal activity, (b) he committed his capital offense
while under the influence of extreme mental or emotional disturbance (i.e., while
Petitioner presented evidence showing he was craving crack cocaine, he failed to
present evidence showing he was under the influence of crack at the time he
committed his capital offense), (c) he committed his offense as a mere accomplice,
(d) he acted under extreme duress or under the substantial domination of another
person, (e) his capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired, or (f) his age at
the time of the offense (i.e., thirty) was a mitigating circumstance, (12) Petitioner
did present evidence supporting a number of non-statutory mitigating circumstances
but the trial court did not give great weight to any of these factors, specifically
evidence showing (a) Petitioner was remorseful for his conduct, (b) Petitioner’s postarrest confession and cooperation with investigating officers, (c) Petitioner came
from a poor family and did not have adequate adult role models or morals instilled
in him (the court found there was no evidence Petitioner turned to a life of crime
because of his upbringing in light of the absence of a criminal record for his sister
who grew up in the same household), (d) Petitioner’s good work record, (e)
Petitioner was a good husband to his first wife, (f) Petitioner’s prior kindness and
good work toward others, (g) the love and caring shown Petitioner by his family and
friends, (h) Petitioner’s record of functioning well in penal institutions, and (i)
32

Appendix B-33
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 33 of 263

Petitioner’s record of nonviolence since his arrest, and finally, (13) after considering
the jury’s recommendation and weighing the aggravating and mitigating
circumstances, Petitioner’s sentence should be fixed at death.39
E. Direct Appeal
Petitioner appealed his conviction and sentence, presenting nine claims in his
appellant’s brief.40 The Alabama Court of Criminal Appeals affirmed Petitioner’s
conviction and sentence in an opinion issued March 21,1997, rejecting on the merits
all of Petitioner’s grounds for appellate review. Dallas v. State, 711 So. 2d 1101
(Ala. Crim. App. 1997).

Petitioner next filed a petition for certiorari with the

39 2 SCR 357-69.
40 Petitioner’s appellant’s brief, filed April 11,1996, appears among the state court records
submitted to this Court at 10 SCR Tab 2. As grounds for review, Petitioner’s appellate counsel
argued (1) the prosecution violated the equal protection principle announced in Batson v. Kentucky
by using twelve of its sixteen peremptory strikes to remove black members of the jury venire, (2)
the trial court erred in granting the prosecution’s challenge for cause to juror 129 and in denying
the defense’s challenge for cause to juror 64, (3) the trial court erred in denying the defense’s
requests for guilt-innocence phase jury instructions on the lesser-included offenses of reckless
murder and criminally negligent homicide, (4) the trial court erred in denying the defense’s
objections to the guilt-innocence phase jury charge commenting on (a) the defendant’s credibility,
(b) the impeachment of the defendant, and (c) the defendant’s flight from the crime scene as
evidence of consciousness of guilt, (5) the trial court erred in allowing the jury to consider as an
aggravating circumstance whether the crime was especially heinous, atrocious, and cruel, (6) the
trial court erred in considering improper victim impact testimony in the form of (a) testimony by
the victim’s son concerning the impact of his mother’s death upon him and his family and (b) a
letter from the victim’s daughter, (7) Petitioner’s lead trial counsel rendered ineffective assistance
as a result of a conflict of interest, (8) the trial court erred in denying Petitioner’s trial counsels’
motions for continuance, which caused said counsel to constructively render ineffective assistance,
and (9) there was insufficient evidence to support the jury’s verdict at the guilt-innocence phase
of trial, i.e., insufficient evidence to show Petitioner possessed the specific intent to kill the victim.
33

Appendix B-34
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 34 of 263

Alabama Supreme Court.41

The Alabama Supreme Court affirmed Petitioner’s

conviction and sentence in an opinion issued March 13, 1998, finding no reversible
error. Ex parte Dallas, 711 So. 2d 1114 (Ala. 1998). The United States Supreme
Court denied Petitioner’s petition for writ of certiorari on October 5, 1998. Dallas
v. Alabama, 525 U.S. 860 (1998).42
F. State Habeas Corpus Proceeding
Petitioner filed a sworn, pro se state habeas corpus petition, i.e., a petition
pursuant to Rule 32 of the Alabama Rules of Criminal Procedure.43 The state trial

41 Petitioner’s certiorari petition with the Alabama Supreme Court appears at 11 SCR Tab
6. Petitioner’s certiorari petition re-urged the same nine grounds for relief Petitioner had urged
before the Alabama Court of Criminal Appeals.
42 Petitioner’s petition for writ of certiorari filed with the United States Supreme Court
appears at 11 SCR Tab 10.
43 Petitioner’s pro se Rule 32 petition (signed September 23, 1999) appears at both 12 SCR
(Revised) Tab 13-A & 15 SCR Tab 30. As grounds for relief in his sworn pro se Rule 32 petition,
Petitioner presented (1) a rambling 75-page series of conclusory ineffective assistance claims
attacking the performance of his state trial counsel, (2) a series of conclusory complaints about the
performance of the prosecution during his trial, including arguments the prosecution (a) used
extraneous information to assist during jury selection, (b) presented unspecified prejudicial
evidence, (c) improperly commented on unidentified irrelevant evidence, (d) elicited unidentified
inadmissible hearsay evidence, (e) improperly commented on the credibility of witnesses, (f)
improperly commented on the defense’s failure to call certain witnesses, (3) the prosecution
violated the rule in Brady v. Maryland by failing to disclose to the defense (a) notes, recordings,
and other documents memorializing conversations between prosecution witness Bowen and law
enforcement officers after July 14, 1994, (b) information regarding Bowen’s probation status and
prior convictions, and (c) the fact that during his post-arrest interview, Petitioner initially denied
any involvement in Mrs. Liveoak’s murder, (4) the trial court erred in admitting evidence of
Petitioner’s kidnaping and robbery of Mr. Portwood just days before Petitioner’s kidnaping,
robbery, and murder of Mrs. Liveoak, (5) the trial court erred in admitting photographs and
videotaped images of Mrs. Liveoak’s body in the trunk of her car, (6) the trial court erred in
granting the prosecution’s challenge for cause to juror 129 and in denying the defense’s challenge
for cause to juror 64, (7) the trial court erred in denying the defense’s requested guilt-innocence
phase jury instructions on the lesser-included offenses of reckless murder and criminally negligent
34

Appendix B-35
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 35 of 263

court summarily dismissed several of Petitioner’s claims in an Order issued October
28,1999.44 On June 21,2001, the state trial court held an evidentiary hearing (during

homicide, (8) the trial court erred in the guilt-innocence phase jury instructions in commenting on
Petitioner’s credibility as a witness, (9) the trial court erred in permitting the jury to consider as an
aggravating circumstance at the punishment phase of trial whether Petitioner’s capital offense was
especially heinous, atrocious, or cruel, (10) two jurors failed to truthfully answer voir dire
questions, thereby depriving Petitioner of his right to intelligently exercise his peremptory
challenges, (11) the trial court’s denial of Petitioner’s motions for continuance constructively
caused Petitioner’s trial counsel to render ineffective assistance because Petitioner’s counsel were
unable to adequately investigate the case against Petitioner and Petitioner’s background for
potentially mitigating evidence, (12) Petitioner’s state appellate counsel rendered ineffective
assistance on direct appeal by failing to present all of the foregoing claims for relief urged by
Petitioner in his Rule 32 petition as grounds for relief in Petitioner’s appellant’s brief, and (13) the
death penalty as administered in Alabama violates the Eighth Amendment’s prohibition against
cruel and unusual punishment. Petitioner executed a separate verification of his pro se Rule 32
petition on March 22, 2000 (15 SCR Tab 38).
44 The state trial court’s Order of October 28, 1999, appears at 15 SCR Tab 35. The state
trial court found that (1) Petitioner’s constructive ineffective assistance claims based upon the
Alabama fee schedule for defense counsel, the trial court’s denial of Petitioner’s lead trial
counsel’s pretrial motion to withdraw, and the trial court’s denial of Petitioner’s motions for
continuance (a) could and should have been raised at trial and on direct appeal and (b) were
unsupported by factual allegations showing how Petitioner was prejudiced thereby, (2) Petitioner
alleged no facts showing how he was prejudiced by the performance of his counsel at a pretrial
detention hearing, (3) Petitioner’s complaints about the pretrial performance of his trial counsel
were conclusory, (4) Petitioner’s admissions during his videotaped confession and trial testimony,
together with the trial testimony of Dennis Bowen, collectively foreclosed a finding of prejudice
in connection with Petitioner’s complaints of ineffective assistance during the guilt-innocence
phase of trial, (5) Petitioner’s complaint about the admission of his signed confession was
procedurally defaulted because that claim could and should have been raised on direct appeal, (6)
Petitioner’s complaints of prosecutorial misconduct, i.e., Petitioner’s complaints about
prosecutorial jury argument, were procedurally defaulted because they could and should have been
raised on direct appeal, (7) Petitioner’s Brady claim relating to the trial testimony of Detective
Saint was procedurally defaulted because this claim could and should have been raised on direct
appeal, (8) Petitioner’s claims relating to the admission of evidence of Petitioner’s prior criminal
behavior and the admission of photographic and videotape evidence were procedurally defaulted
because they could and should have been raised on direct appeal, (9) Petitioner’s claims relating
to trial court rulings on challenges for cause and the trial court’s jury instructions had been raised
and addressed by the Alabama Court of Criminal Appeals on direct appeal and could not be re­
litigated in Petitioner’s Rule 32 proceeding, (10) Petitioner’s juror misconduct claim was not based
on any identified newly discovered evidence and was subject to dismissal absent amendment
[Petitioner did not subsequently amend his Rule 32 petition to address this issue], (11) Petitioner’s
complaint that his lead trial counsel suffered from an actual conflict of interest had been fully
35

Appendix B-36
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 36 of 263

which Petitioner was represented by counsel and Petitioner participated
telephonically) and later received deposition testimony from additional witnesses.45
The same trial court judge who presided over Petitioner’s capital murder trial issued
an Order on September 25, 2001, denying Petitioner’s Rule 32 petition.46

addressed and denied during Petitioner’s direct appeal and could not be re-litigated in his Rule 32
proceeding, (12) Petitioner’s claim of ineffective assistance by his state appellate counsel was
insufficiently specific to comply with Rule 32.6(b) of the Alabama Rules of Criminal Procedure
and was subject to dismissal absent amendment by Petitioner [Petitioner did not subsequently
amend his Rule 32 petition to address this issue], and (13) Petitioner’s challenge to the
constitutionality of Alabama’s then-current method of execution (electrocution) was procedurally
defaulted because it could and should have been raised on direct appeal and lacked arguable merit.
45 On June 21, 2001, the state trial court heard testimony in connection with Petitioner’s
Rule 32 petition from (1) attorney Jeffery C. Duffey, Petitioner’s former trial co-counsel, (2) Susan
James, Petitioner’s former mitigation specialist and co-counsel at the sentencing hearing, (3) John
Mann, a Montgomery Police Sergeant, and (4) Danny Billingsley, an investigator with the
Alabama Attorney General’s Office. The foregoing testimony appears at 12 SCR Tab 13 and 12
SCR (Revised) Tab 13. The state habeas trial court also had before it the deposition testimony of
(1) Petitioner’s former lead trial counsel, attorney Algert Agricola (which appears at 13 SCR Tab
14 and 13 SCR (Revised) Tab 14) and (2) Petitioner’s acquaintance Chester Foley (which appears
at Doc# 187-1).
46 The state trial court’s Order of September 25, 2001, appears at both 13 SCR Tab 14-A &
16 SCR Tab 65. The trial court found that (1) Petitioner’s complaints about the performance of
his former counsel prior to trial (who withdrew or were dismissed from representation prior to
trial) and many of Petitioner’s complaints about the performance of his counsel at the guiltinnocence phase of trial were subject to summary dismissal (because they actually challenged
pretrial rulings made by the trial court which could and should have been raised via direct appeal),
(2) Petitioner’s complaints about the performance of his trial counsel during the pretrial hearing
on Petitioner’s motion to suppress were refuted by Petitioner’s videotaped confession, (3)
Petitioner’s complaints about the failure of his trial counsel to call Chester Foley to testify at the
hearing on Petitioner’s motion to suppress and at trial were refuted by Foley’s deposition testimony
(in which Foley denied any personal knowledge of the circumstances surrounding Petitioner’s
offense and was never asked whether he had any personal knowledge of the circumstances
surrounding Petitioner’s arrest), (4) there was more than sufficient evidence to support the jury’s
guilty verdict and proof of the specific intent to kill (specifically, viewed in the light most favorable
to the jury’s verdict, the evidence showed Petitioner (a) placed Mrs. Liveoak in the trunk of her
car on a July afternoon in Alabama, (b) removed the keys from her vehicle, (c) parked the vehicle
in a remote location of the K-Mart parking lot, and (d) made no attempt to summon help for Mrs.
Liveoak despite having made numerous assurances to her that he would do so and in spite of his
36

Appendix B-37
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 37 of 263

knowledge of her age and heart problems), (5) Petitioner failed to show there was any evidence
available at the time of trial showing Mrs. Liveoak was alive at the time her vehicle was discovered
by police or that her fatal cardiac episode would have occurred even if she had not been left to die
inside the trunk of her car in the middle of the summer in the middle of Alabama, (6) there was no
showing law enforcement personnel were negligent in the manner they reacted after the discovery
of Mrs. Liveoak’s vehicle the day after Petitioner abandoned same the day before, (7) there was
no evidence presented showing any deal or promises of leniency ever existed between the
prosecution and witness Dennis Bowen, (8) there is no rule in Alabama which prevents either party
from investigating the background of potential jurors for use during jury selection, (9) the
prosecution’s opening statement describing the evidence it believed would be presented at the
guilt-innocence phase of trial was neither inflammatory nor unduly prejudicial, (10) the failure of
Petitioner’s trial counsel to object to the prosecution’s closing jury argument was neither
objectively unreasonable nor prejudicial to Petitioner (because there was no legitimate basis for
objection to the prosecution’s jury arguments), (11) Petitioner testified at the guilt-innocence phase
of trial in his case-in-chief to the same facts he alleged the prosecution had introduced through
hearsay testimony, (12) Petitioner presented no new or additional evidence (other than that
presented at trial by Petitioner’s trial counsel through the defense’s mental health expert) showing
Petitioner suffered from a mitigating mental state at the time of his capital offense, (13) Petitioner’s
trial counsel presented extensive mitigating evidence showing Petitioner (a) came from a broken
home, (b) began drinking alcohol and using intravenous drugs at any early age, (c) only completed
sixth grade, (d) had no direction in his life, (e) was nevertheless a good father, husband, and
provider, (f) became hooked on cocaine after taking up with Polly Yaw, (g) took responsibility for
Yaw’s criminal actions, and (h) was dominated by Yaw, (14) Petitioner failed to present any new
or additional mitigating evidence was available at the time of trial from his oldest brother, his
mother, or others, (15) Petitioner’s allegations that additional evidence was available at the time
of trial to show specific instances of abuse, neglect or drug abuse during Petitioner’s childhood
and adult life would have been, at best, cumulative of the evidence Petitioner’s trial counsel
actually presented during Petitioner’s capital murder trial, (16) there was no impropriety in the
prosecution’s punishment phase jury arguments (a) appealing to the jury for justice or (b) pointing
out the jury had already found beyond a reasonable doubt that one aggravating circumstance
existed, i.e., Petitioner committed intentional murder during the course of committing or
attempting to commit robbery and kidnaping, (17) the short duration of the jury’s punishment
phase deliberation did not establish that Petitioner was prejudiced by his trial counsel’s
performance at the punishment phase of trial, (18) Petitioner failed to present any evidence
showing the outcome of his pre-sentence interview would have been any different had his trial
counsel accompanied Petitioner to the interview or that the failure of his trial counsel to attend the
pre-sentence interview was objectively unreasonable, (19) Petitioner failed to present any evidence
showing it was objectively unreasonable for his state appellate counsel to have failed to raise all
of the claims presented in Petitioner’s pro se Rule 32 petition as part of Petitioner’s appellant’s
brief on direct appeal, and (20) there was overwhelming evidence to support the jury’s verdict at
the guilt-innocence phase of trial and the jury’s sentencing recommendation.
37

Appendix B-38
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 38 of 263

Petitioner filed a motion to alter or vacate the judgment on October 25,
2001.47 The state trial court denied Petitioner’s motion. Petitioner appealed on
November 28, 2001,48 but the Alabama Court of Criminal Appeals dismissed his
appeal on December 7, 2001, as untimely.49
Petitioner filed motions seeking leave to file an out-of-time appeal50 and
requesting a finding that the filing of his motion to alter, vacate, and amend judgment
tolled the applicable time for filing a notice of appeal.51 The state trial court granted
the latter of these motions in an Order issued February 12, 2002.52 Petitioner filed a
second Notice of Appeal on February 15, 2002.53 In an Order issued March 1,2002,
the Alabama Court of Criminal Appeals struck Petitioner’s second appeal as
untimely.54

Petitioner filed a petition for writ of certiorari with the Alabama

47 Petitioner’s motion to alter, vacate or amend appears at both 13 SCR Tab 15 and 13
SCR (Revised) Tab 15.
48

13 SCR (Revised) Tab 15-A.

4914 SCR Tab 19.
5013 SCR (Revised) Tabs 17 & 17-A.
51 13 SCR (Revised) Tab 17-B.
5213 SCR (Revised) Tab 17-D.
5313 SCR (Revised) Tab 17-E.
5414 SCR Tab 22 & 16 SCR Tab 75.
38

Appendix B-39
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 39 of 263

Supreme Court,55 which that court dismissed without opinion on June 28, 2002, for
failure to comply with Rule 39(c)(1) of the Alabama Rules of Appellate Procedure.56
G. Proceedings in Federal Court
Petitioner filed his original federal habeas corpus petition on July 9, 2002,
asserting seventeen categories of claims for relief (Doc. # l).57 Petitioner filed a

5514 SCR Tab 23 (Petition) & Tab 24 (Brief).
5614 SCR Tab 27.
57 As grounds for relief, Petitioner’s federal habeas counsel argued (1) the prosecution
improperly used peremptory challenges in a racially discriminatory manner in violation of the
holding in Batson v. Kentucky, (2) the state trial court erred in denying the defense’s requests for
guilt-innocence phase jury instructions on the lesser-included offenses of reckless murder and
criminally negligent homicide, (3) the trial court’s denial of Petitioner’s trial counsels’ motions for
continuance violated Petitioner’s constitutional rights to due process and the effective assistance
of counsel, (4) Petitioner’s lead trial counsel suffered from an actual conflict of interest which
denied Petitioner the effective assistance of counsel, (5) the state trial court erred in granting the
prosecution’s challenge for cause to juror 129 and in denying the defense’s challenge for cause to
juror 64, (6) the state trial court erred in overruling the defense’s objections to guilt-innocence
phase jury instructions (a) stating the jury “may infer that a person intends the natural
consequences of what he does if the act is done intentionally” and (b) commenting on the
credibility and impeachment of the Petitioner, (7) Petitioner’s trial counsel rendered ineffective
assistance before, during, and after trial (due to (a) limitations in the fee schedule for Alabama
defense counsel, (b) the withdrawal or removal of several attorneys prior to Petitioner’s trial, (c)
the denial of Petitioner’s motions for continuance, and (d) the failures of Petitioner’s trial counsel
to (i) adequately investigate the case against Petitioner [including the actual medical cause of Mrs.
Liveoak’s death] and Petitioner’s background for mitigating evidence, (ii) challenge the
prosecution’s case and introduce exculpatory evidence, (iii) object to the medical examiner’s
testimony that Mrs. Liveoak’s death was a homicide, (iv) adequately cross-examine prosecution
witness Dennis Bowen regarding Bowen’s prior statement to the police and the possibility of a
deal between prosecutors and Bowen, (v) present expert medical testimony and evidence showing
the actual cause of Mrs. Liveoak’s death, (vi) object to the prosecution’s use of undisclosed
extraneous information during jury selection, (vii) object to the prosecution’s derogation of
Petitioner’s character during opening and closing jury arguments at the guilt-innocence phase of
trial, (viii) object to the prosecution’s assertion during closing jury argument at the guilt-innocence
phase of trial that the case against Petitioner was simple and uncomplicated, (ix) object to the
prosecution’s closing jury argument at the guilt-innocence phase of trial suggesting that portions
of Petitioner’s trial testimony were incredible, (x) object to the prosecution’s closing jury argument
at the guilt-innocence phase of trial suggesting that Dennis Bowen’s credibility was superior to
39

Appendix B-40
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 40 of 263

that of Petitioner, (xi) object to the prosecution’s closing jury argument at the guilt-innocence
phase of trial suggesting that Petitioner’s testimony that he attempted to return to the K-Mart
parking lot but was unable to do so because the vehicle in which he was a passenger broke down
was not credible because the driver of the vehicle had not appeared at trial and testified under oath,
(xii) object to the prosecution’s closing jury argument at the guilt-innocence phase of trial
suggesting that Dennis Bowen’s testimony was sufficient to establish that Petitioner intentionally
murdered Mrs. Liveoak, (xiii) object to the prosecution’s closing jury argument at the guiltinnocence phase of trial suggesting that Petitioner’s admissions regarding his voluntary abuse of
crack cocaine did not excuse his criminal actions or preclude a finding that Petitioner intentionally
murdered Mrs. Liveoak, (xiv) object to the prosecution eliciting unspecified hearsay testimony,
(xv) call the defense’s court-appointed mitigation expert to testify at the punishment phase of trial,
(xvi) adequately investigate Petitioner’s medical history, correctional history, educational history,
employment and training history, family and social history, and any religious or cultural influences
in an effort to identify and develop potentially mitigating evidence, (xvii) adequately meet with
Petitioner prior to trial, (xviii) adequately meet with potential defense witnesses prior to their
testimony at the punishment phase of trial, (xix) elicit further potentially mitigating evidence from
the witnesses actually called to testify by the defense at the punishment phase of trial about
instances of neglect, physical and emotional abuse, marital infidelities, mental instability,
alcoholism, and misbehavior by Petitioner’s parents and Petitioner’s difficult, neglected, and
undisciplined childhood, (xx) present available mitigating evidence showing Petitioner’s early
exposure to and abuse of alcohol and narcotics, (xxi) present mitigating evidence showing
Petitioner’s strong moral character, (xxii) interview and present testimony from Petitioner’s older
brother Jimmy in New York, regarding Petitioner’s difficult childhood [including evidence
showing Jimmy once physically assaulted his mother, knocking her over a couch and had limited
contact with Petitioner after their parents divorced and Petitioner’s mother left New York with the
three younger Dallas children], (xxiii) present additional testimony from Rhonda Chavers
regarding Petitioner’s good character and difficult childhood, (xxiv) present evidence showing the
Dallas children were subjected to sexual abuse by babysitters, (xxv) interview and present the
testimony of Petitioner’s mother Elaine regarding her physical and emotional abuse of Petitioner,
her infidelities and those of Petitioner’s biological father and step-father, Petitioner’s truancy, the
Dallas family’s extremely poor economic standing, and the negative influences of Petitioner’s
biological father and step-father upon Petitioner’s development, (xxvi) present testimony showing
that, on crack, Petitioner was a “different man,” (xxvii) present expert testimony showing the likely
causes of Petitioner’s emotional and physical problems [“serious psychopathology including
confused thinking, distorted perceptions, and other psychotic processes”], including the
psychological assessment done on Petitioner at the Kilby Correctional Facility, (xxviii) present
evidence showing Petitioner successfully completed a drug rehabilitation program in Texas, and
(xxix) to attend Petitioner’s pre-sentence interview, (8) the state trial court erred in admitting
Petitioner’s signed confession, which was obtained in violation of Petitioner’s right to counsel, (9)
the prosecution engaged in misconduct, including (a) using extraneous information about a juror
as a basis for not striking the juror during jury selection, (b) presenting prejudicial evidence lacking
in probative value, (c) commenting on irrelevant evidence, (d) eliciting hearsay testimony, and (e)
improperly commenting on the credibility of witnesses and on the defense’s failure to present
certain witnesses, (10) the trial court erred in considering improper victim impact evidence in the
form of a letter to the trial judge from Mrs. Liveoak’s daughter urging the imposition of a sentence
40

Appendix B-41
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 41 of 263

brief on the merits in support of his claims for relief on June 7, 2007, arguing that
he was entitled to de novo review on all of his claims for relief (Doc. # 88). The
same date, Petitioner also filed an appendix to his merits brief accompanied by more
than two dozen new exhibits (mostly addressing his claim that his trial counsel failed
to adequately investigate and present then-available mitigating evidence) and a
motion to supplement the record (Doc. # 86-87). The court granted Petitioner’s
motion to supplement the record in an Order issued June 8, 2007 (Doc. # 89).
Respondent filed a brief on August 14,2007, responding to the merits of some,
but not all, of Petitioner’s claims for relief (Doc. # 92). Petitioner filed a response
to Respondent’s brief on September 28, 2007, arguing the ineffective assistance of
Petitioner’s state habeas counsel excused the Petitioner’s procedural defaults on
some of his claims for federal habeas corpus relief (Doc. # 95).

of death, (11) the prosecution failed to disclose beneficial information to the defense in violation
of the rule in Brady v. Maryland in the form of notes, recordings, and other information regarding
conversations between prosecution witness Dennis Bowen and law enforcement personnel after
Bowen gave his statement on July 14, 1994, (12) the state trial court erred in admitting the
testimony of Mr. Portwood regarding Petitioner’s robbery and kidnaping of him days before Mrs.
Liveoak’s murder, (13) the state trial court erred in admitting videotape and photographic evidence
of the victim’s body, (14) the state trial court erred in permitting the jury to consider as an
aggravating circumstance whether Petitioner’s capital offense was especially heinous, atrocious,
and cruel, (15) Petitioner was denied his right to exercise his peremptory challenges due to venire
members who furnished untruthful information during voir dire [specifically one juror failed to
disclose his brother was a crack addict and another juror failed to reveal he had testified as a
witness in a civil trial], (16) the prosecution failed to present sufficient evidence showing Petitioner
intentionally murdered Mrs. Liveoak, and (17) the Alabama capital sentencing scheme fails to
conform to the constitutional requirements announced in Ring v. Arizona and Apprendi v. New
Jersey.
41

Appendix B-42
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 42 of 263

On April 1 and May 5,2009 (Doc. # 108-09), Petitioner filed a pair of motions
to supplement the record along with numerous new affidavits and other documents
in support of his claims. The court will grant those motions.
In an Order issued January 12,2012, the Court addressed the merits of several
of Petitioner’s claims on which the parties agreed there was no procedural default
(Doc. # 120).

More specifically, the Order of January 12, 2012, applied the

deferential standard of review mandated by the AEDPA and rejected on the merits
Petitioner’s claims that (1) the state trial court erred in overruling the defense’s
objections to the guilt-innocence phase jury instructions (a) permitting the jury to
draw the inference that a person intends the natural consequences of an intentional
act and (b) commenting on the impeachment and credibility of the Petitioner’s trial
testimony, (2) the state trial court erred in denying the defense’s requested jury
instructions on the lesser-included offenses of reckless murder and criminal
negligent homicide, (3) the state trial court erred in denying the defense’s motions
for continuance, (4) his lead trial counsel suffered from an actual conflict of interest,
(5) the state trial court erroneously permitted the jury to consider as an aggravating
factor at the punishment phase of trial whether Petitioner’s capital offense was
especially heinous, atrocious, or cruel, (6) there was insufficient evidence to show
the Petitioner intended to kill Mrs. Liveoak, (7) the state trial court erred in failing
to grant the defense’s challenge for cause to a prospective juror, (8) the state trial
42

Appendix B-43
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 43 of 263

court improperly considered victim-impact evidence, and (9) the prosecution used
its peremptory strikes in a racially discriminatory manner.58
Petitioner filed a motion for reconsideration on May 25, 2012 (Doc. # 121),
arguing for the first time in a coherent manner that (1) the prosecution’s stated
reasons for striking jurors 29 and 31 were pre-textual and (2) his lead trial counsel’s
simultaneous representation of Petitioner in his capital murder case and the Alabama
Department of Mental Health and Mental Retardation in an unrelated civil lawsuit
constituted a conflict of interest. The same date, Petitioner filed another motion to
supplement the record to include a copy of the motion to withdraw filed in the state
trial court by Petitioner’s lead trial counsel in February, 1995 (Doc. #122). The court
granted this motion to supplement in an Order issued September 30, 2016 (Doc. #
135). Respondent filed a brief in opposition to reconsideration on June 6,2012 (Doc.
# 124). Petitioner filed a reply to Respondent’s brief in opposition to reconsideration
on June 6, 2012 (Doc. # 125).
The Clerk reassigned this case to the undersigned judge’s docket on July 19,
2016 (Doc. # 129). In an Order issued August 9, 2016, the court directed the parties
to file supplemental briefing (Doc. #130).

58 The Order of January 12, 2012 disposed of the first four claims for federal habeas corpus
relief contained in Petitioner’s original federal habeas corpus petition, as well as a portion of the
fifth claim, and claims six, fourteen, and sixteen in the order listed in note 57, supra.
43

Appendix B-44
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 44 of 263

On October 3, 2016, Petitioner filed (1) a supplemental brief addressing
respondent’s assertions that some of Petitioner’s claims were untimely filed and
procedurally defaulted (Doc. # 136) and (2) additional pleadings accompanied by
twenty-three new exhibits (Doc. # 137-39).
On November 17, 2016, Respondent filed a supplemental brief (1) re-urging
the court to dismiss Petitioner’s federal habeas corpus petition as untimely filed and
to deny relief on fifty-three of Petitioner’s claims as procedurally defaulted and (2)
argued Petitioner’s procedurally defaulted claims were not subject to review on the
merits under the holding in Martinez v. Ryan (Doc. # 144).
Petitioner filed a supplemental brief on timeliness and procedural default on
December 1, 2016 (Doc. # 145).
Petitioner filed a motion on January 11, 2017, requesting leave to amend his
original federal habeas corpus petition to include a claim that Petitioner’s death
sentence is inconsistent with the Supreme Court’s holding in Hurst v. Florida, 135
S. Ct. 616 (2016) (Doc. # 146).
The briefing in this cause on the subjects of procedural default and timeliness
has been extensive.59 Despite rejection of Respondent’s motion to dismiss and the
passage of considerable time, Respondent has yet to address the merits of many of
59 See, e.g., Doc. nos. 4, 5, 11, 12, 15, 17, 18, 20, 27, 29, 36, 40, 42, 43, 67, 70, 88, 92, 95,
113, 118, 121, 122, 124, 125, 136, 141, 144, 145. This cause was reassigned to the undersigned
on July 19, 2016, after all but four of the foregoing pleadings and briefs had been filed.
44

Appendix B-45
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 45 of 263

Petitioner’s substantive claims.60 The record currently before the court is not bereft
of briefing and analysis from Respondent’s perspective on the Petitioner’s multi-

60 See Doc. # 49 & Doc. # 92. The pleadings filed in this cause are far from concise or
clear. Petitioner filed his original petition almost fifteen years ago (Doc. #1). As explained in
note 57, supra, Petitioner identified seventeen claims for relief in his original petition. In
subsequent pleadings and briefs, however, Petitioner has referenced numerous factual and legal
arguments made in support of his other numbered claims as if those arguments represented
separate and independent claims for relief. See, e.g., Doc. # 136, p. 132, n. 517, where Petitioner
argues a number of factual assertions made in support of Petitioner’s complaints about the denial
of his motion for continuance and other substantive claims are, in fact, separate and distinct
ineffective assistance claims. In the same footnote, Petitioner states cryptically that the list of
claims contained in the parties’ Joint Report “do not match the substance of the claims in the
petition.” The confusion engendered by Petitioner’s chaotic pleading practice has not been limited
to the court. In his brief on the merits, (Doc. # 92), Respondent identified more than fifty claims
for relief which Respondent believes to be procedurally defaulted by virtue of the dismissal of
Petitioner’s allegedly untimely appeal from the denial of his state habeas corpus petition. The
parties’ pleadings are replete with arguments about allegedly incorrectly designated or
misidentified claims. The two constants throughout this litigation have been the parties’ inability
to identify all of the ineffective assistance claims properly presented and Respondent’s failure to
address the merits of most of Petitioner’s multi-faceted ineffective assistance claims.
The fundamental problem with Petitioner’s multi-faceted ineffective assistance claims in
his original petition is that Petitioner failed to identify with reasonable specificity each discrete act
or omission (i.e., exactly what it is he alleges his trial counsel either did or failed to do) which
Petitioner argues satisfies both prongs of the Strickland standard. Instead, the fourth and seventh
major sections of Petitioner’s original petition consist of a stream of consciousness list of
assertions about the poor performance of Petitioner’s trial counsel, investigators, expert witness,
and others at various stages of Petitioner’s trial court proceedings.
Petitioner has invoked the Supreme Court’s holdings in Martinez v. Ryan, 566 U.S. 1
(2012), and Trevino v. Thaler, 133 S. Ct. 1911 (2013), as justification for overruling the
Respondent’s assertions that Petitioner procedurally defaulted on the vast majority of Petitioner’s
claims of ineffective assistance by Petitioner’s trial counsel because Petitioner’s state post­
conviction counsel failed to file a timely notice of appeal following denial of relief in Petitioner’s
state habeas corpus proceeding. As the Eleventh Circuit has made clear, review of assertions of
the equitable principle recognized in Martinez v. Ryan necessarily requires a federal court to
examine the merits of the underlying claim of ineffective assistance by trial counsel. See Sullivan
v. Secretary, Florida Dept, of Corrections, 837 F.3d 1195, 1201 (11th Cir. 2016) (“Under
Martinez, post-conviction counsel’s failure to raise a claim in a state collateral proceeding can
provide cause and prejudice to excuse a procedural default if: the procedural default is caused by
post-conviction counsel’s unconstitutionally ineffective assistance; the collateral proceeding in
which post-conviction counsel erred was the first opportunity the defendant had to raise the
procedurally defaulted claim; and the procedurally defaulted claim has at least ‘some merit.’”).
Thus, in order to resolve Petitioner’s assertions of the equitable principle announced in Martinez
v. Ryan, it is necessary to delve into the merits of Petitioner’s underlying complaints about the
45

Appendix B-46
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 46 of 263

faceted ineffective assistance claim. Respondent filed a pair of pleadings in response
to Petitioner’s expansive ineffective assistance claims presented in Petitioner’s state
habeas corpus proceeding.61 The state habeas trial court addressed the merits (or
lack thereof) of Petitioner’s ineffective assistance complaints in a thorough Order
containing numerous findings of fact and conclusions of law fully supported by the
record before that court.62 Having considered the parties’ extensive briefing on the
issue of procedural default, the court will address the merits of Petitioner’s
ineffective assistance claims de novo regardless of whether those claims are
procedurally defaulted.
II. PETITIONER’S MOTION FOR RECONSIDERATION
In his motion filed May 25, 2012 (Doc. # 121), Petitioner urges
reconsideration of the court’s denial of federal habeas corpus relief on (1)
Petitioner’s conflict of interest claim and (2) Petitioner’s complaint that two
identified members of Petitioner’s juiy venire (numbers 29 & 31) were improperly
stricken by the prosecution during jury selection in violation of the equal protection

performance of his state trial counsel. Rather than wading through the quagmire that is the
analytical approach mandated by the holding in Martinez v. Ryan, the court will apply, Ockham’s
Razor and address the merits of all of Petitioner’s ineffective assistance claims de novo, as
requested by Petitioner.
61 15 SCR Tabs 33 & 34.
6213 SCR (Revised) Tab 14-A.
46

Appendix B-47
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 47 of 263

principle announced in Batson v. Kentucky, 476 U. S. 79 (1986). Having considered
Petitioner’s motion for reconsideration and briefs in support and opposition to same,
the court will deny Petitioner’s motion for reconsideration.
In Batson v. Kentucky, the United States Supreme Court extended the equal
protection principle barring the purposeful exclusion of Blacks from criminal jury
service to the prosecution’s use of peremptory challenges during petit jury selection.
See Batson v. Kentucky, 476 U. S. at 89 (“the Equal Protection Clause forbids the
prosecutor to challenge potential jurors solely on account of their race or on the
assumption that black jurors as a group will be unable impartially to consider the
State's case against a black defendant.”). Dallas is white. Batson provides a threestep process for a trial court to use in adjudicating a claim that a peremptory
challenge was based on race. First, the defendant must make out a prima facie case
of discriminatory jury selection by the totality of the relevant facts concerning a
prosecutor’s conduct during the defendant’s own trial. Second, once the defendant
makes the prima facie showing, the burden shifts to the State to come forward with
a race-neutral explanation for challenging jurors within the arguably targeted class.
Finally, the trial court must determine if the defendant established purposeful
discrimination by the prosecution. Snyder v. Louisiana, 552 U. S. 472, 476-77
(2008); Miller-El v. Dretke, 545 U. S. 231, 239 (2005); Batson v. Kentucky, 476 U.
S. at 94-98.
47

Appendix B-48
Case 2:02-cv-00777-AA/KW-SRW Document 147 Filed 07/14/17 Page 48 of 263

With regard to the first step, i.e., establishing a prima facie case, the Supreme
Court has described that process as follows:
[A] defendant may establish a prima facie case of purposeful
discrimination in selection of the petit jury solely on evidence
concerning the prosecutor’s exercise of peremptory challenges at the
defendant's trial. To establish such a case, the defendant first must
show that he is a member of a cognizable racial group, and that the
prosecutor has exercised peremptory challenges to remove from the
venire members of the defendant’s race. Second, the defendant is
entitled to rely on the fact, as to which there can be no dispute, that
peremptory challenges constitute a jury selection practice that permits
“those to discriminate who are of a mind to discriminate.”
Batson v. Kentucky, 476 U. S. at 96 (citations omitted).
With regard to the second step, i.e., the prosecution’s burden of presenting a
neutral reason for the peremptory challenge, the Supreme Court has noted that, while
there are any number of bases on which a prosecutor reasonably might believe it is
desirable to strike a venire member who is not excused for cause, the prosecutor
must give a clear and reasonably specific explanation of his legitimate reasons for
exercising the peremptory challenge. Miller-El v. Dretke, 545 U. S. at 239; Batson
v. Kentucky, 476 U. S. at 98 n.20.
It is true that peremptories are often the subjects of instinct, and it can
sometimes be hard to say what the reason is. But when illegitimate
grounds like race are in issue, a prosecutor simply has got to state his
reasons as best he can and stand or fall on the plausibility of the reasons
he gives. A Batson challenge does not call for a mere exercise in
thinking up any rational basis. If the stated reason does not hold up, its
pretextual significance does not fade because a trial judge, or an appeals
court, can imagine a reason that might not have been shown up as false.
48

Appendix B-49
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 49 of 263

Miller-El v. Dretke, 545 U. S. at 252.
In the third and final step in the Batson process, the Supreme Court has
emphasized the critical role of the trial court in evaluating the prosecutor’s
credibility. Snyder v. Louisiana, 552 U. S. at 477.
[T]he critical question in determining whether a prisoner has proved
purposeful discrimination at step three is the persuasiveness of the
prosecutor’s justification for his peremptory strike. At this stage,
“implausible or fantastic justifications may (and probably will) be
found to be pretexts for purposeful discrimination.” In that instance the
issue comes down to whether the trial court finds the prosecutor's raceneutral explanations to be credible. Credibility can be measured by,
among other factors, the prosecutor’s demeanor; by how reasonable, or
how improbable, the explanations are; and by whether the proffered
rationale has some basis in accepted trial strategy.
Miller-El v. Cockrell, 537 U. S. 322, 338-339 (2003).
Consideration of a Batson objection, or the review of a ruling claimed to be
Batson error, requires that all of the circumstances that bear upon the issue of racial
animosity be consulted and considered. Snyder v. Louisiana, 552 U. S. at 478. In
several recent opinions, the Supreme Court has examined a wide array of factors in
resolving Batson claims. See, e.g., Snyder v. Louisiana, 552 U. S. at 480-85 (holding
a prosecutor’s proffer of a pretextual explanation regarding the stricken venire
member’s scheduling conflicts, which were significantly less imposing than those of
a white venire member whom the prosecutor accepted, permitted an inference of
discriminatory intent); Miller-El v. Dretke, 545 U. S. at 240-66 (citing the
prosecutor’s differential questioning of black and white venire members throughout
49

Appendix B-50
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 50 of 263

the entire voir dire, the prosecution’s “remarkable” use of ten of its fourteen
peremptories to strike ten of the eleven black venire members who were not removed
for cause or by agreement, the prosecutor’s failure to strike white venire members
who offered voir dire testimony similar to black venire members whom the
prosecutor did strike, and the prosecution’s selective requests for a jury shuffle only
when black venire members were near the front of the list as evidence warranting a
finding of purposeful discrimination).
As correctly noted by Petitioner, the state trial court implicitly determined
Petitioner satisfied the initial prong of Batson analysis. The state trial court directed
the prosecution to furnish reasons for each of its peremptory strikes exercised during
jury selection. As explained above, such a directive is necessary only if a criminal
defendant first makes a prima facie case of discriminatory jury selection by the
totality of the relevant facts. The prosecution then furnished the state trial court with
its reasons for each of its peremptory strikes. The state trial court considered these
reasons and the argument furnished by Petitioner’s trial counsel and ultimately
denied all of Petitioner’s challenges to the prosecution’s peremptory strikes. This
ruling constituted an implicit factual determination that the prosecution’s proffered
race-neutral reasons for all of its peremptory strikes were credible. Hightower v.
Terry, 459 F.3d 1067, 1072 n.9 (11th Cir. 2006), cert, denied, 550 U.S. 952 (2007).

50

Appendix B-51
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 51 of 263

The fundamental analytical problem with Petitioner’s Batson claims is
Petitioner failed to furnish the state appellate courts and has failed to furnish this
court with copies of the juror questionnaires filled out by all the members of
Petitioner’s jury venire. See Doc. # 120, atp. 51 n.3 (noting the juror questionnaires
were not included in the state appellate record or the state post-conviction record and
are not before this court for consideration).63

This failure renders it virtually

impossible for this court to second-guess the implicit credibility findings made by
the state trial court when it rejected Petitioner’s Batson claims.

The juror

questionnaires furnish the context within which the credibility of a prosecutor’s
proffered race-neutral reasons for exercising a peremptory challenge are evaluated.
See Jasper v. Thaler, 765 F. Supp. 2d 783, 816 n.62 (W.D. Tex. 2011) (discussing
the analytical hurdles to evaluating a Batson claim without access to the juror
questionnaires completed by the venire members whom the petitioner claimed had
been improperly stricken by the prosecution), aff’d, 466 F. App’x 429 (5th Cir.
2012), cert, denied, 133 S. Ct. 788 (2012). Absent review of the juror questionnaires
executed by all members of the jury venire prior to Petitioner’s trial, this court, like

63 In an affidavit submitted to this court by Petitioner, the former Court Administrator of
the 15th Judicial Circuit states that state retention rules permit destruction of juror questionnaire
forms after four years unless they have been made a part of the case record. Affidavit of Robert
Merrill, Doc. # 87-1, Exhibit 3. Unfortunately, Mr. Merrill does not claim to possess personal
knowledge regarding the actual disposition of the juror questionnaires completed by Petitioner’s
venire members.
51

Appendix B-52
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 52 of 263

the state appellate courts, is not in a proper position to re-examine the implicit
credibility findings made by the state trial court on Petitioner’s Batson claims.
The complete absence of any of the juror questionnaires from the state court
record in Petitioner’s direct appeal is especially problematic given the extensive
reliance on the juror questionnaire answers made on the record by counsel for both
parties during individual voir dire examination of Petitioner’s potential jurors.
Counsel for both the prosecution and defense spent considerable time and effort
during individual voir dire asking jury venire members about their answers to the
juror questionnaires, which included at least 45 questions.64

The following

discussion is hampered by the absence of the questionnaires from the record.

The

prosecution accurately described a number of the jury venire members against whom
it used peremptory strikes as having demonstrated great reluctance to vote in favor
of the death penalty (or to sit in judgment of another human being). The prosecution
also accurately identified another group of the jury venire members against whom it
utilized peremptory strikes as having serious criminal records or close relatives with
serious criminal records. There was nothing objectively unreasonable with the state
trial court’s acceptance of those proffered race-neutral reasons for the prosecution’s
peremptory strikes of jury venire members 20, 58, 73, 91, 95, 113, each of whom
expressed serious reservations about his or her ability to vote in favor of the death

64 See, e.g., 4 SCR 152, 184, 197-98; 5 SCR 208, 232, 234, 244-45, 315-16.
52

Appendix B-53
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 53 of 263

penalty.65 See Garcia v. Stephens, 793 F.3d 513, 527 (5th Cir. 2015) (prospective
juror’s opposition to the death penalty a legitimate and racially neutral reason for
prosecution’s peremptory strike), cert, denied, 136 S. Ct. 897 (2016). Likewise, the
state trial court reasonably accepted as race-neutral the prosecution’s explanations
that jury venire members 26, 29, 45, and 67 had close relatives with serious criminal
convictions.66
Furthermore,

Petitioner’s

arguments in support of his motion for

reconsideration of the denial of his Batson claims regarding jury venire members 29
and 31 are unpersuasive. The prosecution stated on the record that its strike ofjuror
31 was based upon that venire member’s disinterested demeanor throughout voir
dire, including his arms crossed across his chest and the fact he rolled his eyes at

65 4 SCR 157-61 (voir dire examination of venire member 20); 5 SCR 249-55 (voir dire
examination of venire member 58); 5 SCR 298-305 (voir dire examination of venire member 73);
5 SCR 332-39 (voir dire examination of venire member 91); 5 SCR 353-62 (voir dire examination
of 95); 6 SCR 404-16 (voir dire examination of 113). Each of these venire members expressed
reluctance to vote in favor of imposing the death penalty ranging from a general disagreement with
the death penalty to grave reservations about their ability to sit in judgment another human being.
While the reservations about imposing the death penalty expressed by these venire members may
not have risen to a level sufficient to sustain a challenge for cause, the prosecution’s exercise of
peremptory challenges against these venire members was consistent with the prosecution’s
professional duty to seek the ultimate punishment for the ultimate crime. Venire member 67 also
expressed reservations about her ability to vote to impose a death sentence. 5 SCR 286-87.
66 4 SCR 180-88 (venire member 26 - brother convicted of murder); 4 SCR 193-99 (venire
member 29 - cousin convicted of dealing drugs); 5 SCR 227-35 (venire member 45 - brother plea
bargained a charge of murder down to a lesser offense); 5 SCR 283-89 (venire member 67 - two
uncles killed a person and one uncle went to prison). The state trial court’s implicit factual finding
that the prosecution’s use of peremptory strikes against each of these individuals was race-neutral
was itself eminently reasonable.
53

Appendix B-54
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 54 of 263

several points.67 Petitioner criticizes the state trial court’s failure to make express
factual findings regarding the demeanor of juror 31.

Significantly, however,

Petitioner’s trial counsel did not challenge the factual accuracy of those descriptions
of the venire member’s demeanor given by the prosecutor. 68

Instead, Petitioner’s

trial counsel merely pointed out juror 31 was a teacher and the prosecution had failed
to strike other teachers on the jury venire.69 The prosecution responded that it struck
venire member 31 based upon his disinterested demeanor and not because of his
occupation.70 Thus, resolving the Batson claim surrounding the striking ofjuror 31
did not require the state trial court to evaluate conflicting descriptions of that venire
member’s demeanor.
The prosecution stated on the record that its strike ofjuror 29 was based upon
the fact he had a reading disorder that prevented him from completing his juror
questionnaire and he had a cousin who had been convicted of selling drugs.71
Petitioner’s trial counsel did not challenge the prosecution’s assertion that juror 29

67 6 SCR 484-85.
68 6 SCR 492.
69 Id.
70 6 SCR 497.
71 6 SCR 487-88.
54

Appendix B-55
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 55 of 263

had a reading problem.72 In fact, during individual voir dire, Petitioner’s trial
counsel pointed out this venire member had failed to complete a few answers on his
questionnaire and this venire member candidly admitted he had a reading problem.73
Instead, Petitioner’s trial counsel pointed out that another member of the jury venire
had a relative who had a drug-related criminal conviction.74

The prosecution

responded that (1) the other venire member identified by Petitioner’s counsel had a
wife who had been convicted of an offense while on diet pills and (2) he considered
that offense different from the drug-trafficking offense committed by juror 29’s
cousin.75 Thus, once more, there did not appear to be any genuine issue of material
fact regarding juror 29’s reading disability or the fact this venire member had a
relative with a conviction for a drug-related offense.
The state trial court had access to the juror questionnaires and the opportunity
to examine first-hand the demeanor of the jury venire members during their
individual voir dire examination. When viewed under the AEDPA’s deferential
standard, the state trial court’s implied credibility findings regarding the race-neutral
reasons proffered by the prosecution for striking venire members 29 and 31 were

72 6 SCR 490.
73 4 SCR 197-98.
74 6 SCR 490.
75 6 SCR 498-99.
55

Appendix B-56
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 56 of 263

objectively reasonable. “A trial court is best situated to evaluate both the words and
the demeanor of jurors who are peremptorily challenged, as well as the credibility
of the prosecutor who exercises those strikes.” Davis v. Ayala, 135 S. Ct. 2187,2201
(2015). Given Petitioner’s failure to present the juror questionnaires to the state
appellate courts, which reviewed and rejected Petitioner’s Batson claims on the
merits in the course of his direct appeal, the state appellate courts’ rejection on the
merits of Petitioner’s Batson claims were objectively reasonable under clearly
established federal law and the evidence presented to those appellate courts. This
court is not in a position to evaluate the propriety of the trial court’s implicit
credibility findings on Petitioner’s Batson claims under the AEDPA’s deferential
standard without access to the same information that was before the state trial court
when it made its implicit credibility findings. See Davis v. Ayala, 135 S. Ct. at 2201
(appellate judges cannot on the basis of a cold record easily second-guess a trial
judge’s decisions about the likely motivation of a prosecutor). Even if reasonable
minds might disagree about the prosecutor’s credibility, on habeas review that does
not suffice to supersede the trial court’s credibility determination. Id. For the
foregoing reasons, Petitioner’s motion for reconsideration of the denial of his Batson
claim is denied.
Petitioner originally presented his conflict of interest/constructive ineffective
assistance claim to the state appellate courts in his direct appeal as his seventh claim
56

Appendix B-57
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 57 of 263

in his appellant’s brief.76 The Alabama Court of Criminal Appeals denied that claim
on the merits. Dallas v. State, 711 So. 2d at 1111. This Court applied the AEDPA’s
deferential standard of review in denying Petitioner’s analogous claim in this federal
habeas corpus proceeding (Doc. #120, at pp. 31-32).

In his motion for

reconsideration, Petitioner relies upon new factual allegations, new affidavits,77 and
other new documentation purportedly supporting his conflict of interest claim which
were not presented to the Alabama state appellate courts during Petitioner’s direct
appeal. Under the Supreme Court’s holding in Cullen v. Pinholster, 563 U.S. 170,
181-82 (2011) (“We now hold that review under § 2254(d)(1) is limited to the record
that was before the state court that adjudicated the claim on the merits.”), this Court
may not consider Petitioner’s new evidence in the course of reviewing Petitioner’s
conflict of interest claim under the AEDPA. For the reasons discussed in the Order

7610 SCR Tab 2, at pp. 51-52.
11 See, e.g., Affidavit of Dr. Ken Benedict executed June 7, 2007 (Doc. # 87-2, Exhibit 15)
and the undated, unsworn “Affidavit” of Dr. Joseph Schumacher (Doc. # 87-2, Exhibit 16). Dr.
Schumacher’s unsworn statement specifically references a 2007 affidavit he reviewed in the course
of preparing his own statement. Petitioner’s direct appeal concluded at the state appellate level on
March 13, 1998, when the Alabama Supreme Court denied Petitioner’s petition for writ of
certiorari. Ex parte Dallas, 711 So. 2d 1114 (Ala.), cert, denied, 525 U.S. 860 (1998). Obviously,
Petitioner never submitted either of these documents to the Alabama state appellate courts in
support of Petitioner’s conflict of interest claim. They are not properly before this Court for the
purposes of federal habeas corpus review of Petitioner’s conflict of interest claim. Because Dr.
Schumacher’s “affidavit” is undated and unsworn, it may not be considered as evidence in this
proceeding.
57

Appendix B-58
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 58 of 263

issued January 12, 2012 (Doc. # 120), Petitioner’s motion for reconsideration of the
denial of his conflict of interest claim is denied.
III. MOTION FOR LEAVE TO AMEND/SUPPLEMENT PETITION
Petitioner has filed a motion for leave to amend his operative pleading but
furnished as an attachment not a proposed amended federal habeas corpus petition
but, rather, what amounts to a supplemental federal habeas corpus petition adding a
single new claim to those already before this court.78 The Supreme Court’s decision
in Hurst v. Florida, 136 S. Ct. 616 (2016), was handed down January 12, 2016.
Petitioner’s motion for leave to amend his petition to include a new claim based on
the holding in Hurst, which overruled several prior Supreme Court decisions, is
timely. Petitioner’s motion for leave to amend requests permission to present an
issue of significant constitutional gravity bearing upon the fundamental fairness of
Petitioner’s state court trial. Moreover, Petitioner’s proposed “amendment” of his
petition to include a claim premised upon the Supreme Court’s holding in Hurst does
little more than expand and update the same arguments Petitioner raised as his final
claim for relief in his original petition. The Court will permit Petitioner to amend

78 Petitioner’s proposed amended petition does not comply with the requirements of Rule
15.1, Local Rules for the United States District Court for the Middle District of Alabama, in that
it does not “reproduce the entire pleading, document or other papers as amended . .. .” Instead,
Petitioner’s proposed amended petition accompanying his recent motion for leave to amend merely
supplements his original petition by adding Petitioner’s new Hurst claim.
58

Appendix B-59
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 59 of 263

his final claim in his original petition to include his legal arguments based upon
Hurst and will address those arguments in the context of his final claim for relief.
IV. HURST. RING. & APPRENDI CLAIM
A. The Claim
In his seventeenth and final claim in his original petition (Doc. # 1, at pp. 7781) and his “amended petition” submitted January 11, 2017 (Doc. # 146-1),
Petitioner argues his sentence violates the Eighth Amendment because under the
holdings in Hurst v. Florida, 136 S. Ct. 616 (2016), Ring v. Arizona, 536 U.S. 584
(2002), and Apprendi v. New Jersey, 530 U.S. 466 (2000), only a jury may make the
factual findings necessary to impose a sentence of death.
B. The Constitutional Standard
Until recently, the Supreme Court’s opinions addressing capital punishment
offered a wide array of ambiguous analytical approaches to resolving Eighth
Amendment claims. For instance, in Trop v. Dulles, 356 U.S. 86 (1958), the
Supreme Court addressed the issue of a former soldier sanctioned for desertion with
loss of his citizenship. In the course of an opinion that reflected his own views on
the subject, Chief Justice Earl Warren wrote as follows:
The exact scope of the constitutional phrase ‘cruel and unusual’
has not been detailed by this Court. But the basic policy reflected in
these words is firmly established in the Anglo-American tradition of
criminal justice. The phrase in our Constitution was taken directly from
the English Declaration of Rights of 1688, and the principle it
represents can be traced back to the Magna Carta. The basic concept
59

Appendix B-60
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 60 of 263

underlying the Eighth Amendment is nothing less than the dignity of
man. While the State has the power to punish, the Amendment stands
to assure that this power be exercised within the limits of civilized
standards. Fines, imprisonment and even execution may be imposed
depending upon the enormity of the crime, but any technique outside
the bounds of these traditional penalties is constitutionally suspect.
This Court has had little occasion to give precise content to the Eighth
Amendment, and, in an enlightened democracy such as ours, this is not
surprising. But when the Court was confronted with a punishment of
12 years in irons at hard and painful labor imposed for the crime of
falsifying public records, it did not hesitate to declare that the penalty
was cruel in its excessiveness and unusual in its character. Weems v.
United States, 217 U.S. 349, 30 S.Ct. 544, 54 L.Ed. 793 [1910]. The
Court recognized in that case that the words of the Amendment are not
precise, and that their scope is not static. The Amendment must draw
its meaning from the evolving standards of decency that mark the
progress of a maturing society.
Trop v. Dulles, 356 U.S. at 99-101, 78 S. Ct. at 597-98 (Footnotes omitted).
Though often cited in subsequent Supreme Court opinions, Chief Judge
Warren’s “evolving standards of decency” standard proved to be difficult to apply
consistently. For example, in Furman v. Georgia, 408 U.S. 238 (1972), a bare
majority of the Supreme Court struck down capital sentencing schemes in thirtynine States but failed to reach any degree of consensus in terms of an analytical
approach to the Eighth Amendment. The result was nine separate opinions issued
from the Supreme Court in Furman, each reflecting a different analytical approach
to the Eighth Amendment claims presented therein.
The situation changed little when, four years later, a series of plurality
opinions from the Supreme Court upheld the new capital sentencing schemes
60

Appendix B-61
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 61 of 263

adopted by Georgia, Texas, and Florida in response to Furman. See Gregg v.
Georgia, 428 U.S. 153, 183 (1976) (plurality opinion issued by Justice Stewart for
himself and Justices Powell and Stevens with Chief Justice Burger and Justices
White and Rehnquist concurring separately) (the death penalty is said to serve two
principal social purposes: retribution and deterrence of capital crimes by prospective
offenders); Gregg v. Georgia, 428 U.S. at 195 (“Where the sentencing authority is
required to specify the factors it relied upon in reaching its decision, the further
safeguard of meaningful appellate review is available to ensure that death sentences
are not imposed capriciously or in a freakish manner.”); Jurek v. Texas, 428 U.S.
262, 268 (1976) (same plurality and concurrences) (holding imposition of the death
penalty does not per se violate the Eighth Amendment’s proscription of “cruel and
unusual punishment”); Proffitt v. Florida, 428 U.S. 242, 252 (1976) (same plurality
and concurrences) (holding the Supreme Court “has never suggested that jury
sentencing is constitutionally required”). The same date, the Supreme Court struck
down North Carolina’s adoption of a mandatory death penalty scheme for all persons
convicted of first-degree murder and Louisiana’s adoption of mandatory death
sentences for persons convicted of five categories of capital murder. See Woodson
v. North Carolina, 428 U.S. 280,301-03 (1976) (plurality opinion by Justice Stewart
for himself and Justices Powell and Stevens with Justices Brennan and Marshall
concurring separately) (holding North Carolina’s mandatory death sentence for first61

Appendix B-62
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 62 of 263

degree murder violated the Eighth and Fourteenth Amendments because mandatory
death sentences are inconsistent with “the evolving standards of decency that mark
the progress of a maturing society” and fail to “allow the particularized consideration
of relevant aspects of the character and record of each convicted defendant before
imposition of a sentence of death”); Roberts v. Louisiana, 428 U.S. 325, 334 (1976)
(same plurality and concurrences as in Woodson) (“The constitutional vice of
mandatory death statutes lack of focus on the circumstances of the particular offense
and the character and propensities of the offender is not resolved by Louisiana’s
limitation of first-degree murder to various categories of killings.”).
A year later, in Coker v. Georgia, 433 U.S. 584, 592 (1977), a Supreme Court
plurality (Justice White joined by Justices Stewart, Blackmun, and Stevens, joined
separately by Justices Brennan and Marshall with Justice Powell concurring in part
and dissenting in part) held “a sentence of death is grossly disproportionate and
excessive punishment for the crime of rape and is therefore forbidden by the Eighth
Amendment as cruel and unusual punishment.”
In Godfrey v. Georgia, 446 U.S. 420 (1980), Justice Stewart wrote for himself
and three other Justices with Justices Brennan and Marshall concurring separately
(i.e., the same plurality and concurrences as in Coker v. Georgia) to strike down as
unconstitutionally vague Georgia’s aggravating factor that a capital offense was
“outrageously or wantonly vile, horrible and inhuman.” Relying upon Justice
62

Appendix B-63
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 63 of 263

White’s concurring opinion in Furman, the Supreme Court held (1) a capital
sentencing scheme must provide a meaningful basis for distinguishing the few cases
in which the death penalty is imposed from the many cases in which it is not and (2)
the Georgia Supreme Court’s construction of the aggravating factor in question
failed to adequately channel the jury’s discretion because a person of ordinary
sensibility could fairly characterize almost every murder in such terms. Godfrey v.
Georgia, 446 U.S. at 427-29. The Supreme Court concluded the state courts had not
limited the meaning of the aggravating factor in question in a manner which avoided
the “standardless and unchanneled imposition of death sentences.” Id., 446 U.S. at
430-32.

Of great significance to Petitioner’s case is the Supreme Court’s opinion in
Enmund v. Florida, 458 U.S. 782 (1982), which arose from the same jurisdiction as
Hurst. In Enmund, the Supreme Court (Justice White writing for himself and three
other Justices with Justice Brennan joining but concurring separately) struck down
a sentence of death for a criminal defendant who was convicted as an accomplice to
a felony murder. The Florida trial court instructed Enmund’s jury that “the killing
of a human being while engaged in the perpetuation of or in the attempt to perpetuate
the offense of robbery is murder in the first degree even though there is no
premeditated design or intent to kill.” Enmund v. Florida, 458 U.S. at 784-85. The
Florida Supreme Court later determined there was no evidence Enmund (1) was
63

Appendix B-64
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 64 of 263

present at the time and place of the murders, (2) killed anyone, (3) intended to kill
anyone, or (4) anticipated that lethal force would or might be used during the
robbery. Id., 458 U.S. at 788. After carefully reviewing the nation’s capital murder
statutes and the practices of juries with regard to the imposition of a death sentence
for felony murder absent a showing of intent to kill or reckless indifference to human
life, the Supreme Court concluded the Eighth Amendment forbids the imposition of
the death penalty on one such as Enmund “who aids and abets a felony in the course
of which a murder is committed by others but who does not himself kill, attempt to
kill, or intend that a killing take place or that lethal force will be employed.” Id., 458
U.S. at 789-97.

The Supreme Court emphasized that the two principal social

purposes for the death penalty, i.e., retribution and deterrence, are not furthered by
the imposition of a death penalty on a robber who did not take a human life, attempt
to kill, or intend to kill. Id., 458 U.S. at 797-801.
In Tison v. Arizona, 481 U.S. 137, 152-58 (1987), a majority of the Supreme
Court clarified its holding in Enmund, holding that the sons of a convicted murderer
who smuggled an arsenal of firearms into a state prison and actively assisted their
father in an armed prison break and the subsequent kidnaping, robbery, and murder
of a family (including a two-year-old child) could be sentenced to death because
their participation in the capital offense was major and their mental state was one of

64

Appendix B-65
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 65 of 263

reckless indifference to the value of human life.79 The Supreme Court took great
pains to distinguish its holding in Enmund, pointing out Enmund had been a minor
actor in the armed robbery, was not physically present at the time of the murders,
and did not intend to kill, attempt to kill, or kill. Tison v. Arizona, 481 U.S. at 14950.

The Supreme Court held the evidence showed (1) the Tison brothers’

participation in their capital offense was “anything but minor” and (2) the brothers

79 The facts in Tison set forth in the Supreme Court’s opinion [481 U.S. at 139-43] are so
extreme they deserve elaboration. Unlike Enmund, in which the petitioner had been spotted sitting
in a getaway vehicle along a highway while his accomplices robbed a residence and shot the
occupants several hundred yards away, the Tison brothers were physically present and actively
involved in both the prison break and the ensuing kidnaping and robbery of a family one of the
brothers had flagged down along a highway after the Tisons’ vehicle had a flat tire. More
specifically, the Tison brothers and their mother plotted to break their father and his cellmate, also
a convicted murderer, out of an Arizona prison where he was serving a term for having killed a
guard during a prior escape attempt. The three Tison brothers obtained “a small arsenal” of
weapons and smuggled them into their father’s prison inside a large ice chest. The Tison sons
armed their father and his cellmate. The five men brandished their weapons, locked the prison
guards and visitors present in a storage closet, and fled the prison grounds in the Tisons’ (Ford)
vehicle. After abandoning their initial getaway vehicle for a second (Lincoln) getaway vehicle the
Tison sons had acquired and placed in close proximity to the prison, the five men spent two nights
at an isolated house where they changed a flat tire on the Lincoln using the lone spare tire. As the
group drove back roads and secondary highways through the desert, another tire blew out. The
group flagged down a vehicle driven by a couple traveling with their two-year-old son and teenage
niece. After the group robbed and drove their captives into the desert, the elder Tison and his
cellmate fatally shot all four of their captives with repeated blasts from shotguns. The Tison sons
later claimed they were surprised by the shooting. Several days later, the group ran into a police
roadblock resulting in a shootout. The elder Tison managed to escape into the desert where he
died of exposure. One of the three Tison brothers was killed in the shootout. The elder Tison’s
cellmate and the remaining two Tison brothers were apprehended. The surviving Tison brothers
were charged with car theft, robbery, kidnaping, and capital murder under Arizona’s felony murder
statute, which provided at that time that a killing occurring during the perpetuation of robbery or
kidnaping was capital murder. Each Tison brother was convicted of capital murder. An Arizona
judge, acting without a jury, found (1) each Tison brother’s participation in the capital offense was
“very substantial,” (2) each could reasonably have foreseen that his conduct would cause a grave
risk of death, and (3) there were no statutory mitigating factors applicable. The trial judge
sentenced both Tison brothers to death.
65

Appendix B-66
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 66 of 263

both subjectively appreciated their actions were likely to result in the taking of
innocent life. Id., 481 U.S. at 152. The Supreme Court ultimately held “the reckless
disregard for human life implicit in knowingly engaging in criminal activities known
to carry a grave risk of death represents a highly culpable mental state, a mental state
that may be taken into account in making a capital sentencing judgment when that
conduct causes the natural, though also not inevitable, lethal result.” Id., 481 U.S.
at 157-58. The Supreme Court reversed the Arizona Supreme Court’s opinion
declaring that Enmund required a showing of intent to kill. See Tison v. Arizona,
481 U.S. at 158 (“major participation in the felony committed, combined with
reckless indifference to human life, is sufficient to satisfy the Enmund culpability
requirement.”).
In Maynard v. Cartwright, 486 U.S. 356 (1988), the Supreme Court
unanimously struck down an Oklahoma death sentence based upon a factual
determination that the capital offense was “especially heinous, atrocious, or cruel.”
The Court relied upon Justice Stewart’s and Justice White’s concurring opinions in
Furman and reasoned that “[sjince Furman, our cases have insisted that the
channeling and limiting of the sentencer’s discretion in imposing the death penalty
is a fundamental constitutional requirement for sufficiently minimizing the risk of
wholly arbitrary and capricious action,” Maynard v. Cartwright, 486 U.S. at 362
(iciting Gregg v. Georgia, 428 U.S. at 189, 206-07, 220-22). The Supreme Court
66

Appendix B-67
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 67 of 263

noted that, at the time of the petitioner’s trial, Oklahoma courts had not yet restricted
the aggravating factor in question to those murders in which torture or serious
physical abuse were present. Id., 486 U.S. at 365. The Supreme Court concluded
that its holding in Godfrey controlled the outcome in Maynard because Oklahoma’s
courts had not limited the “especially heinous, atrocious, or cruel” aggravating factor
any more effectively than had the Georgia court limited the term “outrageously or
wantonly vile, horrible or inhuman.” Id., 486 U.S. at 363-64.
The lack of Supreme Court consensus on an analytical approach to the Eighth
Amendment continued in a case rejecting an “as applied” challenge to the Texas
capital sentencing scheme. See Franklin v. Lynaugh, 487 U.S. 164, 172-73 (1988)
(holding there is no constitutional right to have a capital sentencing jury consider
“residual doubts” as to the defendant’s guilt in an opinion by Justice White for
himself, Chief Justice Burger, and Justices Scalia and Kennedy, with Justices
O’Connor and Blackmun concurring separately).
A degree of consensus did begin to appear within the Supreme Court early the
following decade when five Justices finally agreed on a single standard for reviewing
the adequacy of jury instructions in a capital sentencing proceeding:
We think the proper inquiry in such a case is whether there is a
reasonable likelihood that the jury has applied the challenged
instruction in a way that prevents the consideration of constitutionally
relevant evidence. Although a defendant need not establish that the jury
was more likely than not to have been impermissibly inhibited by the
instruction, a capital sentencing proceeding is not inconsistent with the
67

Appendix B-68
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 68 of 263

Eighth Amendment if there is only a possibility of such an inhibition.
This “reasonable likelihood” standard, we think, better accommodates
the concerns of finality and accuracy than does a standard which makes
the inquiry dependent on how a single hypothetical “reasonable” juror
could or might have interpreted the instruction. There is, of course, a
strong policy in favor of accurate determination of the appropriate
sentence in a capital case, but there is an equally strong policy against
retrials years after the first trial where the claimed error amounts to no
more than speculation. Jurors do not sit in solitary isolation booths
parsing instructions for subtle shades of meaning in the same way that
lawyers might.
Differences among them in interpretation of
instructions may be thrashed out in the deliberative process, with
commonsense understanding of the instructions in the light of all that
has taken place at the trial likely to prevail over technical hairsplitting.
Boyde v. California, 494 U.S. 370, 380-381 (1990) (footnotes omitted).
This baby-step forward toward analytical consensus quickly dissipated,
however, in a series of opinions addressing the constitutionality of various state
aggravating factors. For example in Shell v. Mississippi, 498 U.S. 1 (1990), in a
terse per curiam opinion, the Supreme Court struck down as unconstitutionally
vague a Mississippi trial court’s jury instruction attempting to restrict the definition
of the term “especially heinous, atrocious, or cruel” as used as an aggravating factor
in that state’s capital sentencing scheme. See Shell v. Mississippi, 498 U.S. at 1
{citing Maynard v. Cartwright, 486 U.S. 356 (1988)).
In Arave v. Creech, 507 U.S. 463 (1993), the Supreme Court upheld as
constitutional against a vagueness challenge Idaho’s aggravating circumstance that
the defendant “exhibited utter disregard for human life” based upon the Idaho
Supreme Court’s limiting construction of that term as referring to “acts or
68

Appendix B-69
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 69 of 263

circumstances surrounding the crime which exhibit the highest, the utmost, callous
disregard for human life, i.e., the cold-blooded, pitiless slayer.” Arave v. Creech,
507 U.S. at 467-68.

“The terms ‘cold-blooded’ and ‘pitiless’ describe the

defendant’s state of mind: not his mens rea, but his attitude toward his conduct and
his victim.” Id., 507 U.S. at 473. “The ‘utter disregard’ factor refers not to the
outrageousness of the acts constituting the murder, but to the defendant’s lack of
conscientious scruples against killing another human being.” Id., 507 U.S. at 478
(iquoting State v. Fain, 116 Idaho 82, 99, 774 P.2d 252, 269, cert, denied, 493 U.S.
917(1989)).
True consensus on an overarching analytical approach to Eighth Amendment
claims did not fully appear, however, until eight Supreme Court Justices agreed in
Tuilaepa v. California, 512 U.S. 967 (1994), on the principle that the Eighth
Amendment addresses two different, but related, aspects of capital sentencing: the
eligibility decision and the selection decision. Tuilaepa, 512 U.S. at 971 (Justice
Kennedy writing for himself, Chief Justice Rehnquist, and Justices O’Connor,
Scalia, Souter, and Thomas, with Justices Stevens and Ginsburg concurring
separately but not rejecting the analytical approach offered by Justice Kennedy).
The Supreme Court’s analysis of those two aspects of capital sentencing provided
the first comprehensive system for analyzing Eighth Amendment claims that a clear
majority of the Supreme Court had ever offered:
69

Appendix B-70
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 70 of 263

To be eligible for the death penalty, the defendant must be
convicted of a crime for which the death penalty is a proportionate
punishment. To render a defendant eligible for the death penalty in a
homicide case, we have indicated that the trier of fact must convict the
defendant of murder and find one "aggravating circumstance" (or its
equivalent) at either the guilt or penalty phase. The aggravating
circumstance may be contained in the definition of the crime or in a
separate sentencing factor (or both). As we have explained, the
aggravating circumstance must meet two requirements. First, the
circumstance may not apply to every defendant convicted of a murder;
it must apply only to a subclass of defendants convicted of murder.
Second, the aggravating circumstance may not be unconstitutionally
vague. * * *
We have imposed a separate requirement for the selection
decision, where the sentencer determines whether a defendant eligible
for the death penalty should in fact receive that sentence. "What is
important at the selection stage is an individualized determination on
the basis of the character of the individual and the circumstances of the
crime." That requirement is met when the jury can consider relevant
mitigating evidence of the character and record of the defendant and the
circumstances of the crime.
Tuilaepa, 512 U.S. at 971-73 (citations omitted).
In Tuilaepa, the Supreme Court clearly declared its view that States may adopt
capital sentencing procedures which rely upon the jury, in its sound judgment, to
exercise wide discretion. Tuilaepa, 512 U.S. at 974. The Supreme Court also
concluded, at the selection stage, States are not confined to submitting to the jury
specific propositional questions but, rather, may direct the jury to consider a wide
range of broadly-defined factors, such as “the circumstances of the crime,

55

U

the

defendant’s prior criminal record” and “all facts and circumstances presented in
extenuation, mitigation, and aggravation of punishment.” Tuilaepa, 512 U.S. at 978.
70

Appendix B-71
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 71 of 263

In Loving v. United States, 517 U.S. 748 (1996), the Supreme Court described
the first part of the Tuilaepa analysis, i.e., the eligibility decision, as follows:
The Eighth Amendment requires, among other things, that “a
capital sentencing scheme must ‘genuinely narrow the class of persons
eligible for the death penalty and must reasonably justify the imposition
of a more severe sentence on the defendant compared to others found
guilty of murder.’” Some schemes accomplish that narrowing by
requiring that the sentencer find at least one aggravating circumstance.
The narrowing may also be achieved, however, in the definition of the
capital offense, in which circumstance the requirement that the
sentencer “find the existence of the aggravating circumstance in
addition is no part of the constitutionally required narrowing process.”
Loving, 517 U.S. at 755 (citations omitted).
The Supreme Court subsequently elaborated on the distinction between the
narrowing function or “eligibility decision” and the “selection phase” of a capital
sentencing proceeding in Buchanan v. Angelone, 522 U.S. 269 (1998):
Petitioner initially recognizes, as he must, that our cases have
distinguished between two different aspects of the capital sentencing
process, the eligibility phase and the selection phase. Tuilaepa v.
California, 512 U.S. 967, 971, 114 S.Ct. 2630, 2634, 129 L.Ed.2d 750
(1994). In the eligibility phase, the jury narrows the class of defendants
eligible for the death penalty, often through consideration of
aggravating circumstances. Ibid. In the selection phase, the jury
determines whether to impose a death sentence on an eligible
defendant. Id., at 972, 114 S.Ct., at 2634-2635. Petitioner concedes
that it is only the selection phase that is at stake in his case. He argues,
however, that our decisions indicate that the jury at the selection phase
must both have discretion to make an individualized determination and
have that discretion limited and channeled. See, e.g, Gregg v. Georgia,
428 U.S. 153, 206-207, 96 S.Ct. 2909, 2940-2941, 49 L.Ed.2d 859
(1976). He further argues that the Eighth Amendment therefore
requires the court to instruct the jury on its obligation and authority to
71

Appendix B-72
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 72 of 263

consider mitigating evidence, and on particular mitigating factors
deemed relevant by the State.
No such rule has ever been adopted by this Court, While
petitioner appropriately recognizes the distinction between the
eligibility and selection phases, he fails to distinguish the differing
constitutional treatment we have accorded those two aspects of capital
sentencing. It is in regard to the eligibility phase that we have stressed
the need for channeling and limiting the jury’s discretion to ensure that
the death penalty is a proportionate punishment and therefore not
arbitrary or capricious in its imposition. In contrast, in the selection
phase, we have emphasized the need for a broad inquiry into all relevant
mitigating evidence to allow an individualized determination.
Tuilaepa, supra, at 971-973, 114 S.Ct., at 2634-2636; Romano v.
Oklahoma, 512 U.S. 1, 6-7, 114 S.Ct. 2004, 2008-2009, 129 L.Ed.2d 1
(1994); McCleskey v. Kemp, 481 U.S. 279, 304-306, 107 S.Ct. 1756,
1773-1775, 95 L.Ed.2d 262 (1987); Stephens, supra, at 878-879, 103
S.Ct., at 2743-2744.
In the selection phase, our cases have established that the
sentencer may not be precluded from considering, and may not refuse
to consider, any constitutionally relevant mitigating evidence. Penry v.
Lynaugh, 492 U.S. 302, 317-318, 109 S.Ct. 2934, 2946-2947, 106
L.Ed.2d 256 (1989); Eddings v. Oklahoma, 455 U.S. 104,113-114,102
S.Ct. 869, 876-877,71 L.Ed.2d 1 (1982); Lockett v. Ohio, 438 U.S. 586,
604, 98 S.Ct. 2954, 2964-2965, 57 L.Ed.2d 973 (1978). However, the
state may shape and structure the jury’s consideration of mitigation so
long as it does not preclude the jury from giving effect to any relevant
mitigating evidence. Johnson v. Texas, 509 U.S. 350, 362, 113 S.Ct.
2658, 2666, 125 L.Ed.2d 290 (1993); Penry, supra, at 326, 109 S.Ct.,
at 2951; Franklin v. Lynaugh, 487 U.S. 164,181, 108 S.Ct. 2320,2331,
101 L.Ed.2d 155 (1988). Our consistent concern has been that
restrictions on the jury's sentencing determination not preclude the jury
from being able to give effect to mitigating evidence. Thus, in Boyde
v. California, 494 U.S. 370, 110 S.Ct. 1190, 108 L.Ed.2d 316 (1990),
we held that the standard for determining whether jury instructions
satisfy these principles was “whether there is a reasonable likelihood
that the jury has applied the challenged instruction in a way that
prevents the consideration of constitutionally relevant evidence.” Id., at
380,110 S.Ct., at 1198; see also Johnson, supra, at 367-368,113 S.Ct.,
at 2669.
72

Appendix B-73
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 73 of 263

But we have never gone further and held that the state must
affirmatively structure in a particular way the manner in which juries
consider mitigating evidence. And indeed, our decisions suggest that
complete jury discretion is constitutionally permissible. See Tuilaepa,
supra, at 978-979, 114 S.Ct., at 2638-2639 (noting that at the selection
phase, the state is not confined to submitting specific propositional
questions to the jury and may indeed allow the jury unbridled
discretion); Stephens, supra, at 875, 103 S.Ct., at 2741-2742 (rejecting
the argument that a scheme permitting the jury to exercise “unbridled
discretion” in determining whether to impose the death penalty after it
has found the defendant eligible is unconstitutional, and noting that
accepting that argument would require the Court to overrule Gregg,
supra).
Buchanan v. Angelone, 522 U.S. at 275-277.
C. De Novo Review
Petitioner relies upon the Supreme Court’s opinions in Apprendi v. New
Jersey, 530 U.S. 466 (2000), Ring v. Arizona, 536 U.S. 584 (2002), and Hurst v.
Florida, 136 S. Ct. 616 (2016). Petitioner misconstrues the holding in Hurst, as well
as those in Ring and Apprendi as they apply to Alabama’s capital sentencing scheme
generally and his own trial in particular.
In Apprendi v. New Jersey, the Supreme Court struck down on due process
grounds a state scheme that permitted a trial judge to make a factual finding based
on a preponderance of the evidence regarding the defendant’s motive or intent
underlying a criminal offense and, based on such a finding, increase the maximum
end of the applicable sentencing range for the offense by a factor of one hundred
percent. Apprendi, 530 U.S. at 497. The Supreme Court’s opinion in Apprendi
73

Appendix B-74
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 74 of 263

emphasized it was merely extending to the state courts the same principles discussed
in Justice Stevens’ and Justice Scalia’s concurring opinions in Jones v. United States,
526 U.S. 227, 252-53 (1999): other than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury and proved beyond a reasonable doubt. Apprendi, 530 U.S. at
490.

Put more simply, the Supreme Court held in Apprendi (1) it was

unconstitutional for a legislature to remove from the jury the assessment of facts that
increase the prescribed range of penalties to which a criminal is exposed and (2) all
such findings must be established beyond a reasonable doubt. Id., 530 U.S. at 490.
Two years later, in Ring v. Arizona, the Supreme Court applied the holding
and its reasoning in Apprendi to strike down a death sentence in a case in which the
jury had declined to find the defendant guilty of pre-meditated murder during the
guilt-innocence phase of a capital trial (instead finding the defendant guilty only of
felony murder) but a trial judge subsequently concluded the defendant should be
sentenced to death based upon factual determinations that (1) the offense was
committed in expectation of receiving something of pecuniary value (i.e., the fatal
shooting of an armored van guard during a robbery) and (2) the foregoing
aggravating factor out-weighed the lone mitigating factor favoring a life sentence

74

Appendix B-75
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 75 of 263

{i.e., the defendant’s minimal criminal record).80 Ring v. Arizona, 536 U.S. at 609.
The Supreme Court emphasized, as it had in Apprendi, the dispositive question “is
not one of form, but of effect”: [i]f a State makes an increase in a defendant’s
authorized punishment contingent on the finding of a fact, that fact - no matter how
the State labels it - must be found by a jury beyond a reasonable doubt.” Id., 536
U.S. at 602. “A defendant may not be exposed to a penalty exceeding the maximum
he would receive if punished according to the facts reflected in the jury verdict
alone.” Id., 536 U.S. at 602 {quoting Apprendi, 530 U.S. at 483). Because Ring
would not have been subject to the death penalty under Arizona law based solely

The Arizona trial judge instructed Ring’s jury on alternative theories of premeditated
murder and felony murder. Ring v. Arizona, 536 U.S. at 591. The jury deadlocked on premeditated
murder but convicted Ring of felony murder occurring in the course of armed robbery. Id. The
trial court also instructed Ring’s jury in accordance with Arizona law that (1) a person commits
first-degree murder if, acting either alone or with one or more other persons, the person commits
or attempts to commit one of several enumerated felonies including robbery and, in the course of
and furtherance of the offense or immediate flight from the offense, the person or another person
causes the death of any person and (2) a conviction for felony murder did not require a specific
mental state other than what is required for the commission of the enumerated felonies. Id. {citing
Ariz.Rev.Stat.Ann. § 13-1105(A) and (B) (West 2001)). At the guilt-innocence phase of Ring’s
trial, there was no evidence presented showing Ring participated in the planning of the robbery or
expected the killing of the armored car guard. Id., 536 U.S. at 592-93. Between the guiltinnocence phase of trial and Ring’s sentencing hearing, however, one of his accomplices entered
into a plea agreement and agreed to testify at Ring’s sentencing hearing. Id., 536 U.S. at 593. At
the sentencing hearing, the accomplice identified Ring as the primary planner of the robbery and
the person who actually shot the guard. Id.
The Arizona trial judge found a second aggravating factor applied in Ring’s case, i.e.,
Ring’s comments after the fatal shooting in which he chastised his co-conspirators for their failure
to praise Ring’s marksmanship rendered his offense “especially heinous, cruel, or depraved.” The
Arizona Supreme Court later held there was insufficient evidence to support the trial judge’s
finding of depravity but nonetheless re-weighed the remaining aggravating factor against the lone
mitigating factor and affirmed Ring’s death sentence. Ring v. Arizona, 536 U.S. at 595-96.
80

75

Appendix B-76
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 76 of 263

upon the jury’s verdict (and but for the trial judge’s factual determination as to the
existence of an aggravating factor), the Supreme Court declared Ring’s death
sentence violated the right to trial by jury protected by the Sixth Amendment. Id.,
536 U.S. at 609.
In Blakely v. Washington, 542 U.S. 296, (2004), the Supreme Court struck
down as a violation of the Sixth Amendment’s right to jury trial a judge-imposed
sentence of imprisonment that exceeded by more than three years the state statutory
maximum of 53 months. Blakely v. Washington, 542 U.S. at 303-04. In so ruling,
the Supreme Court relied upon its prior holding in Apprendi, 530 U.S. at 490 (“Other
than the fact of a prior conviction, any fact that increases the penalty for a crime
beyond the prescribed statutory maximum must be submitted to a jury, and proved
beyond a reasonable doubt.”). In Blakely, the Supreme Court also relied upon its
prior opinion in Ring v. Arizona, supra, for the principle “the ‘statutory maximum’
for Apprendi purposes is the maximum sentence a judge may impose solely on the
basis of the facts reflected in the jury verdict or admitted by the defendant.” Blakely
v. Washington, 542 U.S. at 303.
In Hurst v. Florida, the Supreme Court struck down as a violation of the
principles announced in Apprendi and Ring a death sentence imposed by a Florida
judge after the jury at the guilt-innocence phase of Hurst’s trial convicted him of
first-degree murder but failed to specify which of the two theories of murder
76

Appendix B-77
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 77 of 263

submitted {i.e., premeditated murder or felony murder for an unlawful killing during
a robbery) it believed. Hurst, 136 S. Ct. at 619-20. The Florida felony murder statute
at the time of Hurst’s trial, as was true for Arizona’s felony murder statute at the
time of Ring’s trial, did not require a jury finding of the specific intent to kill.81
Consistent with Florida’s hybrid capital sentencing scheme, the sentencing court
held an evidentiary hearing before the jury, and the jury recommended a sentence of
death.

After the Florida Supreme Court vacated Hurst’s first sentence, the

sentencing judge conducted a new evidentiary hearing, instructing the jury it could
recommend a death sentence if it found at least one aggravating circumstance
beyond a reasonable doubt, i.e., either the murder was especially heinous, atrocious,
or cruel, or the murder was committed while Hurst was committing a robbery. At
the conclusion of the second sentencing hearing the jury recommended death by a
vote of 7 to 5. In her sentencing order, the trial judge relied upon her independent
determination that the evidence established statutory aggravating factors of (1) the
capital felony was especially heinous, atrocious, or cruel and (2) the capital felony
was committed while the defendant was engaged, or was an accomplice, in the

81 Florida law provided at the time of Hurst’s murder trial that first degree murder consisted
of the unlawful killing of a human being (1) when perpetuated from a premeditated design to effect
the death of the person killed or any human being, (2) when committed by a person engaged in the
perpetuation of, or in the attempt to perpetuate any of nineteen listed felonies (including robbery
and kidnaping), or (3) which resulted from the unlawful distribution of any controlled substance
identified in the statute, when such drug is proven to be the proximate cause of the death of the
user. Fla. Stat. § 782.04(1) (2010).
77

Appendix B-78
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 78 of 263

commission or an attempt to commit, or flight after committing or attempting to
commit any robbery, i.e., Fla. Stat. § 921.141 (6)(d) & (h) (2010). The Supreme
Court held the Sixth Amendment and Due Process Clause jointly require that each
element of a crime be proved to a jury beyond a reasonable doubt. Hurst, 136 S. Ct.
at 621. The Supreme Court described its prior holding in Apprendi as follows: “any
fact that ‘exposes the defendant to a greater punishment than that authorized by the
jury’s guilty verdict ’ is an ‘element’ that must be submitted to a jury.” Id. (emphasis
added). The Supreme Court concluded Hurst’s death sentence was invalid because
the sentencing judge, not a jury, found the aggravating circumstance necessary for
the imposition of the death penalty under Florida law. Id., at 624.
Alabama’s capital sentencing scheme is very similar to the hybrid system that
produced Hurst’s death penalty. As explained in detail in Section I.D.3. above,
Petitioner’s capital sentencing proceeding followed the same pattern as Hurst’s: first,
the trial judge instructed an advisory jury it could only consider specific aggravating
circumstances it determined beyond a reasonable doubt existed in Petitioner’s case;
second, the jury recommended a sentence of death; and finally, the trial judge issued
a written sentencing order containing factual findings, weighing aggravating factors
he concluded had been established beyond a reasonable doubt against mitigating
circumstances, and imposing a sentence of death. There the similarities between
Petitioner’s trial and those in Hurst, Ring, and Enmund end, however.
78

Appendix B-79
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 79 of 263

What distinguishes Petitioner’s trial from the constitutionally defective capital
murder trials in Hurst, Ring, and Enmund discussed above, and what distinguishes
the holding in Apprendi from the circumstances of Petitioner’s case, is the fact
Petitioner’s capital sentencing jury made all the factual determinations at the guiltinnocence phase of Petitioner’s trial (unanimously and beyond a reasonable doubt)
necessary to render Petitioner eligible for the death penalty under Alabama law (/. e.,
finding Petitioner (1) intentionally murdered Mrs. Liveoak and (2) did so in the
course of committing her robbery and kidnaping). As the Supreme Court explained
in Hurst, its holding in Apprendi was that “any fact that ‘exposes the defendant to a
greater punishment than that authorized by the jury’s guilty verdict’ is an ‘element’
of the offense that must be submitted to a jury.” Hurst, 136 S. Ct. at 621. The jury’s
factual findings at the guilt-innocence phase of Petitioner’s capital murder trial
rendered Petitioner eligible for the death penalty within the meaning of the Supreme
Court’s Eighth Amendment jurisprudence. See Tuilaepa v. California, 512 U.S. at
971-72 (“To render a defendant eligible for the death penalty in a homicide case, we
have indicated that the trier of fact must convict the defendant of murder and find
one ‘aggravating circumstance’ (or its equivalent) at either the guilt or penalty
phase.”).

Petitioner’s jury made guilt-innocence phase factual findings,

unanimously and beyond a reasonable doubt, that he (1) intentionally killed Mrs.
Liveoak and (2) committed her murder in the course of her robbing and kidnaping.
79

Appendix B-80
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 80 of 263

These factual findings were all that were necessary under applicable Alabama law
and the Eighth Amendment to render Petitioner eligible to receive a sentence of
death.
As explained at length above, the Supreme Court’s Sixth and Eighth
Amendment jurisprudence requires that all factual determinations necessary to
render a defendant eligible for a sentence of death must be made unanimously and
beyond a reasonable doubt by a jury.

The juries in Enmund, Ring, and Hurst all

rendered ambiguous guilty verdicts on charges of first-degree murder.

Those

charges were premised or potentially premised upon felony murder theories that did
not require the prosecution to establish beyond a reasonable doubt that the defendant
acted with the specific intent to kill, as required by the holding in Enmund. Likewise,
the ambiguous guilty verdicts in Enmund, Ring, and Hurst did not establish that the
juries in those cases had concluded unanimously and beyond a reasonable doubt the
existence of an aggravating circumstance that both (1) did not apply to every
defendant convicted of a murder and (2) was not unconstitutionally vague.82 See

82 Enmund’s jury was instructed it could convict him of first-degree murder for the killing
of a human being while engaged in the perpetuation of or in the attempt to perpetuate the offense
of robbery even though there was no premeditated design or intent to kill. Enmund, 458 U.S. at
784-85. Ring’s jury was instructed on the dual theories of premeditated murder and felonymurder;
it deadlocked on premeditated murder but convicted on felony murder after receiving instructions
permitting it to convict on that charge without making a finding of a specific mental state beyond
that necessary to convict for robbery. Ring, 536 U.S. at 591-92. Hurst’s jury convicted him of
first-degree murder without specifying which of the two alternative theories (i.e., premeditated
murder or felony murder for an unlawful killing during a robbery) it had concluded the evidence
80

Appendix B-81
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 81 of 263

Tuilaepa, 512 U.S. at 972 (the aggravating circumstance must apply only to a
subclass of defendants convicted of murder and may not be unconstitutionally
vague). In stark contrast, Petitioner’s guilty verdict on the capital murder counts
against him necessarily included factual findings (unanimously and beyond a
reasonable doubt) that Petitioner intentionally killed Mrs. Liveoak in the course of
both her kidnaping and robbery. Petitioner’s guilty verdict did not suffer from any
of the ambiguities present in Enmund, Ring, or Hurst. For this reason, Petitioner’s
death penalty does not suffer from the same constitutional defect that took place
during the trials of Enmund, Ring, and Hurst. Likewise, the Petitioner’s death
sentence does not violate the constitutional rule announced in Apprendi. Petitioner’s
trial conformed in all respects to the Sixth and Eighth Amendment requirements
applicable to the eligibility determination of the capital sentencing process.

established beyond a reasonable doubt. Hurst, 136 S. Ct. at 619-20. Thus, all of these guilty
verdicts were highly ambiguous.
Another problematic element in both Ring and Hurst that is absent from Petitioner’s case
is the presence of the aggravating factor of premeditation. It is far from clear whether a jury’s
finding that a murder was premeditated, standing alone, is sufficient to satisfy the Eighth
Amendment requirement discussed in Tuilaepa that an aggravating circumstance must apply to
only a subclass of defendants convicted of murder. See Tuilaepa, 512 U.S. at 972 {quoting Arave
v. Creech, 507 U.S. at 474 (“If the sentencer fairly could conclude that an aggravating
circumstance applies to every defendant eligible for the death penalty, the circumstance is
constitutionally infirm.”)). Given the Supreme Court’s holdings in Enmund and Tison, which
compel a jury finding of an intentional killing (or at least reckless indifference to human life joined
with major participation in the underlying crime) as a prerequisite to the imposition of the death
penalty, it is uncertain whether a jury finding of premeditation can survive constitutional scrutiny
if proffered as the sole basis for elevating a murder conviction to one which will support the
imposition of a death sentence. Petitioner’s jury unanimously found beyond a reasonable doubt
that Petitioner intentionally murdered Mrs. Liveoak during the course of robbing and kidnaping
her. There was no ambiguity in that finding.
81

Appendix B-82
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 82 of 263

The Supreme Court has distinguished the constitutional requirements of the
eligibility decision, i.e., the narrowing function, and the selection decision, i.e., the
individualized assessment of mitigating circumstances, holding the latter requires
only that the sentencing jury be given broad range to consider all relevant mitigating
evidence but leaving to the States wide discretion on how to channel the sentencing
jury’s balancing of mitigating and aggravating factors. See Kansas v. Marsh, 549
U.S. 158,174-75 (2007) (holding, in connection with the selection phase of a capital
sentencing proceeding, the Constitution mandates only that (1) the defendant has a
right to present the sentencing authority with information relevant to the sentencing
decision and (2) the sentencing authority is obligated to consider that information in
determining the appropriate sentence); Tuilaepa, 512 U.S. at 978 (holding, at the
selection stage, States are not confined to submitting to the jury specific
propositional questions but, rather, may direct the jury to consider a wide range of
broadly defined factors, such as “the circumstances of the crime,” “the defendant’s
prior criminal record” and “all facts and circumstances presented in extenuation,
mitigation, and aggravation of punishment”).
At the selection phase of a capital trial, the Supreme Court has left to the States
the decision whether to channel a sentencing jury’s weighing of mitigating evidence
or grant the jury unfettered discretion to consider all relevant mitigating evidence
and weigh that evidence in any manner the jury deems reasonable. See Kansas v.
82

Appendix B-83
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 83 of 263

Marsh, 549 U.S. at 174 (“So long as a state system satisfies these requirements, our
precedents establish that a State enjoys a range of discretion in imposing the death
penalty, including the manner in which aggravating and mitigating circumstances
are to be weighed.”). Likewise, the Supreme Court has not yet imposed a particular
burden of proof requirement with regard to a capital sentencing jury’s consideration
of mitigating evidence when such consideration occurs exclusively within the
selection process:
In sum, “discretion to evaluate and weigh the circumstances relevant to
the particular defendant and the crime he committed” is not
impermissible in the capital sentencing process. “Once the jury finds
that the defendant falls within the legislatively defined category of
persons eligible for the death penalty, . . . the jury then is free to
consider a myriad of factors to determine whether death is the
appropriate punishment.” Indeed, the sentencer may be given
“unbridled discretion in determining whether the death penalty should
be imposed after it has been found that the defendant is a member of
the class made eligible for that penalty.”
Tuilaepa v. California, 512 U.S. at 979-80 (citations omitted).
“[Tjhere is no constitutional requirement of unfettered sentencing discretion
in the jury, and States are free to structure and shape consideration of mitigating
evidence ‘in an effort to achieve a more rational and equitable administration of the
death penalty.’” Johnson v. Texas, 509 U.S. 350, 362 (1993) (quoting Boyde v.
California, 494 U.S. at 377). “We have never held that a specific method for
balancing mitigating and aggravating factors in a capital sentencing proceeding is

83

Appendix B-84
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 84 of 263

constitutionally required.” Kansas v. Marsh, 549 U.S. at 175 {quoting Franklin v.
Lynaugh, 487 U.S. at 179).
The Supreme Court has never categorically mandated jury resolution of all
factors at the selection phase of a capital sentencing process. On the contrary, the
Supreme Court’s jurisprudence addressing the selection aspect of capital sentencing
has focused on requiring consideration of all mitigating evidence, as well as the
circumstances of the capital offense. See Tuilaepa v. California, 512 U.S. at 972
(“What is important at the selection stage is an individualized determination on the
basis of the character of the individual and the circumstances of the crime.” (quoting
Zant v. Stephens, 462 U.S. 862, 879 (1983)).

“The selection decision, on the other

hand, requires individualized sentencing and must be expansive enough to
accommodate relevant mitigating evidence so as to assure an assessment of the
defendant’s culpability.” Tuilaepa v. California, 512 U.S. at 973.
Petitioner received exactly the type of individualized assessment of his
culpability in the context of all the mitigating evidence presented during trial when
(1) the jury considered all relevant mitigating evidence presented during either phase
of trial, (2) the jury made its sentencing recommendation (after weighing only those
aggravating circumstances it determined had been established beyond a reasonable
doubt against all the mitigating circumstances), and (3) the trial judge issued his
findings and conclusions in his sentencing order (which findings were dictated, in
84

Appendix B-85
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 85 of 263

part, by the jury’s unanimous finding beyond a reasonable doubt that the Petitioner’s
capital offense took place in the course of a kidnaping and robbery).83
The jury made the determination at the guilt-innocence phase of trial that
Petitioner’s intentional capital offense took place in the course of the kidnaping and
robbery of Mrs. Liveoak. The jury made these determinations unanimously and
beyond a reasonable doubt. Petitioner admitted during his testimony at the guiltinnocence phase of his trial that he committed the kidnaping and robbery of Mr.

83 At the time of Petitioner’s capital murder trial, Alabama law provided, and still provides,
as follows:
At the sentencing hearing the state shall have the burden of proving beyond a
reasonable doubt the existence of any aggravating circumstances. Provided,
however, any aggravating circumstance which the verdict convicting the defendant
establishes was proven beyond a reasonable doubt at trial shall be considered as
proven beyond a reasonable doubt for purposes of the sentencing hearing.
Ala. Code § 13A-5-45(e).
The state trial court’s sentencing order, containing findings of fact and conclusions of law, appears
at 2 SCR 357-69. Judge Reese found the state had proven beyond a reasonable doubt three
aggravating circumstances, i.e., that (1) as found by the jury, the Petitioner’s capital offense was
committed while Petitioner was engaged in or was an accomplice in the commission or attempted
commission, or during flight after committing or attempting to commit kidnaping and robbery, (2)
Petitioner was previously convicted of a felony involving the use or threat of violence to a person,
i.e., the Portwood kidnaping and robbery, and (3) Petitioner’s capital offense was especially
heinous, atrocious, or cruel compared to other capital offenses. 2 SCR 361-64. Judge Reese found
an absence of any statutory mitigating circumstances but did find a number of non-statutory
mitigating circumstances, including (1) Petitioner’s remorsefulness, (2) the fact Petitioner came
from a poor family and lacked adequate role models who instill morals into him, (3) Petitioner’s
previous good work record, (4) the fact Petitioner was a good husband to his first wife and a good
father to their children, (5) Petitioner’s prior kindnesses and good works toward others, (6) the
love and care shown Petitioner by his family and friends, (7) the fact Petitioner appears to function
well in penal institutions, and (8) the lack of violence shown by Petitioner since his capital offense.
2 SCR 367-68. The trial court did not give much weight to any of the Petitioner’s mitigating
circumstances when weighed against the aggravating circumstances and concluded the jury’s
advisory verdict together with the aggravating circumstances outweighed the mitigating
circumstances and warranted imposition of a sentence of death. 2 SCR 368-69.
85

Appendix B-86
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 86 of 263

Portwood just days before the kidnaping, robbery, and murder of Mrs. Liveoak. The
state trial court was constitutionally obligated to consider the circumstances of
Petitioner’s offense when it made the selection determination at the punishment
phase of Petitioner’s capital murder trial. This necessarily included consideration of
the particularly tortured final hours Mrs. Liveoak spent without food, water, or
ventilation inside the steel trunk of her car, which Petitioner parked in an isolated
location bereft of shade on an asphalt parking lot in the middle of July in central
Alabama. After the jury unanimously made the determinations beyond a reasonable
doubt at the guilt-innocence phase of trial that Petitioner intentionally murdered Mrs.
Liveoak during the course of her kidnaping and robbery, Petitioner received from
both the advisory jury and the trial court the individualized consideration of the
circumstances of his offense and the mitigating aspects of his character and
background at the punishment phase of his capital murder trial. This is all the Eighth
and Sixth Amendments required in connection with the selection decision.
Petitioner’s final claim for relief contained in his original petition, as supplemented
by Petitioner’s Hurst cliaim contained in his amended petition, does not warrant
federal habeas corpus relief under a de novo standard of review.

86

Appendix B-87
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 87 of 263

V. TRIAL COURT RULINGS ON CHALLENGES FOR CAUSE
A. The Claim
In his fifth claim for relief in his original petition, Petitioner complained about
both the state trial court’s granting of the prosecution’s challenge for cause to venire
member 129 and the trial court’s refusal to grant the defense’s challenge for cause
to venire member 64 (Doc. #1, at pp. 14-15). The court rejected Petitioner’s latter
argument on the merits under the AEDPA’s standard of review in the Order issued
January 12, 2012 (Doc. #120, at pp. 23-24, 31-32). This leaves only Petitioner’s
complaint about the state trial court’s granting of the prosecution’s challenge for
cause to venire member 129 for de novo review.
The individual voir dire examination of venire member 129 included the
following exchanges:
THE COURT: This is a capital murder case, meaning you may or may
not be called upon to make a decision about capital punishment. Do
you understand that?
PROSPECTIVE JUROR: Yes, sir.
THE COURT: You may not be called upon because there are other
lesser included offenses for you to consider. However, if you are called
upon to make that decision, I need to ask you these questions, because
it would be too late at the end of the case to ask you these questions.
Capital punishment means life without parole or the death penalty. Do
you have an opinion one way or the other about capital punishment?
PROSPECTIVE JUROR: Yes, sir.
THE COURT: What is that, please, ma’am?
PROSPECTIVE JUROR: I don’t believe in capital punishment.
THE COURT: When you say you don’t believe in capital punishment,
I am assuming you are talking about the death penalty; is that right?
PROSPECTIVE JUROR: Yes, sir.
87

Appendix B-88
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 88 of 263

THE COURT: You don’t believe it serves an appropriate function in
our society?
PROSPECTIVE JUROR: No, sir.
THE COURT: Let me ask you this. Let me tell you this first. In
Alabama here the State of Alabama recognizes certain criminal
offenses whereby the punishment may be the death penalty. Now, I
recognize that you may personally disagree with that. But let me ask
you this. If you are selected as a juror in this case, and you are called
upon to make that decision, do you think you could entertain the
possibility of the death penalty as a sentence in this case?
PROSPECTIVE JUROR: No, sir.
THE COURT: You don’t think if I give you instructions that would
tell you you need to consider and weigh these factors, that you could do
that in deciding whether or not the death penalty could be imposed?
PROSPECTIVE JUROR: No, sir.
THE COURT: What you are telling me then is your personal opinion
is just so great and you just disagree with it so much you just couldn’t
rule and you couldn’t consider that at all?
PROSPECTIVE JUROR: Yes, sir.
THE COURT: State?
MR. MCNEIL: No questions.
THE COURT: Defense?
EXAMINATION BY MR. AGRICOLA:
Q:
Ms. Foy, do you understand that the Alabama Legislature passes
the laws that we are governed by here in Alabama?
A:
Yes, sir.
Q:
And do you understand that the Alabama Legislature has passed
a law that authorizes the death penalty in some cases where the
circumstances are so bad that a judgment has been made by the
Legislature that the death penalty ought to be authorized in those cases?
Do you understand that’s the law?
A:
Yes, sir.
Q:
Now, you have expressed, I think, a pretty clear personal belief
against the death penalty?
A:
Yes, sir.
Q:
Do you understand, Ms. Foy, when you enjoy the benefits of
citizenship in this country and in this state, that it carries with it certain
obligations?
A:
Yes, sir.
Q:
And one of those obligations is jury service?
88

Appendix B-89
Case 2:02-cv-0077.7-WKW-SRW Document 147 Filed 07/14/17 Page 89 of 263

A:
Yes, sir.
Q:
Now do you understand that in a civilized society we have to
follow the law?
A:
Yes, sir.
Q:
And that if we don’t follow the law, all of us will be in serious
danger of our life and limb?
A:
Yes, sir.
Q:
Ms. Foy. What happens in cases like this is that the judge will
explain to you what the law is. And as a juror, you will be required to
take an oath. Do you understand that?
A:
Yes, sir.
Q:
And if you take that oath, you must abide by that oath to follow
the law?
A:
Yes, sir.
Q:
If the Judge instructs you that if you make a finding as a juror
that the defendant is guilty of capital murder, do you understand that
you must follow his instructions and consider two punishments; one
being life without parole, and one being the death penalty.
A:
Yes, sir.
Q:
And he would explain to you what the law is that you must apply
to the evidence?
A:
Yes, sir.
Q:
Now, regardless of your personal feelings can you follow the
law?
A:
Yes, sir.
Can you swear under oath that you will listen to the Judge and
Q:
apply the law to the facts and the evidence that comes in from the
witness stand?
A:
Yes, sir.
Q:
You are not saying here today, are you, that you would
automatically vote against the death penalty if the facts are and if the
jury finds that the facts satisfy the law about the death penalty? You
wouldn’t automatically dismiss the death penalty as an option, would
you?
A:
Yes, sir.
MR. AGRICOLA: That’s all.
EXAMINATION BY MR MCNEIL:
Q:
Ms. Foy, I am a little confused now. On the Judge’s questions
you said that you would not consider the death penalty as a punishment,
that you would not consider it?
89

Appendix B-90
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 90 of 263

A: No.
Q:
Let me ask you these questions then. Maybe I misunderstood
you. Are you against the death penalty?
A: Yes, sir.
Q: You said a strong belief?
A: Yes, sir.
Q:
Is that belief so strong that you feel like it would really get in the
way with your ability to follow the Judge’s instructions?
A: Yes, sir.
Q:
The Judge is not going to tell you how to vote, Ms. Foy. I want
to make sure you understand that. When it comes to the death penalty,
that’s something you have got to do on your own. Do you ever foresee
yourself being able to vote for the death penalty in any case?
A:
No, sir.
MR. MCNEIL: That’s all.
THE COURT: Thank you, ma’am. You can return to the jury assembly
room on the third floor. State?
MR. MCNEIL: Challenge Juror 129. 84
B. The Constitutional Standard
The standard for determining the constitutional fitness of a capital sentencing
juror is set forth in a series of Supreme Court opinions dating back several decades.
In Witherspoon v. Illinois, 391 U.S. 510, 521-23 (1968), the Supreme Court held that
prospective jurors may not be excused from sitting on a capital jury simply because
they voiced general objections to the death penalty or expressed conscientious or
religious scruples against its infliction. Rather, the Supreme Court held as follows:
The most that can be demanded of a venireman in this regard is that he
be willing to consider all of the penalties provided by state law, and that
he not be irrevocably committed, before the trial has begun, to vote

84

6 SCR 453-61 (voir dire examination of venire member 129).
90

Appendix B-91
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 91 of 263

against the penalty regardless of the facts and circumstances that might
emerge in the course of the proceedings.
Witherspoon v. Illinois, 391 U.S. at 522 n.21.
In Adams v. Texas, 448 U.S. 38 (1980), the Supreme Court emphasized the
limitations Witherspoon imposed on the ability of the State to exclude members of
a jury venire from service on a petit capital jury:
a juror may not be challenged for cause based on his views about capital
punishment unless those views would prevent or substantially impair
the performance of his duties as a juror in accordance with his
instructions and his oath. The State may insist, however, that jurors
will consider and decide the facts impartially and conscientiously apply
the law as charged by the court.
Adams v. Texas, 448 U.S. at 45.
In Adams, the Supreme Court further discussed the many practical
consequences of its Witherspoon holding:
If the juror is to obey his oath and follow the law of Texas, he
must be willing not only to accept that in certain circumstances death is
an acceptable penalty but also to answer the statutory questions without
conscious distortion or bias. The State does not violate the Witherspoon
doctrine when it excludes prospective jurors who are unable or
unwilling to address the penalty questions with this degree of
impartiality. * * *
[A] Texas juror’s views about the death penalty might influence
the manner in which he performs his role but without exceeding the
“guided jury discretion” permitted him under Texas law. In such
circumstances, he could not be excluded consistently with
Witherspoon.
The State could, consistently with Witherspoon, use § 12.31(b)
to exclude prospective jurors whose views on capital punishment are
such as to make them unable to follow the law or obey their oaths. But
91

Appendix B-92
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 92 of 263

the use of § 12.31(b) to exclude jurors on broader grounds based on
their opinions concerning the death penalty is impermissible. * * *
[NJeither nervousness, emotional involvement, nor inability to
deny or confirm any effect whatsoever is equivalent to an unwillingness
or an inability on the part of the jurors to follow the court's instructions
and obey their oaths, regardless of their feelings about the death
penalty. * * * Nor in our view would the Constitution permit the
exclusion of jurors from the penalty phase of a Texas murder trial if
they aver that they will honestly find the facts and answer the questions
in the affirmative if they are convinced beyond a reasonable doubt, but
not otherwise, yet who frankly concede that the prospects of the death
penalty may affect what their honest judgment of the facts will be or
what they may deem to be a reasonable doubt, * * * [T]he State may
bar from jury service those whose beliefs about capital punishment
would lead them to ignore the law or violate their oaths.
Adams v. Texas, 448 U.S. at 46-50 (citations omitted).
In Wainwright v. Witt, 469 U.S. 412 (1985), the Supreme Court further
clarified its holdings in Witherspoon and Adams, holding that the proper inquiry
when faced with a venire member who expresses personal, conscientious, or
religious views on capital punishment is “whether the juror's views would prevent
or substantially impair the performance of his duties as a juror in accordance with
his instructions and his oath.” Wainwright v. Witt, 469 U.S. at 424. In Wainwright
v. Witt, the Supreme Court also emphasized that considerable deference is to be
given the trial court's first-hand evaluation of the potential juror's demeanor and that
no particular magical incantation or word choice need necessarily be followed in
interrogating the potential juror in this regard. Id., 469 U.S. at 430-35.

92

Appendix B-93
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 93 of 263 A

More recently, in Uttecht v. Brown, 551 U.S. 1 (2007), the Supreme Court
reviewed its Witherspoon-Witt line of opinions and identified the following
“principles of relevance”:
First, a criminal defendant has the right to an impartial jury drawn from
a venire that has not been tilted in favor of capital punishment by
selective prosecutorial challenges for cause. Second, the State has a
strong interest in having jurors who are able to apply capital punishment
within the framework state law prescribes. Third, to balance these
interests, a juror who is substantially impaired in his or her ability to
impose the death penalty under the state-law framework can be excused
for cause; but if the juror is not substantially impaired, removal for
cause is impermissible. Fourth, in determining whether the removal of
a potential juror would vindicate the State’s interest without violating
the defendant’s right, the trial court makes a judgment based in part on
the demeanor of the juror, a judgment owed deference by reviewing
courts.
Uttecht v. Brown, 551 U.S. at 9 (citations omitted).
The Supreme Court has emphasized the critical inquiry for Witherspoon-Witt
purposes is not whether a state appellate court properly reviewed the propriety of the
exclusion but, rather, whether the trial court correctly applied the appropriate federal
constitutional standard. Uttecht v. Brown, 551 U.S. at 16-17. Finally, the Supreme
Court has admonished reviewing courts to defer to the trial court’s resolution of
questions of bias arising from a potential juror’s conflicting voir dire answers
because the trial court had the opportunity to observe the demeanor of the potential
juror.

Uttecht v. Brown, 551 U.S. at 20 (“where, as here there is a lengthy

questioning of a prospective juror and the trial court has supervised a diligent and
93

Appendix B-94
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 94 of 263

thoughtful voir dire, the trial court has broad discretion.”). “Courts reviewing claims
of Witherspoon-Witt error, however, especially federal courts considering habeas
petitions, owe deference to the trial court, which is in a superior position to determine
the demeanor and qualifications of a potential juror.” Uttecht v. Brown, 551 U.S. at
22.
C. De Novo Review
Having independently reviewed the entirety of the voir dire examination of
venire member 129, the state trial court’s implicit factual finding of disqualifying
bias is not merely objectively reasonable. It is entirely compelling. Venire member
129 was the quintessential vacillating venire member who responded in widely
divergent ways to questions about her ability to consider and vote in favor of a
sentence of death, depending upon the manner in which those questions were
phrased. This venire member did, however, make clear that her personal views on
the propriety of the death penalty would impede her ability to follow the trial judge’s
instructions. Cf Stewart v. Dugger, 877 F.2d 851, 855 (11th Cir. 1989) (affirming
a federal habeas court’s deference to a state trial court’s implicit factual findings in
granting a challenge for cause to a venire member who insisted it would be extremely
difficult for him to vote in favor of a death sentence), cert, denied, 495 U.S. 962
(1990). In such circumstances, it is particularly critical that a federal habeas court
defer to the implicit credibility findings made by the state trial judge who had the
94

Appendix B-95
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 95 of 263

opportunity to examine firsthand the vacillating venire member’s demeanor during
voir dire examination. Uttecht v. Brown, 551 U.S. at 22; Sumner v. Mata, 455 U.S.
591, 597 (1982). Petitioner’s complaint about the state trial court granting the
prosecution’s challenge for cause to venire member 129 does not warrant federal
habeas relief under a de novo standard of review.
VI. ERRONEOUS ADMISSION OF PETITIONER’S CONFESSION
A. The Claim
In his eighth claim in his original petition, Petitioner argues the state trial court
erred in admitting into evidence the signed copy of Petitioner’s statement to police
given shortly after his arrest (Doc. #1, at pp. 63-65).
During a pretrial hearing held October 11, 1995, the state trial court heard
evidence on Petitioner’s motion to suppress his videotaped post-arrest statement to
police.85 The only two witnesses who testified at the hearing were a Montgomery

8S The verbatim transcription from the pretrial hearing on Petitioner’s motion to suppress
appears at 4 SCR Tab 1, at pp. 1-70.
95

Appendix B-96
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 96 of 263

Police homicide detective and the Petitioner.86 In an Order issued October 11,1995,
the state trial court denied Petitioner’s motion to suppress.87
As explained above, the state trial court admitted without objection
Petitioner’s post-arrest videotaped statement to police (in question and answer
format); the jury saw and heard the videotaped recording played in open court during
the guilt-innocence phase of Petitioner’s capital murder trial.88 The trial court also

More specifically, at the pretrial hearing, detective David R. Hill testified that (1) Hazel
Liveoak’s body was found at 21:13 hours on July 13, 1994, (2) Dennis Bowen furnished
information which allowed police to identify Petitioner and Carolyn Yaw as suspects in Mrs.
Liveoak’s murder, (3) Petitioner was arrested and brought to police headquarters, where Petitioner
was given his Miranda warnings, (4) Petitioner signed the form waiving his rights, (5) no promises
or threats or coercion were used to induce Petitioner to make his statement, (6) a videotaped
statement was taken from Petitioner, (7) several weeks later, Petitioner contacted Detective Hill
and requested an opportunity to examine his statement, (8) Detective Hill arranged for Petitioner
to be transported to the Montgomery Police Department on September 1, 1994, where Petitioner
reviewed a written transcription of his statement and signed same, (9) at that time, Detective Hill
was unaware counsel had been appointed for Petitioner and Petitioner informed him that he had
not yet been appointed counsel [both men were apparently in error on that point], (10) Petitioner
appeared entirely sober throughout his post-arrest interrogation, (11) initially, Petitioner denied
committing the offense, (12) Petitioner appeared lucid and did not appear intoxicated during his
post-arrest interrogation, and (13) Petitioner never requested an attorney during his post-arrest
interrogation. 4 SCR at R-3-R-42, R-66-R-67 (testimony of David R. Hill).
Petitioner testified during the same hearing and stated (1) he was smoking crack the day of
his arrest, (2) he was addicted to crack cocaine, (3) he was high at the time of his arrest, (4) he was
high at the time of his post-arrest interrogation, (5) he did not recall signing the waiver of rights
form admitted into evidence during the hearing, (6) he did not read any of the papers he signed
that day, (7) he was never told he had been charged with capital murder, (8) he was never told he
was facing the death penalty, (9) he was not given his Miranda warnings on either July 14 or
September 1, 1994, (10) he was in his “own world” during his post-arrest interrogation, and (11)
he was promised a four-year sentence in exchange for giving police his post-arrest statement. 4
SCR 42-66 (testimony of Donald Dallas).
86

87 2 SCR 356.
88

7 SCR 647-48.
96

Appendix B-97
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 97 of 263

admitted into evidence without objection a transcription of the audio portion of the
videotaped recording.89 The copy of the verbatim transcription of the audio portion
of the videotape recording admitted into evidence at trial as State Exhibit 41 included
Petitioner’s undated and unwitnessed signature at the bottom of each page.90
B. The Constitutional Standard
A federal court may grant habeas relief based on an erroneous state court
evidentiary ruling only if the ruling violates a specific federal constitutional right or
is so egregious it renders the petitioner’s trial fundamentally unfair. Payne v.
Tennessee, 501 U.S. 808, 825 (1991); Darden v. Wainwright, All U.S. 168, 179-83
(1986). The test for determining whether the admission of evidence warrants federal
habeas corpus relief is whether the allegedly erroneous admission of evidence either
(1) violated a specific federal constitutional right or (2) rendered the defendant’s trial
so fundamentally unfair that the conviction was obtained in violation of the Due
Process Clause of the Fourteenth Amendment. Herring v. Secretary, Dept, of Corr.,
397 F.3d 1338, 1335 n.8 (11th Cir.), cert, denied, 546 U.S. 928 (2005); Thigpen v.
Thigpen, 926 F.2d at 1012.

7 SCR 648.
90 3 SCR 457-69.
97

Appendix B-98
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 98 of 263

Federal habeas corpus relief will not issue to correct errors of state
constitutional, statutory, or procedural law, unless a federal issue is also presented.
See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (holding complaints regarding
the admission of evidence under California law did not present grounds for federal
habeas relief absent a showing that admission of the evidence in question violated
due process); Lewis v. Jeffers, 497 U.S. 764, 780 (1990) (recognizing that federal
habeas relief will not issue for errors of state law); Pulley v. Harris, 465 U.S. 37, 41
(1984) (holding a federal court may not issue the writ on the basis of a perceived
error of state law). In the course of reviewing state criminal convictions in federal
habeas corpus proceedings, a federal court does not sit as a super-state appellate
court. Estelle v. McGuire, 502 U.S. at 67-68; Lewis v. Jeffers, 497 U.S. at 780;
Pulley v. Harris, 465 U.S. at 41; Thigpen v. Thigpen, 926 F.2d 1003,1012 (11th Cir.
1991).
When a federal district court reviews a state prisoner’s habeas petition
pursuant to 28 U.S.C. § 2254 it must decide whether the petitioner is
“in custody in violation of the Constitution or laws or treaties of the
United States.” The court does not review a judgment, but the
lawfulness of the petitioner's custody simpliciter.
Coleman v. Thompson, 501 U.S. 722, 730 (1991).
C. De Novo Review
Petitioner argues the admission of his signed confession violated his Sixth
Amendment right to counsel because he signed the verbatim transcription of his
98

Appendix B-99
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 99 of 263

videotaped confession after the state trial court appointed counsel to represent him.
This argument is meritless. The document admitted without objection into evidence
during Petitioner’s trial as State Exhibit 41 was a transcription of Petitioner’s post­
arrest interrogation conducted after Miranda warnings had been administered and
Petitioner signed a waiver of his rights. The state trial court’s Order overruling
Petitioner’s motion to suppress implicitly rejected as incredible Petitioner’s
testimony at the pretrial hearing that he was so intoxicated at the time of his post­
arrest interrogation that he was incapable of understanding his constitutional rights
and effectively waiving those rights. Petitioner does not allege any facts or identify
any legal authority challenging the admission at trial of the videotaped recording of
Petitioner’s post-arrest interrogation. Nor does Petitioner allege any facts or identify
any legal authority showing the state trial court erred in overruling Petitioner’s
motion to suppress his videotaped post-arrest statement to police. Under such
circumstances, the fact the state trial court chose to admit a copy of the transcription
of the audio portion of the videotaped recording that was played without objection
for Petitioner’s jury and which bore Petitioner’s signature did not violate Petitioner’s
Sixth Amendment right to counsel.
An accused is denied the basic protections of the Sixth Amendment when
there is used against him at his trial evidence of his own incriminating words which
government agents deliberately elicited from him after he had been indicted and in
99

Appendix B-100
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 100 of 263

the absence of his counsel. Fellers v. United States, 540 U.S. 519, 523 (2004);
Massiah v. United States, 377 U.S. 201, 206 (1964); United States v. US
Infrastructure, Inc., 576 F.3d 1195, 1216 (11th Cir. 2009), cert, denied, 559 U.S.
1009 (2010). At Petitioner’s request, several weeks after Petitioner gave his actual
statement to police, the State permitted Petitioner to review the verbatim
transcription of his videotaped interrogation and sign the transcription of his earlier
statement. The state trial court did not admit into evidence any statement made by
Petitioner on September 1, 1994, which law enforcement authorities “deliberately
elicited’ from Petitioner on that date and which differed in content from the
videotaped statement Petitioner gave shortly after his July 14, 1994 arrest.
Petitioner’s Sixth Amendment rights were not violated by the admission, without
objection, of his signed version of the transcription of his prior videotaped statement.
Likewise, the admission of State Exhibit 41 did not render Petitioner’s trial
fundamentally unfair. The jury saw and heard Petitioner’s videotaped statement
made just hours after his arrest. There is no argument currently before this court
showing there was any error in connection with the admission of Petitioner’s
videotaped statement. The presence of Petitioner’s unwitnessed, undated signature
on the bottom of the transcribed pages of the exhibit admitted without objection at
trial as State Exhibit 41 did not render Petitioner’s trial fundamentally unfair. If
Petitioner had made timely objection to the admission of the signed version of the
100

Appendix B-101
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 101 of 263

transcript, the state trial court could easily have substituted a redacted version of the
same transcription, i.e., one not bearing Petitioner’s signature.

The erroneous

admission of evidence renders a trial fundamentally unfair only when the
erroneously admitted evidence was material, i.e., the evidence was a critical, crucial,
highly significant factor to the outcome of the trial. Beater v. Thomas, 45 F.3d 1501,
1509 (11th Cir.), cert, denied, 516 U.S. 956 (1995); Thigpen v. Thigpen, 926 F.2d at
1012; Dobbs v. Kemp, 790 F.2d 1499, 1504 (11th Cir. 1986), modified on reh, 809
F.2d 750 (11th Cir.), cert, denied, 481 U.S. 1059 (1987). Given the admission
without objection at trial of Petitioner’s videotaped statement to police, the
admission of the verbatim transcription of the videotaped recording (with or without
Petitioner’s signature on the transcription) was not a crucial, critical, or highly
significant factor in the outcome of either phase of Petitioner’s capital murder trial.
Finally, any error regarding the admission of State Exhibit 41 was harmless
under the Supreme Court’s standard for harmless error in federal habeas corpus
proceedings. See Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (holding the test
for harmless error in a federal habeas corpus action brought by a state prisoner is
“whether the error had substantial and injurious effect or influence in determining
the jury’s verdict”). Admission of the undated, unwitnessed, but signed verbatim
transcription of the audio portion of Petitioner’s videotaped statement did not have
a substantial or injurious effect or influence on the jury’s verdict at either phase of
101

Appendix B-102
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 102 of 263

Petitioner’s capital murder trial. Petitioner’s eighth claim does not warrant federal
habeas relief under a de novo standard of review.
VII. ERRONEOUS ADMISSION OF EXTRANEOUS OFFENSES
A. The Claim
In his twelfth claim in his original petition, Petitioner argues the state trial
court erred in admitting the testimony of Wesley Orville Portwood concerning
Petitioner’s kidnaping and robbery of him just days before Petitioner’s kidnaping,
robbery, and murder of Mrs. Liveoak (Doc. # 1, at pp. 68-70). Petitioner contends
it was error for the state trial court to admit Mr. Portwood’s testimony after the court
admitted Petitioner’s videotaped statement - because in that recording, Petitioner
admitted the essential facts concerning his robbery and kidnapping of Mr.
Portwood.91
At trial, Mr. Portwod testified that (1) after striking him with a knife,
Petitioner forced his way into Mr. Portwood’s car and drove him to an isolated
location near Millbrook where Petitioner directed him to get out of the car and
threatened to place Mr. Portwood in the trunk of his vehicle, (2) Mr. Portwood
protested that he would “smother to death in there,” (3) Petitioner then directed him

91 In his videotaped post-arrest statement to police, Petitioner stated that he abducted an
“old man” from a parking lot in Prattville, drove him to a wooded location near Lake Jackson in
Millbrook, “laid him face down, and drove his car probably a quarter of a mile from him and got
out and left.” 3 SCR 465-67.
102

Appendix B-103
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 103 of 263

to lay down in the woods, (4) Petitioner then drove off, and (5) Mr. Portwood rose
and walked about a mile down the road where he found his abandoned car but not
the keys.92
B. The Constitutional Standard
The same legal principles discussed above in Section VLB. in connection with
Petitioner’s complaint about the admission of his signed statement apply to this
claim. The Eleventh Circuit has held that evidence of an extraneous offense is
admissible under Alabama law if it shows something more than the defendant’s bad
character and the likelihood he acted in conformity therewith by committing the
charged crime. Thigpen v. Thigpen, 926 F.2d at 1014. The Eleventh Circuit has also
declared Alabama law permits the admission of extraneous offense evidence when
such evidence is relevant to (1) show either (a) the defendant’s physical capacity,
skill, or means to commit the charged crime, (b) the res gestae of the crime, (c)
identity of person or crime, (d) scienter or guilty knowledge, (e) intent, (f) plan,
design, scheme, or system, (g) motive, (h) malice, or (i) aspects of various particular
crimes, (2) rebut special defenses, or (3) an aspect of the charged crime which is a
“real and open issue” in the case. Id.. 926 F.2d at 1014-15.

92 7 SCR 703-14 (testimony of Wesley Orville Portwood).
103

Appendix B-104
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 104 of 263

C. De Novo Review
The admission of Mr. Portwood’s trial testimony did not render Petitioner’s
capital murder trial fundamentally unfair. Admission of Mr. Portwood’s testimony
did not show merely Petitioner’s bad character.

Mr. Portwood’s testimony

supported the inference that Petitioner’s actions in placing the elderly Mrs. Liveoak
inside her car trunk only days later on the afternoon of July 12, 1994, and keeping
her there were intended to result in her death.

Only days before Petitioner’s

abduction and robbery of Mrs. Liveoak, the elderly Mr. Portwood informed
Petitioner that he would likely “smother to death” if forced to get inside his own
vehicle’s trunk.93 Petitioner’s intent to kill Mrs. Liveoak was the only genuinely
“real and open issue” before the jury at the guilt-innocence phase of Petitioner’s
capital murder trial.94

Cf Thigpen v. Thigpen, 926 F.2d at 1015-19 (holding

93 7 SCR at 708 (testimony of Wesley Orville Portwood).
94 During Petitioner’s state habeas corpus proceeding, all three of Petitioner’s trial counsel
testified that the defense’s strategy at the guilt-innocence phase of trial was to attempt to convince
the jury that Petitioner was so mentally and emotionally disturbed and intoxicated by his addiction
to crack cocaine and his binging on that drug during the time frame that included Mrs. Liveoak’s
abduction and robbery that Petitioner could not and did not form the intent to kill her. 12 SCR
Tab 13, at p. 37 (testimony of Jeffery C. Duffey); 12 SCR Tab 13, at pp. 75-76, 86-87, 98, 113
(testimony of Susan James); 13 SCR Tab 14, at pp. 159, 165, 169, 171, 181-82, 189, 228-29
(deposition testimony of Algert Agricola). Attorney Agricola, in particular, emphasized that, in
light of Petitioner’s confession to police to all elements of the offense of capital murder except
intent and Petitioner’s admissions during their pretrial conferences, the defense was left with little
to argue at the guilt-innocence phase of trial other than that Petitioner was so intoxicated on crack
that he could not form the intent to commit murder. 13 SCR Tab 14, at pp. 159, 165, 169, 171,
181-82, 228-29 (deposition testimony of Algert Agricola). Attorney Agricola testified the
defense’s punishment phase strategy was similar, i.e.„ to show Petitioner was intoxicated at the
time of his capital offense and operating under the domination of Carolyn Yaw. Id., at p. 189.
104

Appendix B-105
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 105 of 263

extraneous offense evidence admissible where relevant to show the defendant’s and
a co-defendant’s relative motives). Furthermore, in light of the admission without
objection of Petitioner’s videotaped statement, in which he admitted to the essential
elements of his abduction and robbery of Mr. Portwood, admission of Mr.
Portwood’s trial testimony was harmless error, at worst. See Brecht v. Abrahamson,
507 U.S. at 637 (holding the test for harmless error in a federal habeas corpus action
brought by a state prisoner is “whether the error had substantial and injurious effect
or influence in determining the jury’s verdict”). Petitioner’s twelfth claim does not
warrant federal habeas corpus relief under a de novo standard of review.
VIII. ERRONEOUS ADMISSION OF PHOTOGRAPHS AND VIDEO
A. The Claim
In his thirteenth claim in his original petition, Petitioner argues the state trial
court erred in admitting the videotape showing Mrs. Liveoak’s body inside the trunk
of her car, as well as photographs showing the same (Doc. # 1, at pp. 71-73).
Petitioner also complains about the admission of photographs showing Mrs.
Liveoak’s personal items, i.e., an earring, a day planner, and groceries found inside
the passenger compartment and the trunk of her vehicle.
The state trial court admitted without objection numerous photographs of the
interior of Mrs. Liveoak’s vehicle, the interior of her trunk, and Mrs. Liveoak’s body

105

Appendix B-106
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 106 of 263

as it appeared upon its discovery in the trunk of her car.95 The trial court also
admitted without objection a videotape recording of the same scenes.96 Finally, the
state trial court admitted without objection several photographs taken during the
course of Mrs. Liveoak’s autopsy which showed bruises and scratches on her hands,
right knee, and upper right arm.97
B. The Constitutional Standard
The same legal principles discussed in Section VI.B. apply to this claim.
C. De Novo Review
Petitioner argues the photographs and video in question are inherently
prejudicial:
Both the pictures and the video also depicted close up shots of
items completely irrelevant to the issue of guilt, engineered solely to
bring the victim to life for the jury, to make the jurors imagine the life
she would have led had she lived. The pictures showed her eyeglasses,
emphasizing for the jury her age and evoking an image of frailty; her

95 6 SCR at pp. R-590-91. The photographs of Mrs. Liveoak’s body, marked as State
Exhibits 9-15, showed Mrs. Liveoak’s body lying on her back with her legs bent at the knees and
a portion of her stomach exposed. Her shoes had been removed but, otherwise, her body was fully
clothed. These photographs show bruising on the back of her right hand and right knee and
scratches on both her hands but do not contain any graphic images of open wounds or viscera.
The photographs ofMrs. Liveoak’s vehicle and its contents, i.e., State Exhibits 1-8, appear
at 2 SCR at pp. 389-400 & 3 SCR at pp. 401-04. There are no graphic images in any of these
photographs. There was nothing even remotely inflammatory about any of the photographs
admitted during Petitioner’s trial.
96 6 SCR at pp. R-590-91.
97 7 SCR at pp. R-619-23. The autopsy photographs, admitted as State Exhibits 29-33,
appear at 3 SCR at pp. 438-47. The autopsy photographs likewise do not contain any graphic
images or depictions of wounds or viscera.
106

Appendix B-107
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 107 of 263

earring, which had come out or was taken out of her ear, implying some
sort of struggle despite the testimony to the contrary; her daily planner,
emphasizing for the jury that she had a life, she had plans on which she
would now not be able to follow through, a package of brownie mix,
meant to evoke her son’s testimony that she was going to bake for a
sick friend that day; and finally, some yam, creating the image of Mrs.
Liveoak as a kindly grandmother.
(Doc. # 1, at pp. 71 -72).
Contrary to Petitioner’s assertions, however, there was nothing the least bit
graphic, gmesome, lurid, or inflammatory about any of the photographic evidence
admitted during Petitioner’s trial. The only injuries apparent on Mrs. Liveoak’s
body in the photographs showing her lying in her automobile trunk or at autopsy
showed bruising and scratches to her hands. None of the photographs admitted
showed Mrs. Liveoak’s body nude, any exposed viscera, or the interior of any
portion of her body. The photographs were necessary to demonstrate to the jury the
extent of the victim’s injuries and admissible under state evidentiary standards. See,
e.g., Smith v. State,

So. 3d

, 2017 WL 1033665, *20 (Ala. Crim. App.

2017) (holding photographs which were not unduly gmesome or unfairly prejudicial
admissible to distinguish between victim’s injuries and postmortem animal and
insect activity); Gobble v. State, 104 So. 3d 920, 963-64 (Ala. Crim. App. 2010)
(“Autopsy photographs depicting the character and location of the wounds on the
victim’s body are admissible even if they are gmesome, cumulative, or relate to an
undisputed matter.”), cert, denied (Ala. Sept. 14,2012), cert, denied, 133 S. Ct. 1808
(2013). The state trial court’s admission without objection of all the photographic
107

Appendix B-108
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 108 of 263

evidence and videotape recordings showing the location and physical appearance of
Mrs. Liveoak’s body, her injuries, her vehicle, and her other possessions did not
render Petitioner’s capital murder trial fundamentally unfair.
Petitioner did not object to the admission of any of the photographic or
videotaped evidence in question. The photographs were admissible and relevant to
show (1) the isolated location in which her vehicle was abandoned by Petitioner, (2)
the condition of her lifeless body when discovered (which contradicted some of the
more self-serving aspects of Petitioner’s post-arrest statement to police, i.e., the
medical examiner testified the bruising to her upper right arm was consistent with
someone having grabbed her right arm with considerable force, refuting Petitioner’s
assertion that he never employed any force against Mrs. Liveoak), and (3) that Mrs.
Liveoak had been the victim of a robbery and kidnaping in a manner consistent with
Petitioner’s statement that he abducted her after she exited a grocery store and took
her credit cards, bank card, and wallet (i.e., the items found inside her vehicle and
trunk did not include her wallet, bank card, or credit cards but did include a grocery
receipt and perishable groceries).
Contrary to the arguments underlying Petitioner’s thirteenth claim, Petitioner
was not entitled to have the trial court sua sponte exclude any and all visual evidence
which either tended to show Mrs. Liveoak had once been alive or portrayed her in a
sympathetic light. Even the admission of graphic photographic evidence rarely
108

Appendix B-109
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 109 of 263

renders a proceeding fundamentally unfair. Baxter v. Thomas, 45 F.3d at 1509;
Jacobs v. Singletary, 952 F.2d 1282, 1296 (11th Cir. 1992). Petitioner confessed to
abducting and robbing Mrs. Liveoak and locking her in the trunk of her car, which
he admitted he abandoned in an isolated unshaded location on an asphalt parking lot
in the middle of July in central Alabama. The admission of photographs and video
showing the condition in which her lifeless body was discovered the day after
Petitioner abandoned Mrs. Liveoak did not render Petitioner’s trial fundamentally
unfair. The photographic and videotaped evidence in question was not a crucial,
critical, or highly significant factor to the jury’s verdict at either phase of Petitioner’s
capital murder trial. Petitioner’s thirteenth claim does not warrant federal habeas
corpus relief under a de novo standard of review.
IX. VICTIM IMPACT EVIDENCE
A. The Claim(s)
In his tenth claim in his original petition, Petitioner argues the state trial judge
improperly considered a letter from Mrs. Liveoak’s daughter in which she pleaded
with the court to impose a sentence of death (Doc. #1, at p. 66). Petitioner’s brief
on the merits furnished no argument or legal authorities in support of this claim (Doc.
# 88). Despite that fact, the parties state in their Joint Report that there are two
claims before the court addressing victim impact issues, i.e., Petitioner’s complaint
about the alleged consideration of Mrs. Liveoak’s daughter’s letter and a complaint
109

Appendix B-110
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 110 of 263

about the admission at the punishment phase of trial of the testimony of Mrs.
Liveoak’s son, Larry Liveoak (Doc. # 56, at pp. 47-50).
B. State Court Disposition
In his appellant’s brief, Petitioner argued the state trial court (1) erred in
admitting victim impact testimony from Mrs. Liveoak’s son and (2) improperly
considered a letter written by Mrs. Liveoak’s daughter asking the trial court to
impose a sentence of death. 98 On direct appeal, the Alabama Court of Criminal
Appeals held (1) Larry Liveoak’s victim impact testimony at the punishment phase
of Petitioner’s capital murder trial was relevant to the jury’s decision whether to
recommend that the death penalty be imposed, and (2) there was no indication the
trial court considered the letter written by Mrs. Liveoak’s daughter, which was
received by the trial court approximately two weeks after the court entered its
sentencing order. Dallas v. State, 711 So. 2d at 1110. Petitioner failed to present
any claims regarding victim impact evidence in his pro se state habeas corpus
petition (i.e., his Rule 32 petition).
C. AEDPA Standard of Review
Because petitioner filed his federal habeas corpus action after the effective
date of the Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”),

10 SCR Tab 2, at pp. 48-51.
110

Appendix B-111
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 111 of 263

this Court’s review of those petitioner’s claims for federal habeas corpus relief which
were disposed of on the merits by the state courts is governed by the AEDPA. Penry
v. Johnson, 532 U.S. 782, 792 (2001). Under the AEDPA standard of review, this
Court cannot grant petitioner federal habeas corpus relief in this cause in connection
with any claim that was adjudicated on the merits in state court proceedings, unless
the adjudication of that claim either: (1) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or (2) resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding. Brown v. Payton, 544 U.S. 133,141 (2005);
Williams v. Taylor, 529 U.S. 362, 404-05 (2000); 28 U.S.C. § 2254(d).
The Supreme Court has concluded the “contrary to” and “unreasonable
application” clauses of 28 U.S.C. § 2254(d) (1) have independent meanings. Bell v.
Cone, 535 U.S. 685, 694 (2002). Under the “contrary to” clause, a federal habeas
court may grant relief if (1) the state court arrives at a conclusion opposite to that
reached by the Supreme Court on a question of law or (2) the state court decides a
case differently than the Supreme Court on a set of materially indistinguishable facts.
Brown v. Payton, 544 U.S. at 141; Mitchell v. Esparza, 540 U.S. 12, 15-16 (2003)
(“A state court’s decision is ‘contrary to’ our clearly established law if it ‘applies a
rule that contradicts the governing law set forth in our cases’ or it ‘confronts a set of
111

Appendix B-112
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 112 of 263

facts that are materially indistinguishable from a decision of this Court and
nevertheless arrives at a result different from our precedent.’”). A state court’s
failure to cite governing Supreme Court authority does not, perse, establish the state
court’s decision is “contrary to” clearly established federal law: “the state court need
not even be aware of our precedents, ‘so long as neither the reasoning nor the result
of the state-court decisions contradicts them.’” Mitchell v. Esparza, 540 U.S. at 16.
Under the “unreasonable application” clause, a federal habeas court may grant
relief if the state court identifies the correct governing legal principle from the
Supreme Court’s decisions but unreasonably applies that principle to the facts of the
petitioner’s case. Brown v. Payton, 544 U.S. at 141; Wiggins v. Smith, 539 U.S. 510,
520 (2003). A federal court making the “unreasonable application” inquiry should
ask whether the state court’s application of clearly established federal law was
“objectively unreasonable.” McDaniel v. Brown, 558 U.S. 120, 132-33 (2010) (“A
federal habeas court can only set aside a state-court decision as ‘an unreasonable
application of... clearly established Federal law,’ § 2254(d) (1), if the state court’s
application of that law is ‘objectively unreasonable.’”); Wiggins v. Smith, 539 U.S.
at 520-21. The focus of this inquiry is on whether the state court’s application of
clearly established federal law was objectively unreasonable; an “unreasonable”
application is different from a merely “incorrect” one. Schriro v. Landrigan, 550
U.S. 465,473 (2007) (“The question under the AEDPA is not whether a federal court
112

Appendix B-113
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 113 of 263

believes the state court’s determination was incorrect but whether that determination
was unreasonable - a substantially higher threshold.”); Wiggins v. Smith, 539 U.S. at
520; Price v. Vincent, 538 U.S. 634, 641 (2003) (“it is the habeas applicant’s burden
to show that the state court applied that case to the facts of his case in an objectively
unreasonable manner”).
As the Supreme Court has explained:
Under the Antiterrorism and Effective Death Penalty Act, a state
prisoner seeking a writ of habeas corpus from a federal court “must
show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility
for fairminded disagreement.”
Bobby v. Dixon, 132 S. Ct. 26, 27 (2011) (quoting Harrington v. Richter, 562 U.S.
86, 103 (2011)).
Legal principles are “clearly established” for purposes of AEDPA review
when the holdings, as opposed to the dicta, of Supreme Court decisions as of the
time of the relevant state-court decision establish those principles. Yarborough v.
Alvarado, 541 U.S. 652, 660-61 (2004) (“We look for ‘the governing legal principle
or principles set forth by the Supreme Court at the time the state court renders its
decision.’”); Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). Under the AEDPA,
what constitutes “clearly established federal law” is determined through review of
the decisions of the United States Supreme Court, not the precedent of the federal
Circuit Courts. See Lopez v. Smith, 135 S. Ct. 1, 2 (2014) (holding the AEDPA
113

Appendix B-114
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 114 of 263

prohibits the federal courts of appeals from relying on their own precedent to
conclude a particular constitutional principle is “clearly established”).
The AEDPA also significantly restricts the scope of federal habeas review of
state court fact findings. 28 U.S.C. § 2254(d)(2) provides federal habeas relief may
not be granted on any claim that was adjudicated on the merits in the state courts
unless the state court’s adjudication of the claim resulted in a decision based on an
unreasonable determination of the facts in light of the evidence presented in the state
court proceeding. Wood v. Allen, 558 U.S. 290, 301 (2010) (“[A] state-court factual
determination is not unreasonable merely because the federal habeas court would
have reached a different conclusion in the first instance.”); Williams v. Taylor, 529
U.S. at 410 (“[A]n unreasonable application of federal law is different from an
incorrect application of federal law.”). Even if reasonable minds reviewing the
record might disagree about the factual finding in question (or the implicit credibility
determination underlying the factual finding), on habeas review, this does not suffice
to supersede the trial court’s factual determination. Wood v. Allen, 558 U.S. at 301;
Rice v. Collins, 546 U.S. 333, 341-42 (2006).
In addition, § 2254(e)(1) provides a petitioner challenging state court factual
findings must establish by clear and convincing evidence that the state court’s
findings were erroneous. Schriro v. Landrigan, 550 U.S. at 473-74 (“AEDPA also
requires federal habeas courts to presume the correctness of state courts’ factual
114

Appendix B-115
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 115 of 263

findings unless applicants rebut this presumption with ‘clear and convincing
evidence.’”); Rice v. Collins, 546 U.S. at 338-39 (“State-court factual findings,
moreover, are presumed correct; the petitioner has the burden of rebutting the
presumption by ‘clear and convincing evidence.’”); Miller-El v. Dretke, 545 U.S.
231, 240 (2005) (“[W]e presume the Texas court’s factual findings to be sound
unless Miller-El rebuts the ‘presumption of correctness by clear and convincing
evidence.’”); 28 U.S.C. §2254(e)(l). It remains unclear at this juncture whether §
2254(e)(1) applies in every case presenting a challenge to a state court’s factual
findings under § 2254(d)(2). See Wood v. Allen, 558 U.S. at 300 (choosing not to
resolve the issue of § 2254(e)(l)’s possible application to all challenges to a state
court’s factual findings); Rice v. Collins, 546 U.S. at 339 (likewise refusing to
resolve the Circuit split regarding the application of § 2254(e)(1)).
However, the deference to which state-court factual findings are entitled under
the AEDPA does not imply an abandonment or abdication of federal judicial review.
See Miller-El v. Dretke, 545 U.S. at 240 (the standard is “demanding but not
insatiable”); Miller-El v. Cockrell, 537 U.S. 322, 340 (2003) (“Even in the context
of federal habeas, deference does not imply abandonment or abdication of judicial
review. Deference does not by definition preclude relief.”).

115

Appendix B-116
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 116 of 263

D. Clearly Established Federal Law
In Payne v. Tennessee, 501 U.S. 808, 825-26 (1991), the Supreme Court held
that (1) the admission of evidence of the impact of a capital murder on the victim
and his or her survivors and (2) prosecutorial jury argument regarding same, are
both constitutionally permissible at the punishment phase of a capital murder trial.
E. AEDPA Review
The Alabama Court of Criminal Appeals’ rejections on the merits during
Petitioner’s direct appeal of Petitioner’s complaints about (1) the admission of Larry
Liveoak’s victim impact testimony at the punishment phase of petitioner’s capital
murder trial and (2) the state trial court’s alleged consideration of the letter written
by Mrs. Liveoak’s daughter were neither contrary to, nor involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States, nor based upon an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.
Larry Liveoak’s testimony at the punishment phase of Petitioner’s capital
murder trial consisted of statements focused on the impact of Mrs. Liveoak’s death
upon himself and his family. As such, the state appellate court reasonably concluded
Larry Liveoak’s punishment phase trial testimony was constitutionally permissible
under the Supreme Court’s holding in Payne v. Tennessee.

116

Appendix B-117
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 117 of 263

The state appellate court found, as a matter of fact, that the state trial court did
not receive the objectionable letter from Mrs. Liveoak’s daughter until
approximately two weeks after it issued its sentencing order. Petitioner has alleged
no specific facts, much less furnished clear and convincing evidence, showing the
state trial court received the letter from Mrs. Liveoak’s daughter prior to the date it
issued its sentencing order. Under such circumstances, this court must defer to the
state appellate court’s factual finding. Schriro v. Landrigan, 550 U.S. at 473-74;
Rice v. Collins, 546 U.S. at 338-39. Petitioner has failed to rebut the correctness of
the state appellate court’s factual finding. Petitioner’s tenth claim does not warrant
federal habeas corpus relief when viewed under the deferential standard of the
AEDPA.
F. De Novo Review
Additionally, this court has conducted an independent review of Petitioner’s
complaints about the admission of Larry Liveoak’s punishment phase trial testimony
and the state trial court’s alleged consideration of the letter written by Mrs. Liveoak’s
daughter. It concludes that neither complaint warrants federal habeas corpus relief
relief under a de novo standard of review. Mr. Liveoak’s punishment phase trial
testimony was admissible under the standard announced in Payne. The admission
of his punishment phase testimony did not render Petitioner’s trial fundamentally
unfair. There is no fact-specific allegation before the court, much less any clear and
117

Appendix B-118
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 118 of 263

convincing evidence, showing the state trial court ever received the letter from Mrs.
Liveoak’s daughter prior to the date it issued its sentencing order.
X. ALLEGEDLY FALSE TESTIMONY BY VENIRE MEMBERS
A. The Claim
In his fifteenth claim in his original petition, Petitioner argues he was denied
his right to exercise his peremptory challenges in an intelligent manner when
“several jurors failed to disclose crucial evidence despite direct and unambiguous
questioning by the court” (Doc. # 1, atpp. 74-76)."
Petitioner included a similar set of complaints in his pro se state habeas corpus
petition (i.e., his Rule 32 petition). 100

The state habeas trial court summarily

dismissed this claim.101 Petitioner’s brief in support of his federal habeas corpus

99 More specifically, Petitioner alleges that (1) a venire member identified only as “A.B.”
“failed to reveal during voir dire examination that his brother had a severe crack addiction” and
(2) another venire member identified only as “J.C.” “failed to reveal that he had testified as a
witness in more than one civil trial prior to being called for jury service” (Doc. # 1, at p. 75).
12 SCR (Revised) Tab 13-A, at pp. 99-102. Petitioner cited to only state law authorities
in support of his analogous claim in his state habeas corpus proceeding.
100

The state trial court’s Order issued September 25, 2001, states that the trial court
dismissed Petitioner’s claim identified in Petitioner’s pro se state habeas corpus petition as claims
“II.B. through II.K.” because those claims were procedurally defaulted from review under Rule
32. 13 SCR (Revised) Tab 14-A, at p. 45. Petitioner’s complaint about allegedly false testimony
by jury venire members was labeled claim “K” in his pro se state habeas corpus petition. 12 SCR
(Revised) Tab 13-A, at pp. 99-102. The state trial court’s Order issued October 25, 1999,
summarily dismissed several of Petitioner’s pro se claims without prejudice based on inadequate
pleading and explained that Petitioner’s assertions of jury misconduct failed to allege any newly
discovered evidence sufficient to satisfy Rule 32. 15 SCR Tab 35, at p. 13. There is no evidence
before this court establishing that Petitioner ever amended his pro se Rule 32 petition or otherwise
101

118

Appendix B-119
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 119 of 263

petition repeats the same conclusory assertions about the two unidentified venire
members included in Petitioner’s pro se state habeas corpus petition and Petitioner’s
original federal habeas corpus petition (Doc. # 88, at pp. 205-08). 102
B. The Constitutional Standard
The only legal authorities presented by Petitioner in support of his analogous
claim for state habeas corpus relief were state court authorities interpreting state
law.103

Federal habeas corpus relief will not issue to correct errors of state

constitutional, statutory, or procedural law, unless a federal issue is also presented.
Estelle v. McGuire, 502 U.S. at 67-68; Lewis v. Jeffers, 497 U.S. at 780; Pulley v.
Harris, 465 U.S. at 41.
The only federal authorities germane to Petitioner’s fifteenth claim cited in
Petitioner’s original petition or brief on the merits are the Supreme Court’s holdings

furnished the state habeas court with any specific facts or evidence indicating any member of
Petitioner’s jury venire testified falsely during voir dire examination.
Only one member of the jury venire who reached the group and individual voir dire stage
had the initials “A.B.”, i.e., venire member 25. Two members of the jury venire had the initials
“J.C.”, i.e., venire members 84 and 88. Petitioner does not offer any information from which this
court can identify which of these two venire members Petitioner claims failed to raise his or her
hand when the state trial judge asked the assembled jury venire members the following question:
“Have any of you ever testified in a criminal trial or a civil trial or before the Grand Jury? Have
you ever testified as any kind of witness before a jury in a criminal civil trial or to the Grand Jury?”
4 SCR at p. R-102. In response to the trial judge’s questions about service as a trial witness or
Grand Jury witness, venire members 16,129,10, 55,13, 58,120, and 35 all indicated on the record
they had testified in various judicial proceedings. 4 SCR at pp. R-l 02-04. None of those venire
members had the initial “J.C.”
102

103

12 SCR (Revised) Tab 13-A. at pp. 99-02.
119

Appendix B-120
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 120 of 263

in McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984), and
Williams v. Taylor, 529 U.S. 420 (2000). The holdings in both cases will be
examined in detail.
In McDonough, the federal trial court asked potential jurors in a products
liability lawsuit whether any of them or their family had sustained any severe injury
in an accident that resulted in any disability or prolonged pain and suffering.104 One
venire member who eventually became a juror did not respond to this question,
which was addressed to the panel as a whole. After the trial concluded and the jury
returned a verdict in favor of the plaintiffs, the defendant manufacturer filed a motion
for permission to approach members of the jury, alleging “upon information and
belief’ that this juror’s son may have been injured at one time, a fact which was not
revealed during voir dire. After the District Court denied its initial motion, the
defendant manufacturer filed a second motion and attached an affidavit from the
father of the primary plaintiff who stated that, in the course of his duties as a Navy

More specifically, the federal District Court asked the jury venire the following question:
“Now, how many of you have yourself or any members of your immediate family
sustained any severe injury, not necessarily as severe as Billy, but sustained any
injuries whether it was an accident at home, or on the farm or at work that resulted
in any disability or prolonged pain and suffering, that is you or any members of
your immediate family?”
McDonough, 464 U.S. at 550.
The Supreme Court assumed the venire member in question had not considered his son’s
broken leg to have been sufficiently serious to require an affirmative answer to this question.
McDonough, 464 U.S. at 555.
104

120

Appendix B-121
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 121 of 263

recruiter, he had reviewed the enlistment application of the juror’s son and that the
applicant stated he had been injured in the explosion of a truck tire. The District
Court granted the motion for permission to approach the juror to inquire about the
injuries allegedly sustained by his son. The defendant moved for a new trial, citing,
among other reasons, the District Court’s initial denial of its motion to approach the
juror. The District Court denied the motion for new trial. On appeal, the Tenth
Circuit held the issue of the juror’s good faith was irrelevant and reversed. It ordered
a new trial. The Supreme Court noted that “jurors are not necessarily experts in
English usage” and held “[t]o invalidate the result of a three-week trial because of a
juror’s mistaken though honest response to a question, is to insist on something
closer to perfection than our judicial system can be expected to give.” McDonough,
464 U.S. at 555. The Supreme Court concluded it was error for the Tenth Circuit to
reverse without first permitting an inquiry by the District Court into harmless error
and set forth the following standard for obtaining a new trial premised upon a venire
member’s failure to reveal information: “We hold that to obtain a new trial in such
a situation, a party must first demonstrate that a juror failed to answer honestly a
material question on voir dire, and then further show that a correct response would
have provided a valid basis for a challenge for cause.” McDonough, 464 U.S. at
556 (Emphasis added)

121

Appendix B-122
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 122 of 263

In Williams v. Taylor, a state prisoner convicted of capital murder and
sentenced to death challenged his conviction based, in part, on allegations of jury
bias and prosecutorial misconduct, arising from a venire member’s failure to respond
to questions asking whether the venire members were related to people likely to be
called to testify at trial or had ever been represented by any of the attorneys involved
in the case. More specifically, the petitioner alleged, and presented the federal
District Court with affidavits establishing the venire member who eventually served
as the jury foreperson was the ex-spouse of the prosecution’s lead-off witness and a
former client of one of the prosecutors.105 The Supreme Court held the petitioner

The Supreme Court’s opinion describes the operative facts as follows:
Petitioner’s claims are based on two of the questions posed to jurors by the
trial judge at voir dire. First, the judge asked prospective jurors, “Are any of you
related to the following people who may be called as witnesses? Then he read the
jurors a list of names, one of which was “Deputy Sheriff Claude Meinhard.”
Bonnie Stinnett, who would later become the jury foreperson, had divorced
Meinhard in 1979, after a 17-year marriage with four children. Stinnett remained
silent, indicating the answer was “no.” Meinhard, as the officer who investigated
the crime scene and interrogated Cruse, would later become the prosecution’s leadoff witness at trial.
After reading the names of the attorneys involved in the case, including one
of the prosecutors, Robert Woodson, Jr., the judge asked, “Have you or any member
of your immediate family ever been represented by any of the aforementioned
attorneys?” Stinnett again said nothing despite the fact Woodson had represented
her during her divorce from Meinhard. App. 483, 485.
In an affidavit she provided in the federal habeas proceedings, Stinnett
claimed ‘[she] did not respond to the judge’s [first] question because [she] did not
consider [herself] ‘related’ to Claude Meinhard in 1994 [at voir dire] .... Once
our marriage ended in 1979,1 was no longer related to him.” Id., at 627. As for
Woodson’s earlier representation of her, Stinnett explained as follows:
“When Claude and I divorced in 1979, the divorce was
uncontested and Mr. Woodson drew up the papers so that the
divorce could be completed. Since neither Claude nor I was
105

122

Appendix B-123
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 123 of 263

had presented sufficient evidence to warrant an evidentiary hearing in the District
Court on the issues of whether the juror in question was biased and whether the
prosecution’s silence “so infected the trial as to deny due process.” Williams v.
Taylor, 529 U.S. at 441-42.

The Supreme Court emphasized the remedy for

allegations ofjuror partiality is a hearing in which the defendant has the opportunity
to prove actual bias. Id., 529 U.S. at 444.
C. De Novo Review
Unlike the party seeking a new trial in McDonough and the federal habeas
petition in Williams v. Taylor, Petitioner did not support his conclusory assertions
before the state habeas court with any fact-specific allegations, affidavits, or other
evidence showing any of the members of his jury venire actually testified falsely
during individual voir dire examination. Petitioner likewise fails to allege any
specific facts before this court, much less furnish any affidavits based upon personal
knowledge or other evidence, showing any of the jury venire members whom he

contesting anything, I didn’t think Mr. Woodson ‘represented’ either
one of us.” Id., at 628.
Woodson provided an affidavit in which he admitted “[he] was aware that
Juror Bonnie Stinnett was the ex-wife of then Deputy Sheriff Meinhard and [he]
was aware that they had been divorced for some time.” Id., at 629. Woodson stated,
however, “[t]o [his] mind, people who are related only by marriage are no longer
‘related’ once marriage ends in divorce.” Ibid. Woodson also ‘had no recollection
of having been involved as a private attorney in the divorce proceedings between
Claude Meinhard and Bonnie Stinnett.” Id., at 629-630. He explained that
“[w]hatever [his] involvement was in the 1979 divorce, by the time of trial in 1994
[he] had completely forgotten about it.” Id., at 630.
Williams v. Taylor, 529 U.S. at 440-41.
123

Appendix B-124
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 124 of 263

alleges failed to accurately respond to the trial judge’s questions directed to the
assembled venire members actually failed to raise their hand when asked pertinent
questions. Instead, with regard to the first of these venire members, Petitioner points
to a series of questions the state trial court directed to the jury venire as a group and
alleges, without any explanation, that venire member “A.B.” failed to disclose he
had a brother with a crack addiction. Petitioner offers no explanation for how he or
his federal habeas counsel acquired personal knowledge of the fact that venire
member A.B.’s brother was addicted to crack cocaine as of the date of Petitioner’s
1995 capital murder trial. Nor does Petitioner or his federal habeas counsel allege
any specific facts showing either of them has ever possessed personal knowledge of
any facts showing either (1) venire member “A.B.” was personally aware at the time
of Petitioner’s 1995 trial that venire “A.B.” had a brother with a crack addiction, (2)
venire member “A.B.” understood the judge’s series of ambiguous questions during
group voir dire as asking whether he had a relative who had experienced a drug
problem, or (3) the factual or evidentiary basis for Petitioner’s assertion that venire
member “A.B.” had a brother who was addicted to crack cocaine in 1995.
The parties in McDonough and Williams v. Taylor, who sought new trials
based upon allegations that venire members failed to respond truthfully to questions
during voir dire, furnished the responsible reviewing courts with affidavits from the
venire members in question. Petitioner did not present the state habeas court, and
124

Appendix B-125
Case 2:02-cv-00777-WKW-SRW Document 147 Filed 07/14/17 Page 125 of 263

does not present this court, with any affidavits from individuals possessing personal
knowledge of relevant facts showing that either (1) venire member “A.B.” actually
had a brother who was addicted to crack cocaine at the time of Petitioner’s 1995
capital murder trial or (2) venire member “J.C.” testified as a witness in multiple
civil trials prior to being called to serve on Petitioner’s jury. Moreover, Petitioner’s
conclusory assertions of concealed information by these poorly identified venire
members fail to satisfy the standard set forth in McDonough for obtaining a new
trial, i.e., a showing not only that a juror failed to answer a material question on voir
dire but that a correct response would have provided a valid basis for a challenge for
cause. McDonough, 464 U.S. at 556. Neither the fact that a venire member had a
relative with a crack addiction nor the fact that a venire member had previously
testified in multiple civil proceedings would, standing alone, have justified a valid
challenge for cause. Because Petitioner has failed to furnish any fact-specific
allegations or any affidavits supporting his conclusory assertions of juror bias, he is
not entitled to an evidentiary hearing under the standard set forth in Williams v.
Taylor. 106

Moreover, Petitioner’s conclusory assertion that, if his trial counsel had known that
venire member “J.C.” had previously testified multiple times injudicial proceedings, Petitioner’s
defense team would have questioned “J.C.” about same is not supported by this court’s
independent review of the record from the voir dire examination of Petitioner’s venire members.
As explained above in note 102, supra, eight members of Petitioner’s jury venire responded
affirmatively when asked by the trial judge whether they had ever testified in a judicial proceeding.
4 SCR at pp. R-102-04. Petitioner did not ask seven of those eight venire members any questions
about their prior service as witnesses in judicial proceedings. See 4 SCR at pp. R-128-36 (voir
125
106

